<html>
<title> - COMMITTEE FUNDING HEARING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                       COMMITTEE FUNDING HEARING

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          HOUSE ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

           MEETING HELD IN WASHINGTON, DC, FEBRUARY 28, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html















                      U.S. GOVERNMENT PRINTING OFFICE
35-719 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 















                   COMMITTEE ON HOUSE ADMINISTRATION

           JUANITA MILLENDER-McDONALD, California, Chairwoman
ROBERT A. BRADY, Pennsylvania        VERNON J. EHLERS, Michigan
ZOE LOFGREN, California                Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN DAVIS, California

























                      HEARING ON COMMITTEE FUNDING

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:35 a.m., in room 
1310, Longworth House Office Building, Hon. Juanita Millender-
McDonald (chairwoman of the committee) presiding.
    Present: Representatives Millender-McDonald, Lofgren, 
Capuano, Gonzalez, Davis of California, Ehlers, Lungren, and 
McCarthy.
    Staff Present: Charles Howell, Chief Counsel; Tom Hicks, 
Counsel; Matt Pinkus, Professional Staff/Parliamentarian; 
Kristin McCowan, Chief Legislative Clerk; George Hadijski, 
Minority Director of Member and Committee Services; and Peter 
Sloan, Minority Professional Staff.
    The Chairwoman. Good morning. The Committee on House 
Administration will now come to order.
    It is great this morning to have all of our Chairs here to 
outline their agenda and talk about their budgets and the 
priorities for the 110th Congress. It is customary for this 
committee to bring the Chairs before us to speak about this and 
to outline their budgets.
    I have been very impressed with what I have seen in reading 
the various letters and the outlines of the Chairs. As you 
know, in the 109th Congress, there was not a budget; therefore, 
the committees budgets will stay pretty much as they were in 
the 109th Congress with just a tweak of perhaps a 2 percent 
increase. So we are very, very grateful to the Chairs for their 
tolerance on this.
    However, in the second half of the 110th Congress we will 
be reviewing the budget process again. And we have spoken with 
the Speaker, and she has consented to review that.
    So we do have the Members coming in order by time. We are 
sorry that we are running a little late here in getting 
started. But this morning we have with us Chairman Lantos and 
Ranking Member Ros-Lehtinen, both representing the Foreign 
Affairs Committee. And they are here this morning to present 
their agenda and their budget.
    Good morning to both of you.
    Mr. Lantos. Good morning.
    Ms. Ros-Lehtinen. Good morning.
    The Chairman. Before we get started, though, I would like 
to at least have the Ranking Member make an opening statement 
before we move on.
    Mr. Ranking Member.
    Mr. Ehlers. Thank you, Madam Chair. I appreciate the 
opportunity, and I am sorry I held you up for 3 minutes. I was 
in the back room discussing, and I did not realize you were 
here.
    In the interest of time and since we have a number of 
people waiting, if you don't object I will submit my statement 
for the record and just make a few very brief comments.
    I, first of all, want to thank all the chairmen for coming. 
I have been on this committee for 12 years now. This is an 
annual program that we go through. We listen in great detail to 
what the committee chairs and ranking members have to say and 
use our best judgment.
    This year is totally different than any I have experienced 
because we have very little judgment to exercise, because of 
the lack of money available. The decision was made by the 
Speaker to spread it across the board with the exception of 
some additional funds for the Armed Services Committee, which I 
have personally questioned because I think the work of every 
committee is equally important.
    Nevertheless, that decision has been made, so the only hope 
for salvation will be next year. I hope we do manage to pass a 
budget this year, and we will be able to consider your request 
in more detail next year.
    One last comment I would make: Something I worked very hard 
on when we took over the majority some years ago was to restore 
or to bring--not restore because it hadn't been there--but to 
bring every committee up to a two-thirds/one-third ratio, 
majority getting two-thirds of the funds and the minority 
getting one-third.
    And it was a painstaking task because when we were in the 
minority, some of the committees only received 10 percent of 
the total budget. Naturally the members of those committees 
were not at all anxious to have the new minority get more than 
they had been willing to give to us.
    With Chairman Bill Thomas we worked very hard on this. We 
managed to get it through, and so a few years ago we reached a 
one-third/two-thirds for every committee. I would hope that 
every committee before us will commit to maintaining that ratio 
to the best of their ability during the course of the year.
    So I will ask that question of everyone.
    I also recognize that chairmen and ranking members have 
considerable leeway as to just how they worked this agreement 
out, because there are joint expenses and so forth and they 
have been very creative in that. It is very important that we 
continue the principle of two-thirds/one-third, not just for 
the benefit of the current minority, but for the benefit of the 
current majority for the time when they may once again be in 
the minority.
    Having said that, Madam Chair, I turn it back over to you.
    [The statement of Mr. Ehlers follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you so much, Mr. Ranking Member.
    And now we will go to the Chairman for his opening 
statement and then to the Ranking Member for her opening 
statement, and then we will proceed from there.
    Good morning to you both.

STATEMENT OF THE HON. TOM LANTOS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Lantos. Madam Chair, Mr. Ranking Member, distinguished 
members of the committee, my colleagues, allow me to begin with 
a personal observation, which is also incumbent upon me to 
reveal the truth. The Chair of this committee and I have a 
special relationship. She is not only a dear friend, but a 
neighbor; and occasionally I have the privilege of cleaning her 
car, picking up her lost keys, opening the doors for her, and 
if she has a particularly heavy package, it is I who carries it 
in.
    So I ought to be entitled to special treatment, but I am 
not asking her for any.
    The Chairwoman. I am grateful, however.
    Mr. Ehlers. I think this amounts to undue influence.
    Mr. Lantos. I am just delighted to see this great 
colleague, a woman of great intellectual distinction and 
commitment, have this chairmanship.
    If you will allow me, Madam Chairman, I always also would 
like to reminisce for about 30 seconds. It was 20 years ago in 
this room that my wife Annette and I had the pleasure of 
hosting the Dalai Lama's first appearance in the Congress of 
the United States.
    The administration wouldn't touch him with a 10-foot pole. 
The leadership of Congress would not see him. And it was just a 
handful of colleagues who joined Annette and me in recognizing 
this great leader.
    Subsequently, he was received by the leadership of the 
Congress, the Vice President, the President. And his career 
culminated when Richard Gere, myself and the Dalai Lama 
appeared on Larry King's program. You can't get any higher than 
that.
    The Chairwoman. Absolutely.
    Mr. Lantos. Madam Chair, members of the committee, this has 
been a very bipartisan committee under the leadership of our 
friend, Henry Hyde, and it will be an equally bipartisan 
committee under my chairmanship. I have great pleasure of 
serving with my most distinguished colleague from Florida, and 
you will hear from her in a minute.
    To indicate the degree of bipartisanship that is present in 
our work, there are eight shared staff Members--there were 
eight shared staff members of the committee under Chairman 
Hyde. I have eight shared staff members. I retained six of Mr. 
Hyde's staff people because they have done an outstanding job 
and they will do an equally outstanding nonpartisan job as 
shared staff members of the committee.
    I don't need to tell a group of your sophistication that 
for better or worse--and, unfortunately, for worse--Foreign 
Affairs has an incredible agenda. Whether you watch television 
or read the newspapers, whether it is 80 percent or 90 percent 
of the issues, from Iraq to Afghanistan to Iran to North Korea 
to China to India to Russia to Europe, the issues are with our 
committee.
    We are realists. We are not asking for the kind of increase 
that in terms of our workload we would require. We are asking 
for a modest 4.9 percent increase for both the current year and 
the next year.
    Let me also mention that in terms of efficiency and 
productivity, Madam Chair, we have very bad distribution of 
offices. Speaker Hastert indicated to us that they would try to 
accommodate us. We have five of our subcommittees' staff in the 
Ford Building; this makes it very difficult for us to operate 
efficiently. And I am just making a modest plea, I presume on 
behalf of both of us, that as possible, if you could, allow us 
a consolidation of physical space.
    I want to thank you for giving us this opportunity. I will 
be delighted to answer any questions after you hear from my 
friend.
    The Chairwoman. The Ranking Member.

STATEMENT OF THE HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Ros-Lehtinen. Well, thank you so much, Madam Chair, 
Ranking Member Lantos, our friends and colleagues.
    I have a prepared statement that I would like to make part 
of the record, but I would also like to echo the remarks made 
by our distinguished chair. This is a truly bipartisan 
committee. It is a delight for us on the other side of the 
aisle to work with Chairman Lantos on difficult, thorny, 
complex issues.
    Today, for example, we have a full committee hearing on 
Iraq. In the afternoon, we have a full committee hearing on 
North Korea. Every day we are meeting the challenges that are 
presented before us, defeating the radical Islamic militant 
jihadists, dealing with nuclear proliferation throughout the 
world. But we do work in a bipartisan manner.
    It does not mean that we agree with all of the issues. But 
we do it--we disagree in a courteous and in a professional 
manner. So it is an honor for me to work with Tom and his staff 
on all of these issues.
    I echo his comments about our request for the funding, and 
most especially for a consolidation of space because going from 
building to building makes our work that much more difficult. 
But I also will just submit my statement for the record.
    Thank you Madam Chair, thank you Mr. Ranking Member and 
members.
    [The statement of Ms. Ros-Lehtinen follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you so much for both of you and your 
presentation today, and thank you for the brevity of it, given 
the time constraints.
    Mr. Chairman and Ms. Ranking Member, I hear you very 
clearly that there is a need for this modest increase. However, 
again, because of the budgetary constraints that we are under, 
we are trying our best to do whatever we can possibly do to 
give as much as we can for chairpersons this year.
    So I would have to say that, at this juncture, what we have 
afforded to you is the 2 percent increase for inflation--2.4 
for inflation. But we can look at the physical space that you 
speak about and see whether the consolidation can be done. Of 
course, I would have to speak with the Speaker and see just 
where we are in terms of that.
    You said you had how many staffers in the Ford Building?
    Mr. Lantos. We have five subcommittees in the Ford 
Building. We work on a very integrated basis, Madam Chair, and 
an enormous amount of time is wasted running back and forth. 
And this would just help us do our work somewhat more 
rationally.
    The Chairwoman. That, I can certainly----
    Ms. Ros-Lehtinen. Madam Chair, if I could just add to that, 
and also I meant to echo Ranking Member Ehler's comments about 
a fair and equitable distribution of majority/minority funding, 
and I thank the ranking member for bringing that up. I know 
that Chairman Lantos is very cognizant of that and has been 
working with us on that point.
    Mr. Lantos. Absolutely.
    The Chairwoman. And you two have worked very well with that 
two-thirds/one-third ratio; that is very good, and we are 
thankful to you for that.
    I will again look into the consolidation in terms of your 
five subcommittees----
    Mr. Lantos. We appreciate that.
    The Chairwoman [continuing]. And see what we can do there.
    Outside of that, I am sorry that this year brings us to 
this point where we are trying to struggle with the budget, in 
light of the fact that there was no budget last year. So we are 
having to come in with the baseline budget from last year with 
a modest increase for inflation, and that is where we are at 
this juncture.
    And I would now refer to the Ranking Mmember for comments.
    Mr. Ehlers. Thank you, Madam Chair.
    Very briefly, space is at a premium for every committee and 
most of the committees I am on have split their staff. If you 
could see the quarters that both the majority and minority 
staff of this committee have, you would be grateful for the 
situation.
    I realize that is small consolation.
    But one question I did have about you wanting to 
consolidate. Would you be willing to consolidate everything in 
the Ford Building, have all of your subcommittees and staffs in 
the Ford Building?
    Mr. Lantos. I will be happy to take it back to my 
colleagues. I doubt that the answer will be in the affirmative.
    Mr. Ehlers. I just wondered because there are a lot of 
people who would prefer more space in these three buildings. 
But I just wanted to know that.
    The other is a political statement. I supported the 
President's surge in Iraq, but I have made it clear in speeches 
and in my writings that I felt we should have an equal surge in 
diplomacy. I am quite happy to argue, in your case, that if we 
are going to give more money to the Armed Services Committee, 
when everyone else is being held the same, that your committee 
should also get more, so we can increase our diplomatic efforts 
as well as our military efforts.
    Mr. Lantos. If I may respond to my good friend, although I 
realize he was half serious and half witty, I have just come 
back from Moscow and had very serious discussions with the 
Soviet foreign policy leadership. Then I was in Western Europe. 
In many places I was asked, as the new chairman of the Foreign 
Affairs Committee, what is my number one objective, and I had 
very little difficulty answering it, Madam Chair.
    I said, when I came to the Congress, the reputation, the 
standing, the prestige of the United States was sky high. It is 
now the lowest that I can recall in my adult lifetime, which is 
a long lifetime. And I think our committee has a very heavy 
responsibility beyond any geographic location; be it North 
Korea or Iraq or Afghanistan, it is to work on restoring global 
respect and appreciation for the United States as the one 
remaining superpower with enormous global responsibilities.
    And your comment that you favor a surge in diplomacy is a 
comment I fully relate to and strongly approve, so I appreciate 
your observation.
    Mr. Ehlers. Well, thank you. I want to assure you that my 
comment about matching money for you with money for the Armed 
Service Committee, I was dead serious.
    Mr. Lantos. I appreciate it.
    Mr. Ehlers. Thank you very much. I yield back.
    The Chairwoman. Thank you, Mr. Ranking Member.
    Mr. Lantos and Ms. Ros-Lehtinen, we do recognize that the 
issues you have are vast and very complex. And you do represent 
us well when you go abroad, and nationally, to speak on the 
issues of foreign affairs, so we appreciate the work that you 
do.
    I would like to ask if there are other members who would 
like to make comments before we move on?
    The Chairwoman. Yes, Ms. Lofgren.
    Ms. Lofgren. Just briefly, I would say thank you to the 
chairman, who is, I am proud to say, from our great State of 
California, and to the ranking member, for the work they do for 
our Nation. It is really wonderful that we have Members who are 
experts in this field.
    When you think of diplomacy, you think, executive branch, 
but we also think legislative branch because we have an 
important role to play.
    My question is really generic, and I am not sure how it is 
going to be developed. But we have, and the Speaker has 
announced her interest in making sure that all committee 
hearings are webcast, which I think is a great step forward, 
because then the public will be able to see the work that we 
are doing.
    Do you know whether that has been accomplished in all of 
your hearing rooms or do we need to do something more to 
accomplish that?
    Mr. Lantos. I think we are capable of doing it.
    Ms. Ros-Lehtinen. If I could continue, Chairman Hyde----
    Mr. Lantos. Excuse me. Our full committee hearing room is 
fully equipped. The subcommittee hearing rooms are not yet, and 
I very much look forward to having all of our committee rooms--
--
    Ms. Ros-Lehtinen. If I could continue, I echo what the 
chairman said. Under Chairman Hyde's leadership, we were able 
to modernize Room 2172 of Rayburn, and so that is fully 
operational. As the chairman points out, our subcommittees then 
meet in different rooms and they are not able to do that, like 
many of our subcommittees.
    Ms. Lofgren. We want to make sure every full committee is 
capable of webcasting and then, as we move through this, that 
every subcommittee----
    Ms. Ros-Lehtinen. Many subcommittee hearings do take place 
in the full committee room.
    Ms. Lofgren. Rather than bother all of the committee 
chairmen, I wonder if later the staff could give us a status 
report on where we are. And then, at a subsequent date, I am 
sure you will want to show the leadership on getting us there. 
And I just think--you know, if the public could see what this 
committee is doing, I think it would be a good thing for not 
only the committee, but for the country.
    So I thank you very much for your answer, for your service.
    Ms. Ros-Lehtinen. Thank you, Madam Chair. And if I could 
point out that our committee is headed by a naturalized 
American and the ranking member is a naturalized American, and 
here we are talking about foreign policy.
    The Chairwoman. It doesn't get any better than that.
    Thank you all so much. Because of time constraints and 
because we have chairpersons who are waiting in the wings, we 
thank you both so much and appreciate your tolerance with us on 
the budget.
    Mr. Lantos. Thank you so much.
    Ms. Ros-Lehtinen. Thank you.
    The Chairwoman. We would like to see now the Chairman of 
the Judiciary Committee, Mr. Conyers, and their Ranking Member, 
Mr. Smith.
    Gentlemen, thank you for being here and if you would like 
to summarize your statements and submit your full statements 
for the record, we would appreciate that because of the time 
constraints. Good morning to both of you, and welcome.

 STATEMENT OF THE HON. JOHN CONYERS, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Conyers. Good morning, Madam Chairman, to the Honorable 
Juanita Millender-McDonald; and our ranking member from 
Michigan, Vern Ehlers, and the rest of the distinguished--the 
former attorney general of California, of course; and Zoe 
Lofgren, who has been on our Judiciary Committee, as well; and 
our dear friend from Massachusetts. We are all delighted to be 
here and to merely let you know of the good cooperation that is 
being enjoyed by the chairman and the ranking member on the 
House Judiciary Committee. I have been working with Lamar Smith 
in a very fine way, which makes our submission rather easy and 
simple.
    First of all, we don't have any major requests compared to 
some that you are receiving. And I begin by reminding you, the 
Judiciary Committee is among the most active committees; 13 
percent of the total legislative measures introduced have been 
referred to our committee. It has always been an active 
committee. And we have an even more ambitious agenda for the 
110th Congress.
    Immigration is the biggie that we are all hoping now to 
repair and move forward from the 109th Congress. But we also 
have lobbying reforms, civil rights concerns, criminal justice, 
commercial and administrative law, patent and copyright reform, 
judicial security, and antitrust, among others.
    I might say that I also had a very cordial meeting with 
Attorney General Gonzalez yesterday in preparing him to come 
before the committee, and I think we are going to get more 
oversight than we have ever had before.
    And finally, consistent with past practice, Ranking Member 
Lamar Smith and I have agreed to allocate a third of the 
payroll to the minority, as usual, after first deducting shared 
administrative employees. We were at seven in the last 
Congress, we are down to six now; and this allows additional 
payroll flexibility to the minority.
    That is the bulk of information that I bring you. But I am 
happy to be before so many friends on this committee, including 
the honorable chairman.
    [The statement of Mr. Conyers follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. I thank the gracious gentleman from 
Michigan so much, and appreciate your very informative opening 
statement.
    You do have an active committee. And I tell you, you have 
the big guns--immigration, lobby reform and copyright. So we 
look forward to your leadership on those issues, along with our 
colleague on this panel, who will be working very hard on 
immigration issues.
    Mr. Ranking Member.

STATEMENT OF THE HON. LAMAR SMITH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Smith. Thank you, Madam Chair.
    The Chairwoman. Thank you. Welcome.
    Mr. Smith. First of all, may I have unanimous consent to 
have my formal written statement entered as part of the written 
record?
    The Chairwoman. You may, and thank you so much.
    Mr. Smith. I would like to point out to Chairman Conyers 
that it looks like we have some favorable terrain here. Two 
members of the House Administration Committee are members of 
the Judiciary Committee. I have a colleague from San Antonio, 
who just left, who is also a member of the committee; and also 
a colleague from Massachusetts, who is the chairman of the 
House Ethics Task Force, that I serve as ranking on, is a 
member of the House Administration Committee, too.
    So I hope those friendships will be--not pay off, that is 
too crass--but will be recognized during the process.
    The Chairwoman. We know how to pick them, right?
    Mr. Smith. True.
    Madam Chair, I simply want to say that I support Chairman 
Conyers' request for a very small--relatively small increase in 
the Judiciary Committee budget. That 4 percent is small 
compared to a lot of other committee requests, and furthermore, 
most of that 4 percent is going for an increase in salaries, 
which is needed.
    It is my opinion that, frankly, most of the people who work 
on Capitol Hill are underpaid and overworked. And this allows 
the Judiciary Committee to raise the salaries of some of our 
hardworking Judiciary Committee members.
    So I am happy to be here to support the chairman and his 
request for the Judiciary Committee budget. And I will yield 
back.
    [The statement of Mr. Smith follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you so much. And it is good to see 
the two of you working actively on an active committee, and 
that you are willing to share your employees to the degree that 
you can.
    I would like to have the Ranking Member make statements 
because we are on a tight schedule, but I would like to remind 
you that in spite of the budget constraints that we do have, 
and you come in first from the baseline of last year's budget, 
we have only a 2.4 percent increase in your budget at this 
juncture for inflation, because that is the best we can do, 
given what we received from the appropriators.
    So that is the best that we can do. And if there is 
anything that comes down the pike, we will certainly look 
forward to working with you on it.
    Mr. Ranking Member.
    Mr. Ehlers. Very briefly, I just want to thank you, Mr. 
Chairman, for abiding by the two-thirds/one-third split. I 
personally worked very hard over the past 12 years with 
Chairman Thomas to achieve that goal, and we want to make sure 
we maintain it. Thank you very much.
    I yield back.
    The Chairwoman. Thank you so much. Anyone for comments?
    Mr. Lungren.
    Mr. Lungren. Having served on the Judiciary Committee 
before, and now, I appreciate the one-third split. I recall in 
the old days it was not that way, and I believe we got 20 
percent of staff and 11 percent of the funds.
    I wonder, do you have a number of what the ratio of 
personnel is, staff is, in this request?
    Mr. Conyers. It is in here.
    Mr. Lungren. I was looking for it. I couldn't find it.
    Mr. Conyers. We have a total number of 86. So it is 51/21--
25, excuse me.
    Mr. Lungren. 51/25. Thank you. I appreciate that.
    The Chairwoman. Ms. Lofgren.
    Ms. Lofgren. Thank you, Madam Chair. I know that the time 
is short, but I just wanted to say, having been a member of the 
committee now for 13 years, this is an incredibly hardworking 
committee.
    I think, some weeks, it seems like every bill on the floor 
has gone through our committee, and especially the salary for 
the lawyers. I mean, we have kids coming out of law school that 
are being hired for far in excess of the experienced lawyers 
that we are trying to hire in the committee. So I think 
anything we can do today and also, hopefully, in the future 
would be paid off by good service and oversight; and I am 
hopeful that we might be able to do that down the line.
    I thank the chairperson for recognizing me.
    The Chairwoman. Thank you so much.
    And I thank the two of you. It has been great seeing both 
of you so cordial to each other and working so well together in 
spite of the budget constraints. We appreciate the work that 
you do, the oversight that you have done; and we thank you so 
much for your time here with us this morning.
    Mr. Conyers. We hope your confidence in us will continue 
throughout the 110th Congress.
    The Chairwoman. Indeed, it will. Thank you so much.
    The next committee is Financial Services, the Chairman, Mr. 
Frank, the Ranking Member, Mr. Bachus.

    STATEMENT OF THE HON. BARNEY FRANK, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Frank. Thank you, Madam Chair.
    The Chairwoman. Thank you so much, Mr. Chairman, for your 
patience. We know that you were here on time, and we are 
running a little behind. So thank you so much.
    Mr. Frank. I believe we have submitted the budget request. 
We sent along, I am told, an iconic copy in a single PDF file. 
I have no idea what that is, but I am told we submitted it.
    The Chairwoman. We have received it.
    Mr. Frank. I have very able people who can do that for me. 
So there it is.
    And don't try to explain it to me, Vern. It will be 
hopeless.
    The Chairwoman. I know that is right.
    Mr. Frank. We are here with our request. Obviously, I 
realize you are given a lot more demand than supply, and we 
certainly understand your difficulties.
    Our committee, like many others, has a heavy workload. 
There have been extraordinary developments in the financial 
services area--hedge funds, private equity derivatives--plus we 
inherit, as we take over--as you know, Madam Chair, because you 
have your own interest here--a serious deficit with regard to 
affordable housing. And we will be trying to undo a great deal 
of that.
    We are also trying to deal with a long overdue set of 
problems that remain after the hurricane in the gulf. So that 
there has been a significant expansion in our workload, and we 
hope that you will do the best you can in giving us the ability 
to deal with it.
    The Chairwoman. The ranking member, Mr. Bachus.

   STATEMENT OF THE HON. SPENCER BACHUS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALABAMA

    Mr. Bachus. Madam Chairman, members of the committee, I 
fully support the budget request that the chairman has made. As 
he has said, there are many critical issues that come before 
the Financial Services Committee. CFIUS will be on the floor 
today, and we will have Katrina tomorrow.
    Our committee is one of the largest in the Congress, and 
when you actually divide the amount of money per member of the 
committee, I think ours will be the third from the bottom.
    So while I think it is a sufficient amount of money, I 
certainly don't think it is excessive in any regard.
    I will close with that.
    The Chairwoman. Okay, thank you so much. Thanks to both of 
you.
    And you certainly do have critical issues, and I appreciate 
the work that Financial Services has done. Your committee has 
worked vehemently with Hurricane Katrina in terms of trying to 
get that moving, in terms of affordable housing. I am very 
impressed with the agenda that the Chairman and the Ranking 
Member have set forth. We just really are very impressed with 
your agenda.
    Unfortunately, the budget constraints have curbed anything 
outside of the 2.4 percent increase that we will be giving at 
this juncture, because we just do not have the money that is 
necessary to go any higher than that.
    Mr. Chairman, you want to make a statement?
    Mr. Frank. I do, Madam Chairman. I was delinquent in not 
saying this before.
    We obviously have needs. Let me underscore one of the 
things, and I heard you talk about this, and I appreciate that 
with regard to young people coming out of law school.
    I think the greatest bargain the American people get--and 
they don't understand it--is the willingness of so many 
talented men and women to work here for less than they can make 
elsewhere. And I am chagrined at our ability, or inability, to 
do more.
    One of the things I think we should be addressing is, I 
think the disparity between the people who work very hard on 
our personal office staffs and the committees, we don't pay 
either adequately. We pay the personal staff even more 
inadequately.
    I would hope this is something we can address. I am 
embarrassed to be an exploiter of such talented, hardworking 
people. The system forces us to do this.
    So whatever we can do. And I would make that our highest 
priority. Don't paint my walls and don't replace my rug, but 
give those people a raise because they deserve it.
    The Chairwoman. I do appreciate that and I could not agree 
with you more. We do have very, very talented staff that work 
on these various committees; and the pay is really something 
that we should be embarrassed by.
    Mr. Chairman, I have noted that, and I will talk with the 
Speaker about that when I talk with her about the various 
comments.
    Mr. Ranking Member.
    Mr. Bachus. I would just reiterate what the chairman said. 
When we recruit staffers, we are recruiting against Wall 
Street. We are recruiting against top banks. We are recruiting 
against securities companies, insurance companies. And 
financial services is actually the largest growth industry in 
America today. And we are competing against even foreign 
companies that are hiring a lot of our staffers.
    The demand in accounting, in all these fields, is great, so 
we--most of our staff have offers off the Hill at considerably 
more money, and----
    The Chairwoman. Indeed.
    Mr. Bachus [continuing]. We are struggling to maintain our 
expertise.
    The Chairwoman. Thank you.
    Mr. Ehlers. Comments?
    Mr. Ehlers. Thank you, Madam Chair.
    On that last point, I think part of the reason for the 
underpay is that for years Members of Congress have felt--have, 
in fact, been paid less than they were paid before they got 
here. I think that just sort of spreads through the system, and 
it is very unfortunate.
    In my opening statement, I emphasized how hard I had worked 
with Chairman Thomas over the past 12 years to get equity 
between the committees and establish a two-thirds/one-third 
ratio. So I am asking the chairman if he plans to continue two-
thirds for the majority, one-third for the minority, and if 
that has all been worked out?
    Mr. Frank. I would say--first, I do want to say, while I am 
not a deeply religious man, I assume you will be rewarded at 
some point for having worked closely with Chairman Thomas for 
that period.
    Secondly, we have I think worked in a completely bipartisan 
way. We have maintained that ratio and we certainly plan to 
continue to do so.
    Mr. Bachus. Chairman Frank has been exceptionally fair in 
the process and in the transition. He really helped us to avoid 
some hardships, and I couldn't be----
    Mr. Frank. Thank you.
    Mr. Bachus [continuing]. More pleased or happy over his 
chairmanship, unless I was the chairman. That would be the only 
way I would be happy and content.
    Mr. Frank. I thank the gentleman.
    Mr. Ehlers. I just want to say, I enjoyed working with 
Chairman Thomas. I learned so much from him, both what to do 
and what not to do. It was a wonderful learning experience 
because he is a remarkable person.
    Last comment, you should not sell yourself short, Chairman 
Frank. I know that you are a very bright person, and PDF simply 
means portable document format. It is just a way to send a 
document from one computer to another computer. Very simple.
    Ms. Lofgren. Designed by Adobe in my district.
    Mr. Frank. I am pleased to know that. And I am confident 
that for as long as I have to send documents, I will have 
people to send them. And when I retire no one should expect to 
get any documents from me.
    Mr. Ehlers. Just so you don't have to.
    Mr. Frank. I do want to acknowledge, however, that since 
2004, at the insistence of a member of this committee, Mr. 
Capuano, I do have a cell phone.
    Mr. Ehlers. I won't try to explain JPG to you. I yield 
back.
    The Chairwoman. Mr. Capuano, do you want to say something?
    Mr. Capuano. Since I have been dragged into this, I would 
also challenge the chairman to see, if he has a cell phone with 
him, if it is on.
    Mr. Frank. I do. I do. Here it is.
    Mr. Capuano. Is it on?
    The Chairwoman. And they have just summoned him to the 
floor?
    Mr. Frank. No, they don't have the number.
    Thank you, Madam Chair.
    The Chairwoman. Thank you so much, and thank you for your 
tolerance.
    The next chairman and ranking member we have are from the 
Homeland Security Committee--the Chairman, Mr. Thompson, and 
the Ranking Member, Mr. King.
    Gentlemen, welcome, and thank you so much for your 
patience.
    Mr. Chairman, as you know by sitting in, knowing the time 
constraints, we will ask that you summarize your statement and 
submit your entire statement for the record.
    Mr. Chairman, you may begin.

 STATEMENT OF THE HON. BENNIE G. THOMPSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Thompson. Thank you very much, Chairwoman Millender-
McDonald and Ranking Member Ehlers. I would like to thank you 
and all the members of the committee for allowing me and 
Representative King to testify on the funding submission for 
the Committee on Homeland Security.
    As you know, our committee is the new kid on the block, 
having only been permanent, last Congress, to oversee the 
fledgling Department of Homeland Security. While new, I promise 
you that we are old beyond our years.
    That is because our first year as a permanent committee, 
Hurricanes Katrina, Rita and Wilma struck. We found ourselves 
not only supervising a department struggling to merge 22 
agencies, but also watching as it failed in its first 
significant post-9/11 test.
    So we have some challenges, and I would like to say that 
while I was ranking member, Chairman King afforded me the 
opportunity to work with him in a very collegial manner. We 
continue to do so. With the change here in leadership in 
Congress, we have managed two suspension bills on the floor, 
one as late as yesterday. We will do a number of other things 
around the jurisdiction of the committee.
    After receiving permanent jurisdiction, I would like to say 
for the record the two-thirds/one-third ratio will remain in 
effect. We have worked out all the administrative challenges 
around that, and as far as our position is concerned, 
everything is correct.
    The challenge we have is, how do we continue to make good 
policies toward keeping America safe? It is a challenge, to be 
honest with you. Bad people think 24 hours a day on how they 
can hurt Americans here in this country, as well as abroad; so 
we have been challenged.
    To that end, while we are not asking for any additional 
moneys, per se, we did receive authorization from the Speaker 
to increase the staffing allotment based on previously 
allocated moneys; and that has been granted. So from our 
standpoint, we are here asking for the continued support of the 
committee with a nominal increase for cost of living, salaries, 
and what have you.
    Apart from that, again, we are all very familiar with what 
we have confronting this committee and this Nation, and we look 
forward to working in a collegial manner with Chairman King--
Ranking Member King.
    I just gave you a promotion.
    The Chairwoman. Watch it now.
    Mr. Thompson. And I will yield if I might to my ranking 
member for any comments he might have.
    The Chairwoman. Thank you so much, Mr. Chairman.
    [The statement of Mr. Thompson follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Mr. Ranking Member.

STATEMENT OF THE HON. PETER KING, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. King. Thank you, Madam Chair. And I want to thank 
Chairman Thompson for his statement. I concur with everything 
that was said. And I particularly appreciate his reaffirmance 
of the two-thirds/one-third ratio and emphasize again the 
bipartisan manner in which our committee has worked.
    And I know, when Ms. Lofgren and Mr. Lungren served on the 
committee, we did last year pass bipartisan port security 
legislation, chemical plant legislation, restructuring of FEMA, 
and worked together on many issues.
    And Chairman Thompson is now beginning a very extensive set 
of hearings on rail and transit security funding. So, again, 
the allocation of resources I believe is money well spent. It 
is--we are attempting to deal with an enemy which is anywhere, 
everywhere, and as Chairman Thompson says, works 24 hours a 
day.
    So I again thank Chairman Thompson for his cooperation and 
thank this committee for its indulgence. Thank you.
    The Chairwoman. And I thank the two of you, because as the 
chairman has said, and you have reiterated, Mr. Ranking Member, 
you do have a challenging committee. The challenges are vast, 
and trying to penetrate those persons whom we really don't 
know, but we know what they will do and how they will do it, is 
really quite critical.
    [The statement of Mr. King follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. It is good to see the collegiality between 
the two of you, and that spreads into your committee. And that 
is very good. We are happy that you are considerate of the 
budget constraints that we have given this year. And so we 
appreciate that as well.
    I am happy that the Speaker was able to grant that staff 
allotment, and we hope that will work and help in some way. So 
we appreciate the two of you and the leadership that you are 
providing and the work that you are doing.
    Now I will turn to the Ranking Member for comments.
    Mr. Ehlers. Thank you, Madam Chair.
    Very briefly, first of all, I want to thank you for the 
commitment to the two-thirds/one-third ratio.
    This committee worked very, very hard over the past 12 
years, particularly the first 6 years after the Republicans 
took over, to achieve that form of equity. It had been very 
inequitable before, and this committee wants to make sure we 
maintain that particular equitable standard. I appreciate your 
commitment to that.
    The other comment is, I think it is unfortunate that we 
don't have additional funds available. You may have heard my 
comments earlier about the Foreign Affairs Committee also 
deserving some additional funds--of those few additional funds 
that are being given to the Armed Services Committee; and I 
really think that your committee and the Foreign Affairs 
Committee also are extremely important and deserve recognition 
for that, too.
    In particular, I think your committee has more necessary 
oversight responsibilities than almost any committee in the 
Congress because of the newness of the department. You 
mentioned some obvious failures. I think there are a number of 
other failures, and clearly you need the funds to do good 
oversight. It is not easy to do oversight, but clearly you need 
it.
    Thank you for what you are doing and I yield back.
    The Chairwoman. Thank you so much, Mr. Ranking Member.
    Other members?
    Ms. Lofgren.
    Ms. Lofgren. Madam Chairwoman, just very briefly, I have 
had the privilege of serving on this committee since its 
inception, which has been a terrific honor. The chairman has 
done just a fabulous job, and the ranking member and he are 
coordinating, as you can see. It is really something Americans 
can be proud of. But I wanted to mention also just the 
outstanding staff that has been recruited.
    I see the staff director, Jessica Herrera, there, but 
really every member of the staff, both majority and minority, 
is highly professional; and if we have an opportunity to keep 
them through salary augmentation at a later date, the country 
will be well rewarded for that. It is really a credit to both 
of you that you have been able to attract and keep some of such 
really high-quality people.
    And I thank the gentlelady for yielding.
    Mr. Thompson. As a comment, Madam Chairman, I think Ranking 
Member King and I hear from people outside of Capitol Hill that 
very comment. They appreciate the outreach our staff is making 
toward coming up with best technologies and other things. And 
so, it is a struggle to keep good people. Talent anywhere is 
highly sought after, and unless we can keep salaries and 
benefits competitive to some degree, we stand the risk of 
losing good people because of that.
    Mr. King. I shouldn't say this with the people in the room, 
but the fact is, probably most of these people could leave 
tomorrow and go to the private sector and do far better, 
because homeland security is obviously an area where the 
private sector is looking for talented people.
    The Chairwoman. Your thoughts have been reiterated by 
several chairpersons and ranking members, and we know the key 
to the success of any of our committees are those staffpersons 
who give so much and get so little. And so perhaps that is 
something that we will look into as we move on through this 
110th Congress.
    Mr. Lungren.
    Mr. Lungren. I am proud to serve on this committee and I 
noted the comments that we had from the folks from 
International Relations, or Foreign Affairs, about 
consolidation of offices. I would just like the record to 
suggest we didn't even have offices for this committee for some 
months. We then had offices that were over in the third Library 
of Congress building. We then moved over to the Ford Building. 
We did not have an anteroom to our hearing room until just 2 
months before we lost our majority. But we fixed them up very 
nice for the chairman who now enjoys them.
    And so this committee staff has been working under some 
stresses and strains that others don't, just because of the 
nature of the newness of the committee.
    Secondly, we have done a very good job in the area of 
aviation safety, port security. We, working with the now-
chairman, produced a very good bill in terms of trucker safety.
    We need to do a lot more in cybersecurity. We need to do a 
lot more with trains and mass transit. And we need to retain 
and attract staffers who have expertise in these areas, Madam 
Chair.
    And so I would echo what has been said about the need to 
look at this committee maybe a little differently than others 
next year, when we have a little bit more money, because it had 
to get on its feet. It is on its feet now, but we find that the 
challenges are even beyond what we have already addressed, and 
it is very difficult.
    I know there was talk about financial services being the 
area of tremendous expansion. Homeland security is an area of 
tremendous expansion, and we are competing very much right now 
with the outside to get good people.
    So I understand the constraints we are under, but I hope 
this committee will seriously look at the Homeland Security 
Committee next year because of the unique nature of its needs. 
Thank you.
    The Chairwoman. Your thoughts are well taken, Mr. Lungren, 
and as we look at fiscal year 2008 we certainly will look into 
those things. We have heard from the chairpersons and the 
ranking members, and I have noted all of those. Surely a new 
committee, subjected to moving from one place to the other, is 
not conducive to productivity; and yes, they have been so 
productive in what they have done.
    We thank you so much for your time and your tolerance and 
look forward to working with you as the year progresses.
    Mr. King. Thank you, Madam Chairman.
    Mr. Thompson. Thank you very much.
    The Chairwoman. I would like to just--has Ms. Lofgren left? 
She had mentioned how many committees were fully equipped and 
wired, and of the 21 committees that we have, 13 have been 
wired and fully equipped--or 12\1/2\, if you will, because 
Agriculture is on its way; we are now in the process of wiring 
it. But once we have done Agriculture, we will have 13 of 21 
fully wired for Internet broadcasting.
    So we are very pleased with that, given we are just into 
the 110th Congress. So we thank the Superintendent and all of 
those who have made that happen.
    Now we have the next committee chairperson in the name of 
Transportation and Infrastructure, my chairman and ranking 
member. Welcome, Chairman Oberstar and Ranking Member Mica. And 
I say that because I sit on this Committee and am proud to be a 
Member on this panel.
    Good morning to both of you, and thank you so much for your 
tolerance.

 STATEMENT OF THE HON. JAMES L. OBERSTAR, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Oberstar. Good morning, Madam Chair and members on both 
sides, Mr. Ehlers and Mr. Lungren, Mr. Capuano. We appreciate 
very much this annual opportunity to come and present our case 
and advocate for the budget that our committee justly needs.
    You have before you our submission of documentation for our 
personnel compensation, our total budget request, our 
equipment, travel, oversight plan. And we have no plans yet for 
detailees, so that was left blank.
    We have a full agenda of work to accomplish in this 
Congress, a good deal of which was left over from the last 
Congress. By that, I mean bills that were bipartisan in nature 
that had either been reported from committee or passed the 
House, had gone to the Senate, had not been acted on or went to 
conference on which conference was not concluded. So we are 
recapturing those issues and bringing them back with every full 
intention to move that legislation.
    Now the House has been in session 19 days since this 110th 
Congress organized. Our committee has had 12 hearings, 3 
markups in subcommittee and full committee; has reported 15 
bills--6 have passed the House, 3 more likely to come next 
week. I learned this morning from our majority leader that he 
has agreed to our request to bring up the three water-related 
bills that we have reported from committee, combined sewer 
overflow, sanitary sewer overflow and the State revolving loan 
fund legislation, all of which have languished for quite some 
time even though they have had bipartisan support in the 
committee. So we look forward to moving that legislation.
    We have the major reauthorization of FAA, the Coast Guard--
and that will be about a $14-16 billion bill--the Coast Guard 
reauthorization, which runs in the range of $8 billion. We will 
deal with Amtrak reauthorization.
    We will have a number of oversight hearings, very--all of 
which are listed in our oversight plans submitted to this 
committee for your consideration.
    We have proposed a budget that stands with the practice of 
the past 12 years that minority is guaranteed one-third of the 
funding; and while we will not have a separate minority travel 
budget, we will continue the practice of the last 12 years to 
meet every request. As we were given that full consideration in 
the minority, we will continue that practice in the 110th 
Congress. We were satisfied with that approach.
    We are satisfied with the budget that was submitted in the 
past 12 years. This budget has been developed in full 
coordination with the minority staff and in conversation with 
Mr. Mica and myself, and I submit our plan for your 
consideration. Thank you.
    The Chairwoman. Thank you so much, Mr. Chairman. And indeed 
you have an ambitious agenda ahead of you that you have already 
started on--12 hearings, 3 markups, 15 bills, 6 of which passed 
on the House floor and 3 still to come. That is quite an 
ambitious agenda, along with the major FAA legislation and--
well, I have port security here because that is a very critical 
issue for me--but Amtrak and Coast Guard. So, you do have a 
very ambitious committee.
    Your committee is the largest committee; am I correct?
    Mr. Oberstar. It is the largest committee in the House.
    The Chairwoman. That is what I thought. Fine.
    The Chairwoman. Mr. Ranking Member, Mr. Mica.

    STATEMENT OF THE HON. JOHN L. MICA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Mica. Well, thank you, and congratulations, Chairwoman 
Millender-McDonald----
    The Chairwoman. Thank you.
    Mr. Mica [continuing]. On your important responsibilities 
in chairing House Administration. I have worked with you in the 
past in both your service here and on the Transportation 
Committee.
    Mr. Ehlers and other members here, I have a lengthy 
statement. Having served I think half--over half of my 
legislative career on House Administration, I am going to 
submit this----
    The Chairwoman. We thank you very much.
    Mr. Mica [continuing]. For the record.
    But you do have an important role, and it is important that 
the money that the committees spend go through this process. 
And people on the outside don't see this, but it is an 
important role of House Administration to conduct oversight and 
hearings and review even the expenditures of the committees in 
Congress.
    This is a bipartisan proposal before you. It does have some 
modest increases, which will help us; and that is the challenge 
we face right now, keeping good folks on the committee and in 
the Congress in service. And we may have to look at that 
because it is getting harder and harder to retain those folks 
when they can go out and make double the salary almost 
instantaneously.
    But, again, I compliment you on your good work. I will 
submit this, and I am pleased to be on this side of the table 
as the ranking member of Transportation. Thank you.
    [The statement of Mr. Mica follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you both. I have a great deal of 
admiration for both of you, and as I sit on this side, I still 
know that I am part of that panel and will come to you for 
those things that I need as well.
    I thank you so much for the two-thirds/one-third agreement 
that you have put together and have agreed on, as well as the 
fact that we know that many committee chairs and ranking 
members have come to us saying that good staff is hard to find 
or to keep. We do recognize that, and in the very intolerable 
climate we find ourselves in, in terms of budget constraints, 
we are going to look at that. I will speak to the Speaker about 
this because so many of you have come before us today, to talk 
about good staff and how we are losing them because of salary 
competitiveness.
    Your words and your comments have been well received.
    You do know that because of budget constraints we can only 
go to a 2.4 percent increase, due to not having a budget last 
year; so we had to come in from the baseline of last year's 
budget and just increase that modest 2.4 percent for inflation. 
We appreciate your tolerance on that. If we could do more, we 
would have done more.
    The fiscal year 2008 budget might present--and I think will 
present--as Mr. Lungren has asked that we look into with 
reference to staff increased salaries. So we will look at all 
of this as we move into that fiscal year 2008 budget.
    The Chairwoman. Now the ranking member.
    Mr. Ehlers. Thank you, Madam Chair, just very briefly I 
want to recognize the excellence of the committee and the 
excellence of the leadership, and I may be partial to this 
because I have been on that committee every second I have been 
in this Congress. It is a unique committee in two ways. It is 
almost entirely a bipartisan committee, it has a long history 
of bipartisanship, very few political squabbles. And secondly, 
it is the only committee I know of--I may be mistaken on this, 
but even though it is an authorizing committee, essentially 
functions as an appropriations committee on a major share of 
the budget when we are dealing with the surface transportation 
bill, for example, which is an excruciatingly difficult bill to 
put together. We are basically acting as appropriators in terms 
of allocating the money, and Mr. Oberstar has been a veteran of 
doing this many times. In terms of the size of the committee, 
if we increase it much more, it will be as large as the Senate, 
but even if we do that I think it will still be a lot more 
efficient.
    Mr. Oberstar. Yes.
    Mr. Ehlers. So I commend the committee for what they have 
done. I also appreciate the two-third/one-third commitment. 
This committee worked extremely hard to establish that over the 
past 12 years, and we certainly want to see that continue.
    With that, I will yield back.
    The Chairwoman. Thank you, Mr. Ranking Member. And I agree 
with you. You and I both serve on that committee still and so I 
agree with you that it is really one of the most talented teams 
we have around here, and they helped me get my teeth into all 
of this when I came in as a freshman member and went right to 
the Transportation Committee. They were so helpful in providing 
me with some of those things I could take back to the district 
and brag about.
    Are there any other comments from any committee members? 
Mr. Gonzalez?
    Mr. Gonzalez. Thank you very much, Madam Chair. I just 
quickly wanted to acknowledge the leadership role Mr. Oberstar 
has played in that particular committee and commend you. I 
think of all the committees in my years in Congress, the most 
responsive has been the Committee on Transportation and 
especially on railroad prices and safety in San Antonio. Again, 
I surely want to make sure that you have adequate funding so 
that you hold that hearing that is scheduled in San Antonio in 
the month of March.
    Mr. Oberstar. We will do that.
    Mr. Gonzalez. I yield back.
    The Chairwoman. Thank you so much. Mr. Lungren.
    Mr. Lungren. Thank you so much. I just want to say as the 
ranking member talked about how hard this committee worked to 
make sure there was a one-third/two-third ratio that prevailed 
with this committee, its predecessor committee back in the 
103rd Congress before there was the changeover. So I recall 
serving that Judiciary Committee where frankly we got 11 
percent of the budget and that was extremely difficult, and we 
looked longingly at the Transportation--well, I think it was 
called the Public Works Committee at the time--for the fairness 
of the treatment there. And it is an important thing whether 
you are Democrat or Republican to understand that you ought to 
allow the minority to have sufficient funds and sufficient 
staff so that they can make a real contribution to the work of 
the subcommittees and the committees, and this committee didn't 
have to wait for a turnover and the big change that was pushed 
by this committee before they did it, and I am pleased to see 
that you are continuing to do that. And thank you.
    The Chairwoman. Thank you so much. And Mr. Capuano, did you 
want to make?
    Mr. Capuano. Thank you. No questions from me.
    Mr. Oberstar. Just roads and bridges and harbors.
    The Chairwoman. We thank you so much for coming before us. 
It is good to see you and continue the good work that you do. 
When you see my seat empty, it is because I am here trying to 
do the House business, but I shall be there whenever the time 
permits. Thanks again so much for your tolerance and 
understanding of budget constraints and hopefully we can do 
better.
    Mr. Oberstar. Thank you, Madam Chair. Thank you, members.
    The Chairwoman. Well, committee members, it seems that we 
have come to kind of a lull here before the next group of our 
chairpersons arrive. So we are going to recess for a while. 
With unanimous consent, we will recess the Committee until 
around 11:15 when the other set of members will be coming 
through. It will be about 11:15 when they arrive so with 
unanimous consent we will recess the Committee until then. We 
will see you at 11:15. Thank you.
    [Whereupon, at 10:40 a.m., the committee was recessed, to 
reconvene at 11:15 a.m., this same day.]
    [11:22 a.m.]
    The Chairwoman. Good morning. We will reconvene the 
Committee now to further hear from the chairpersons and ranking 
members who come before us this morning. We appreciate your 
coming before us to outline your budget and your very ambitious 
agendas that we have seen and have been impressed by. We have 
before us at this juncture the Armed Services Committee Chair 
and Ranking Member and, gentlemen, welcome. Mr. Chairman, Mr. 
Skelton, you may get started.

STATEMENT OF THE HON. IKE SKELTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mr. Skelton. Thank you very much. I am delighted to be here 
with my companion Duncan Hunter, former chairman and now 
ranking member, and we are here on a bipartisan basis, Madam 
Chairwoman, Ranking Member, and we appreciate this opportunity 
to appear before you and the other members of your committee. 
Over the course of the 110th Congress, we are requesting for 
our committee budget purpose $7 million in 2007 and $8.6 
million in 2008. Now, this does represent a significant 
increase if we were to receive it. Nevertheless, we would still 
be around with six other committees ahead of us with dollars. 
And I would like to point out, Madam Chairman, Ranking Member 
Ehlers, that we authorize on a yearly basis over 50 percent of 
the discretionary portion of the entire Federal budget plus 
some mandatory spending in addition thereto.
    I look back, I have had the privilege of being in Congress 
now a good number of years, and I remember very well during the 
Les Aspin era when he was the Armed Services Committee chairman 
and at that time there was a good deal of oversight and 
analytical work running up to the Gulf War, 1990, 1991, and the 
committee staff at that time numbered 82. We are seeking to 
bring the staff numbers back at the end of this Congress to the 
level of 83 staff members, which still would leave us far below 
the staff members of other committees. Today our staff is at 
67, increased modestly over the last two Congresses from 60 to 
67. May I also point out that we have re-established the 
Subcommittee on Oversight and Investigation, and we have 
staffed that out of hide. And when Chairman Hunter expanded one 
subcommittee in 2003, the committee was granted four additional 
staff for that, and thus far we have just staffed the new Armed 
Services Investigative Subcommittee just out of hide and it is 
quite difficult.
    Now, we have a nonpartisan staff. However, we have 
increased the dedicated staff for the minority from 11 to 14. 
However, we all work very well together. You can't tell one 
from the other, and it is working very, very well. All 
committee operations, pay, equipment, travel, training, 
equipment, office space, everyone is treated in the same 
manner, and it worked well when he was chairman; and now that I 
am chairman.
    The only other thing I wish to point out, we have some real 
professionals on our staff that are very, very knowledgeable 
and very, very good at their specialty. No one can be a 
specialist--excuse me--specialize in everything regarding the 
military and I just can't tell you the caliber we seek and that 
we need, and I must tell you, you have to pay them to do this. 
And a good number of very able folks, because it is a public 
service fortunately for us, will take a pay decrease to come to 
join us. Nevertheless, we still have to pay them top dollar to 
get them. And that is why I am hoping that we can seek one more 
staff person this 2007 because the continuing resolution, we 
are somewhat limited there, but bring it up to a total of 83 in 
the next year, 2008. And frankly, we need them, and we are not 
here to have any gravy. It is all meat and potatoes. It is all 
the real stuff.
    So I would ask my cohort Duncan Hunter to follow through.
    [The statement of Mr. Skelton follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Mr. Ranking Member.

   STATEMENT OF THE HON. DUNCAN HUNTER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Thank you very much, Madam Chairwoman and Mr. 
Ehlers and my good friend Susan Davis, who I know will give a 
good plug for us as a member of the Armed Services Committee. I 
want to just join Ike, Mr. Skelton, my great friend, and we are 
partners in this endeavor to protect our country, and we have 
an extremely bipartisan committee. When partisan issues come up 
and you see us on the House floor on some of the national 
issues, we arm wrestle. On the other hand, we resolve back into 
our committee to find common ground, to protect our troops, to 
give them what they need for quality of life, to make sure they 
have the equipment for their mission. And it is a lot of work, 
and we have now--we have always had a major budget.
    Mr. Skelton, Chairman Skelton talked about this big piece 
of the discretionary budget. It really is the majority of the 
discretionary budget and now bigger and now more complex 
because of the two war fighting theaters in Iraq and 
Afghanistan and the global war against terror. And against that 
backdrop, we have this great team of professionals, many of 
whom have continued in service for a number of years whose 
average salary is less than most of the professionals in the 
committees on Capitol Hill, and we have the lowest number of 
staff in proportion to the size of our committee and certainly 
in proportion to our budget authority. I think that we have a 
lower number of staff members than almost any committee in the 
House. I believe Financial Services and Small Business may have 
a lower ratio, but they are the only two. So we have enormous 
work in front of us, and we need the extra--I totally support 
Chairman Skelton's request for additional money and for 
additional staff members. We have an enormous oversight burden, 
and you know, we have lots of issues, and we send--our people 
get into these issues. And they get into issues on force levels 
and on being able to protect our troops, equipment systems that 
are extremely complicated.
    So we have got a lot of work to do, and we have wonderful 
folks helping us. So I think if there was ever a time in 
history when the Armed Services Committee needed more 
resources, this is it.
    So let me just add my thanks for having us before you, and 
I strongly support all of Chairman Skelton's requests, Madam 
Chairwoman. Thank you.
    [The statement of Mr. Hunter follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you both so much, and thank you for 
the enormous work that you do on Armed Services. The threats 
that we have around the globe, the threats that we have right 
here at home certainly signify the great need for what you have 
come before us with. When the Chairman came to me and asked for 
extra slots as well as an increase, I found that to be 
something worthy of conferring with the Speaker on, and the 
Speaker has consented to that.
    Now you are today at 67 staff positions, and you are trying 
to increase that to 83 staff positions, am I correct, Mr. 
Chairman?
    Mr. Skelton. Next year, yes. We would ask for one this 
year, and we will increase up to 83 next year. Yes, ma'am.
    The Chairwoman. Okay. Fine. And the nonpartisan aspects of 
this--what is the ratio, did you say 11 to 14?
    Mr. Skelton. Dedicated minority. Although they act like 
they are--everybody owns everybody in reality, but dedicated to 
minority is 14, that is correct.
    The Chairwoman. Okay. Well, one thing is for sure, when you 
get into the crux of the problems that you guys have in this 
committee, there should be no partisanship in my opinion 
because we are all trying to see where the threats are and 
trying to see what we can do to eradicate those who are 
threatening this country and, in fact, the world and so we are 
clear on that.
    Now, I do know that the Committee has gotten the $500,000 
increase that the Speaker had suggested that she would give, 
and that is to further your needs.
    Mr. Skelton. That would be for this year. Yes, ma'am.
    The Chairwoman. I am told that moving forward, that would 
go on ad infinitum. So that is something that we really do 
anticipate, given the fact that you have this oversight, you 
have re-established the Oversight and Investigatory 
Subcommittee.
    Mr. Skelton. Yes. And Marty Meehan is the chairman of that 
subcommittee and it proves to be a very active one, and we have 
just taken the staffing out of hide for him.
    The Chairwoman. Okay. And the two-third/one-third ratio, 
you are committed to the degree that you can with the other 
things that are working here that you have to deal with, two-
third/one-third commitment?
    Mr. Skelton. Not quite.
    Mr. Hunter. We actually operate on what we call our--have 
always had as our nonpartisan/bipartisan basis.
    The Chairwoman. But both of you are agreeable to whatever 
that----
    Mr. Skelton. Yes.
    The Chairwoman [continuing]. That scenario is, you are 
amenable to that?
    Mr. Skelton. Yes. Everybody in essence is bipartisan with 
the exception of 14 who work directly for Mr. Hunter. But you 
can't tell them by the numbers because everybody works for 
everybody, and it is pretty interchangeable, but technically he 
owns 14.
    The Chairwoman. And the results are there. The results are 
there. The one thing that you have said, that you have stressed 
that a lot of members, committee chairs and ranking members 
have stressed, is having this extraordinary talented staff with 
salaries that are below par. So I have taken that under 
advisement, I have noted that. I will be consulting and 
conferring with the Speaker on this because we cannot continue 
to have committees that are so crucial, so important as this to 
have turnovers. Staff have just been burned out, not 
necessarily because of the work that they do, but because of a 
salary that is not conducive to the work that they do, so we 
have taken that under advisement. We thank you both for being 
here. Let me turn now to the Ranking Member for comments that 
he might have.
    Mr. Ehlers. Thank you, Madam Chair. I once again want to 
reiterate what we are asking every--I will wait until the 
chairman is free to answer this.
    Mr. Skelton. Excuse me. Thanks to my staff. We are asking 
for next year, for 2008, $8.6 million so we can increase the 
staff size, which of course would help with the oversight and 
investigation. For this year, $7 million which, of course, we 
included in that as the $500,000. But for next year so we could 
raise the numbers up to 83 and be back where Les Aspin was, we 
would seek the $8.6 million. I hope that is clear.
    The Chairwoman. Mr. Ranking Member, did you want to consult 
with me?
    Mr. Ehlers. Thank you, yes. I just wanted to make sure you 
were finished.
    The Chairwoman. I did hear what he said. And while that is 
the request, we are not sure we can get to that bottom line.
    Mr. Ehlers. I am quite sure we can't. But next year may be 
a different story, and we hope to have a budget done in regular 
order next year.
    I just wanted to reaffirm that this committee has worked 
very hard back in the days of Bill Thomas and Steny Hoyer and 
ever since to ensure that we had a one-third/two-thirds ratio 
from the minority to the majority. I understand you are 
committed to continuing that practice. Is that correct?
    Mr. Skelton. Excuse me. We never have worked with two-
thirds/one-third. Just that we have had dedicated numbers to 
the minority, but everybody works for everyone. You go in and 
just grab a staffer and in all probability they will be a 
professional staffer that assists both Democrats and 
Republicans. I am not sure how much clearer I can be. Duncan.
    Mr. Hunter. Yeah. Let me make a point here. If you look at 
the numbers, you would think that the Republicans would be 
critical here because we have got--with the number of staff 
members that we have under what you would call minority 
control, that is folks that are kind of dedicated to us at 14, 
and we would get--ostensibly we would get more if we had a two-
thirds/one-third majority. But what we have, Mr. Ehlers, is we 
have a tradition of working in a bipartisan way where everyone, 
all the staff members actually work for everyone and are very 
responsive. And it is almost as much cultural--so it is a 
little tough to explain it when we are dealing with ratios. It 
is as much cultural and as much a product of what I would call 
the bipartisan ethic that is demanded of Armed Services because 
we are all supporting the troops, as it is, anything that is a 
function of a ratio. So even though in theory if we went to a 
hard two-thirds/one-third thing, we could have more staff 
dedicated to us, we like the idea--a lot of folks that do a lot 
of the hard work and the meat and potatoes work of this 
committee and developing what we need for the Armed Forces are 
really staff members who respond to everybody. So you do have 
to have staff that are dedicated to you because when we do have 
a split on a principle and we do need to each have our sides 
and we need to have the representative of the respective 
support for our positions, and we do need to have quick 
response, both Republicans and Democrats, we both like this 
system. In fact, when I was the chairman, Mr. Skelton testified 
in favor of it, even though ostensibly he could have had more 
people who by name were considered to be Democrat staff 
members. And in fact we have a number of members who are 
considered to be majority staff members now who were considered 
to be majority staff members when the Republicans had the Chair 
in the committee. So it has worked very well. I think the real 
recipient of this, the beneficiary has been the men and women 
who wear the uniform of the United States.
    It works well, and the chairman and I work well together. 
Our subcommittee Chairs work well together. We have so much 
work to do and we always get a defense bill out, which is a 
massive bill, we have so much work to do that we have to have 
this culture of cooperation. And so this has always worked for 
us.
    It is a little tough to explain in terms of ratios because 
it looks like the minority is getting short shrift, but we 
really aren't, although I can assure you that I will now lean 
on Ike to get more people dedicated on the basis that I have 
defended his position here.
    Mr. Ehlers. Well, if you are happy, we are happy. But I 
would recognize it is a unique circumstance in your committee.
    Mr. Skelton. At the end of the day, it does work.
    Mr. Ehlers. Okay. Now the question is, do you have 
detailees from the services branches on your staff?
    Mr. Skelton. No, sir. I am not sure--maybe once upon a time 
we did, but it has been quite some time.
    Mr. Ehlers. Okay. That answers my questions.
    The Chairwoman. Thank you, Mr. Ranking Member. Under the 
House rules it has been such where we have had partsian and 
nonpartisan professional staff, and it has worked to the 
betterment of the Committee as a whole for the work that you do 
that is in a sense a nonpartisan type of a work that hopefully 
we can all recognize and appreciate, and so the House rules 
permit this to happen.
    Mrs. Davis, do you want to make comments?
    Mrs. Davis of California. Sure. Thank you, Madam Chair, I 
would be happy to do that, and to Mr. Ehlers as well. I wanted 
to say that as a freshman and now as someone who has been on 
the committee for a few years, I really appreciate the help of 
the staff. I mean, I think what is a little unique about this 
committee, which is not to say that other committees don't need 
members to get up to speed, but whether or not you have been in 
the State legislature or whatever you have been doing, you 
might have touched on issues of health or education, what have 
you. I think what is unique is that very few members come into 
that committee really being schooled in the issues that we deal 
with, and so we have to rely on staff to bring people up to 
speed, and I personally can speak of my learning curve and I 
can't imagine having done that, and that was certainly under 
Mr. Hunter and the majority staff at that time. That was very 
helpful.
    The other thing that I saw being played out was the fact 
that we have to go on a number of field visits, as you will. 
Our field visits are to Iraq and Afghanistan and to places that 
we need staff members there to help us out as well. So I want 
to speak to the fact that I think the staff is unique in that 
regard and I have never been able to distinguish. Quite 
frankly, I know who sort of the head staff are on the majority 
and minority, but I really just felt that everybody was there 
all the time. The other thing, just to mention, is how 
important the continuity is of the staff, and without that 
continuity, I think we would all be at a great loss. You can't 
have that continuity unless you have people who don't feel 
drawn to the private sector, and clearly that is a real problem 
as well.
    So I wanted to just mention that, to thank all the staff 
for being so tremendously helpful to me and that bipartisan 
nature that they represent. I think people respect one another 
a great deal, and we know we have tremendous work to do with 
great sensitivity to our troops and to the families that we all 
represent. So I want to thank both Mr. Skelton and Mr. Hunter 
for representing that through their staff. And I know, Madam 
Chair, I don't know how much of that you got, but I just feel 
so strongly that the continuity on the staff--that is 
important, not to draw people away and the need that they have 
to help all of us get up to speed as new members on that 
committee and continuing members where we have not probably in 
the past with the exception of some new members this year I 
think who really have such a deep acquaintance with the issues 
that we have to face.
    The Chairwoman. I couldn't agree with you more. And with 
the vast complexity of the issues that are before this 
committee, you certainly do need those professional staff 
members irrespective of whether they are partisan or 
nonpartisan. And of course the rules suggest that you will have 
nonpartisan as well as partisan staffers. But we are happy that 
we were able to increase staff to the levels that we were this 
year. And if the appropriators come up with a magic trick, or 
pull something out of a hat, whether it's a bunny rabbit or 
whatever, we will certainly give strong consideration to the 
Committee again.
    We thank you both so much for being here. We appreciate the 
work that you do for all of us Americans.
    Mr. Skelton. Thank you.
    Mr. Hunter. You are very kind, Madam Chairwoman. Thank you, 
Mrs. Davis, for your kind remarks too. We appreciate it.
    The Chairwoman. Now the hour has come, and the Chairman of 
the Education and Workforce Committee is here; welcome, Mr. 
Chairman and Mr. Ranking Member. Mr. Ranking Member, thank you 
for your tolerance in waiting the few minutes for the Chairman 
to get in. We thank you both for being here this morning to 
present your budget and your agenda. We have been quite 
impressed with the outline that you provided for us, and one of 
the great committees that we have looked forward to presenting 
their statements. So at this point, we will listen to the 
Chairman and then to the Ranking Member for your statements.

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Well, thank you so very much, and this is my 
first time before this committee with you as Chair, Madam 
Chairman. Congratulations to you.
    The Chairwoman. Thank you so much.
    Mr. Miller. It is quite exciting to see you sitting there, 
knowing your long history in election reform and fairness, 
which will be critical in front of this committee this year 
after you pass our budgets, which is very critical to us, but 
it will be very exciting for you as Chair of this committee, 
and we both congratulate you.
    The Chairwoman. Thank you so much.
    Mr. Miller. We have worked with your ranking member Mr. 
Ehlers before and when I was the ranking member, and this 
committee I think has made many changes in the committee 
budgeting process that have been very good for this 
institution. And I am delighted to be joined here with my 
senior Republican, Congressman McKeon, in support of this 
request.
    As we have in the past, we have tried to work in this 
budget process on a bipartisan basis, going back and forth with 
the professional staff, trying to determine the needs of what 
our committees on both sides of the aisle will be. We have 
tried to adhere to the requirement of one-third/two-thirds and 
also the idea of the shared staff, where possible, to work on 
that in a joint fashion, and I think that is why we have been 
able to submit to you a budget that is very lean, but I think 
it deals with the needs that we have to conduct the committee 
business through this year, which includes a heavy legislative 
oversight schedule.
    As you know, we have a number of major pieces of 
legislation before this committee, the No Child Left Behind, 
the Higher Education Act, the Innovation Agenda, job training, 
Head Start and a number of other issues, and also a pretty 
robust oversight schedule anticipated. So I want to thank 
Congressman McKeon for his support on this, and we look forward 
to answering whatever questions you might have.
    [The statement of Mr. Miller follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you so much, Mr. Chairman. Mr. 
Ranking Member.

      STATEMENT OF THE HON. HOWARD P. ``BUCK'' MCKEON, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McKeon. Thank you, Madam Chairwoman, members of the 
committee. This is also my first appearance here. In my short 
tenure as chairman, I never had to have this opportunity. I 
want to thank you for having us here today. I am not going to 
read the statement that I have in the file. Let me just say 
that I am in total agreement with Chairman Miller on this 
issue, and I really appreciate how he has worked with us and it 
has been a bipartisan basis, and I appreciate that he has let 
us be a part of it, and I also want to commend him for being 
very frugal in his request. I think, as I have reviewed all the 
committees, he has asked for the smallest increase, and I think 
it is needed, especially with all of the things that he has in 
store for us.
    So I urge the committee to give your fair consideration to 
our request, and I am prepared to answer any questions.
    The Chairwoman. Well, I thank you so much. And I do 
appreciate the bipartisan nature by which you two work. I am 
happy to know with this robust agenda you have, of course No 
Child Left Behind has been buzzing throughout the country for 
over a year or so. So you now have the opportunity to make good 
of it. Along with the Higher Education Act and the innovation 
agenda, Head Start is also important. So you do have an agenda 
that speaks to the needs of the American people. Your budget is 
very lean and while we recognize that, we also recognize the 
fact that we did not have a budget last year, and therefore, we 
are coming in on your budget from the last year baseline and 
then increasing that by a very modest 2.4 percent for inflation 
which perhaps may not come up to the levels that you might 
want, but that is the best we can do, given the budget 
constraints that we are under.
    So we appreciate your tolerance and your consideration for 
that. If something else comes down the pike, you will be among 
those chairpersons who are considered for that. I am happy to 
know that you are a two-thirds/one-third commitment committee 
that works very well together because it is important that that 
happens. So with that, I will allow the Ranking Member to say a 
few words.
    Mr. Ehlers. Thank you, Madam Chair, and I agree with 
Chairman Miller that it is exciting to see you in the Chair 
here, and it is a great honor. Somehow I found it more exciting 
when I was in the Chair, but nevertheless we are happy to see 
you there.
    [The statement of Mr. McKeon follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you.
    Mr. Ehlers. I agree also with the Chair on the two-third/
one-third ratio. We worked very, very hard to reach that level, 
and we want to make sure we maintain it in the future no matter 
who is in the majority. So we appreciate your commitment to 
that. It is an excellent committee. Mrs. Davis from California 
is on the committee as well as I. It is a highlight to be on 
that committee because we are dealing with I think some of the 
most important issues in the Congress, and that is educating 
our kids for the future. It is going to be a very difficult, 
very uncertain future in many respects, and I am just pleased 
the committee is taking it that seriously.
    I wish we could do better for you. I am hoping that we 
don't have another aborted appropriations process for the next 
fiscal year, and we hope that we can do better because what you 
have outlined is truly necessary for the committee. We hope we 
will be able to get you there in another year, but this year we 
are constrained by the continuing resolution which did not 
adequately fund the committees. So with that, I will yield 
back.
    The Chairwoman. Thank you, Mr. Ranking Member. Mrs. Davis.
    Mrs. Davis of California. Thank you, Madam Chair, Mr. 
Ehlers as well. I have an opportunity to sit on the Education 
Committee. It has been a great experience for me, and I 
appreciate what the staff has done in bringing members along 
and helping us to deal with the complexities that we really 
face in education and labor. And as you mention, Mr. Ehlers, 
there is nothing closer to people. There is nothing more 
important to them than the education of their children. And so 
I think it is this kind of moral imperative that we do what is 
right by our country in educating the young people who I know 
are going to take over from us and I hope are going to do so in 
a way that really engages the public and helps them to see how 
important this issue is as well.
    So I actually was a little surprised that our chairman 
hasn't come here, you know, screaming and yelling and saying, 
you know, we need additional money because we have an added 
commitment this year in the reauthorizations. They are 
critical. No Child Left Behind certainly is, and we just had 
some time to look at that issue outside of here as well. So I 
commend them for being as frugal and as direct at this as 
possible, but I would say that if we can find some additional 
resources that would be wonderful.
    The Chairwoman. Well, we hope that we can find them under 
rocks or whatever. But one thing is for sure, when you think 
about education you think about the future. And that is what is 
so important about this committee.
    Mr. Lungren, do you have any comments? No comments. Thank 
you both so much for being here, and thank you for your lean 
but mean posture in these budget constraint times.
    Mr. Miller. Thank you. If I might, I know you were trying 
to build a tradition in here and a standard on this one-third/
two-thirds, and I would just say I was extended that courtesy 
when the committee changed over under John Boehner, and I think 
it is very important. I think that we do build this legacy of 
some fairness here, and whatever happens in the House and what 
have you, we function as an institution, and I was also 
extended the same courtesy that I hope I extended to Buck 
during this budgetary process by then Chairman Boehner on this 
committee. We like to think we are the seed of bipartisanship, 
but we are working at it.
    The Chairwoman. Well, indeed you have enhanced the 
collegiality. Thank you both so much both for being here. Mr. 
Waxman and Mr. Davis, thank you both for being here and 
welcome.

    STATEMENT OF THE HON. HENRY WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Madam Chairwoman, I am pleased to have this 
opportunity to testify before you the first time as the Chair 
of a committee, and I congratulate you on your assignment.
    The Chairwoman. Thank you very much.
    Mr. Waxman. Mr. Ehlers, congratulations to you as well for 
being the ranking member. I don't notice that any of the 
members of the committee are on the Oversight and Government 
Reform Committee. So many of you indicated you were on the 
Education and Labor Committee but I am hopeful that because 
there are so many Californians on this committee, it may serve 
our interests.
    The Chairwoman. Duly noted.
    Mr. Waxman. For whatever it is worth. Mr. Davis and I are 
here together to submit this budget. We have worked together 
during the time that Mr. Davis was chairman in fulfilling his 
pledge to provide the minority with one-third of the committee 
resources, and we intend to approach allocating our resources 
for the minority in the same way. Also during his tenure as 
Chair, Mr. Davis established a professional and respectful 
working relationship with the minority. We were able to work in 
a bipartisan and effective manner on a number of important 
legislative and oversight matters, and I hope to continue this 
cooperative and bipartisan relationship as we go forward.
    Our committee unfortunately is facing a budget squeeze. The 
Oversight Committee received significantly less funding than 
other committees over the past 6 years. The fact is the 
Republican leadership did not provide the increases we had 
hoped. Since 2000 the budgets of other House committees have 
grown at an average rate of nearly 6 percent per year, over 
twice the inflation rate. But during the same period the 
Oversight Committee's budget grew by less than 1 percent per 
year. In real dollars, the budget shrank by more than 12 
percent over the last 6 years.
    The reduction in funding the Oversight Committee has 
experienced has had a direct and predictable impact on our 
ability to do our job. At the full committee level, we have 
eight slots for professional staff, over 15 percent of our 
professional staff positions that we cannot fill because we 
don't have the funds to pay for additional staff. The election 
of 2006 certainly sent a strong message that the American 
public wants Congress to do oversight, to hold government 
accountable, and we look at our committee as taking on that 
primary oversight role.
    We have an aggressive oversight agenda that includes probes 
of waste, fraud and abuse in the reconstruction of Iraq and 
other Federal contracting, corporate profiteering, 
politicization of science, the healthcare system and other 
pressing matters. But we won't be able to do what the Congress 
and the public expects us to do without adequate funding. 
Oversight is resource intensive. Agencies and companies under 
investigation are already trying to bury the committee in 
hundreds of thousands of pages of documents. And we need 
manpower to wade through these document dumps and to interview 
and depose witnesses. To meet our oversight and legislative 
demands, the committee is requesting a 4 percent increase for 
2007 and a 12 percent increase for 2008. Even with the 
increases, the committee's budget would still be lower in real 
terms in 2008 than in 2000.
    We are trying to be as economical as possible in this 
budget request. The committee is not requesting any increase in 
funding for travel, equipment or supplies for 2007. We have 
asked some of our new hires to come here and take a pay cut of 
over 50 percent. We are going to stretch our salary budget by 
taking into account that our new hires are not joining the 
committee all at once. But to enable the committee to fill its 
investigative staff positions, we will need more resources, 
especially in 2008 when the real crunch hits.
    As you weigh our request for funding, I urge you to keep in 
mind that the work of our committee can lead to substantial 
savings for American taxpayers. During just our first week of 
hearings, the Defense Department announced that it would 
withhold nearly $20 million in improper payments to 
Halliburton. This $20 million savings to the taxpayer, which 
was a direct result of our committee's oversight alone, covers 
nearly 90 percent of our 2-year budget request.
    Let me close by saying, I recognize the funding constraints 
the House Administration Committee faces, and we have tried to 
present as small a budget as possible that would enable the 
Oversight Committee to carry out its core responsibilities. If 
budgets were not so tight, the committee could effectively use 
significantly more resources than we are requesting. Once 
again, I want to thank you for this opportunity to testify 
before the committee and hope you will look favorably on our 
request, and we look forward to working with you in this 
Congress.
    [The statement of Mr. Waxman follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you so much, Mr. Chairman. Mr. 
Ranking Member.

 STATEMENT OF THE HON. TOM DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Davis of Virginia. Thank you very much, and I ask my 
entire statement be put into the record, and I will try to 
summarize it briefly. First I want to express my strong support 
with Chairman Waxman for the committee funding request for the 
110th Congress. I think we have established the kind of 
relationship that ought to be the norm in Congress. It is a 
relationship based on open communication, candor and respect. 
During the 109th Congress, our committee and its seven 
subcommittees held 256 oversight hearings on everything from 
contracting in Iraq to steroids in baseball. We ordered 359 
reports, testimonies and briefings in support of oversight 
investigations and program reviews. And according to the 
Government Accountability Office, the committee's efforts saved 
taxpayers $6.5 billion. We more than paid for ourselves. And of 
course the propensity is when the power party in Congress is 
the same as the party in the executive branch, the 
investigations don't tend quite to be at the same norm as they 
are with the opposition in each end of government, in each end 
of Pennsylvania Avenue. If you need to do oversight and 
investigations at this point, I think it is going to have to be 
beefed up considerably because I think our budget, as Mr. 
Waxman noted, actually went down vis-a-vis real dollars during 
the last 6 years. And in terms of other committees, we 
structured the least for the reasons I just put forward.
    I think we have done a pretty good job. I know Henry has a 
very ambitious oversight agenda. We are going to need resources 
to counteract him. But this is a committee that many of you are 
not aware of all the legislative accomplishments we have had. 
But the oversight role is critical, and we need investigators.
    [The statement of Mr. Tom Davis of Virginia follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. That is it, Mr. Ranking Member?
    Mr. Davis of Virginia. That is it.
    The Chairwoman. Okay. Fine. Thank you very much. I do say 
you have an ambitious oversight agenda, much of which I have 
looked at on C-SPAN, and I commend you for that type of 
oversight, which has been sorely missing, and the public tends 
to thank you too, thank you for that because they too think it 
is long overdue for this committee to look into certain things 
that have, as you outlined, Mr. Waxman, allowed the withholding 
of nearly $20 million--and I got that out of your statement--
for improper payments to Halliburton.
    The Chairwoman. Those kinds of things come because of the 
ambitious oversight agenda, and I regret that your new staff 
hires have come in with a salary cut. We have heard from so 
many chairpersons and ranking members that this is happening to 
them.
    We have to operate from the baseline of last year's budget 
with a very modest increase of 2.4 percent for inflation. So 
while that does not bode well with you, I am sure, your request 
for a 12.8 percent increase for fiscal year 2008 is something 
we are going to look into, because we do understand the 
critical need and also the critical importance of this 
committee and the results that you are getting from what you 
are doing.
    With that, I will note this and take it to the Speaker and 
see if we can perhaps increase this. I am sorry to say that 
because of the constraints, we are only able to give you what 
the appropriators have recommended that we give you for this 
year. But next year, 2008, we will look and see just what is in 
store, and hopefully, it will be to your satisfaction.
    The Ranking Member.
    Mr. Ehlers. Thank you, Madam Chair. It occurs to me that 
maybe you would be better off acting as a bill collecting 
agency and working for a percentage of what you are able to 
recover through your oversight.
    Mr. Davis of Virginia. It is dangerous enough as it is.
    Mr. Ehlers. We could never do that, but you have been a 
real bulldog on it, sometimes more like a small terrier. At any 
rate, we appreciate the work on the committee and what they do.
    I just want to reinforce that the two-thirds/one-third 
allocation, this committee worked very hard to achieve; and we 
are very determined to continue to maintain that. So I am 
pleased you have committed to continuing that relationship.
    Mr. Waxman. Yes, absolutely.
    There was a time when we were in the minority where we 
couldn't even get the one-third, but this committee urged it 
upon our committee, and under Chairman Davis we had that 
relationship. And I think it is one that is good to have 
spelled out.
    Mr. Ehlers. Right, and we were determined to accomplish it. 
It took a number of years, particularly in those committees in 
which the minority had been very small under the Democrat 
majority, and so it took longer to bring those up.
    But that is history. We are determined to keep it the way 
it is now. We think that is fair.
    Other than that, I have no questions at this point.
    The Chairwoman. Thank you, Mr. Ranking Member.
    I did note, too, that you are not requesting any increase 
in funding for travel or equipment and other things, and so you 
really certainly have cut as much as you can.
    The 15 slots that you spoke about, Mr. Chairman, that are 
without staff, this will be in addition to what you already 
have?
    Mr. Waxman. That is for this year that we are not able to 
fill.
    The Chairwoman. You are not able to fill, which were there 
the previous years?
    Mr. Waxman. Yes.
    The Chairwoman. Okay, fine.
    Well, that is regrettable, but we are trying to see how we 
can move through these constraints, too. And, again, a bright 
light hopefully for you is that we will look into the 2008 
budget in terms of your increase requests and see where we go 
from there.
    Mr. Lungren.
    Mr. Lungren. Thank you very much, Madam Chairman.
    As you know, I was gone for a few years from here. Is the 
committee that you have now, is that the successor to what used 
to be known as Government Ops?
    Mr. Waxman. It is the successor of three committees, I 
think, when you were here. There was the District of Columbia 
Committee, the Post Office and Civil Service and the Government 
Operations; and they were combined into one committee.
    Mr. Lungren. All right. I was just looking at the 1994 
committee staff ratios, and there the minority was given on 
Government Ops 21 percent, and I think D.C., a little less than 
one-third and Post Office was 24 percent. So I am glad that we 
have established as a matter of principle that there should be 
one-third no matter who is in charge.
    The second question I had is this: Obviously, we are not 
giving anybody anything that they want because of the budget 
that we have. But you talked about cuts, and I was looking 
through the numbers, and unless my numbers are wrong, your 
committee has the largest number of staff, I believe, of 
anyone. Is that correct, 118? Is that what it is?
    Mr. Davis of Virginia. Probably. I think that is correct. 
Remember, it is the major investigative committee of the 
Congress.
    Mr. Lungren. That is the other question I have. I have been 
the one that has always banged on Congress for not having 
enough oversight, but I always assumed that all of our 
authorizing committees were supposed to be doing oversight. And 
I know the name of your committee and I know what you do, but 
could you give me an idea of how you believe that you do 
oversight relative to the authorizing committees?
    Mr. Davis of Virginia. Let me start.
    The Government Ops Committee was put together in the 1950s 
after a series of special committees were put together to 
investigate waste, fraud and abuse in government; and so they 
put it under one committee in the House and the Senate. And the 
reason they did this is because we are not close to the 
authorizers in the executive branch in the way that the 
Agriculture Committee may be or Education and Labor or whatever 
else. And so this was to look at waste across the government; 
that was the concept.
    In 1995, they added the additional legislative 
responsibilities for the District of Columbia--which this 
committee has done a lot on, I might add--and for Post Office 
and Civil Service. And we just passed a major postal reform 
bill last year after 40 years of trying. So we have had 
additional legislative responsibilities.
    Traditionally, when you have--when President Clinton was 
in, the staff was beefed up far greater than it is today. 
Republicans doing investigations of the Democratic 
administration at that point. When President Bush took over, 
those numbers came down, and we moved some investigative slots, 
candidly, to the legislative side because we had a legislative 
backlog that hadn't been fulfilled, as well, if--well, if that 
gives you a perspective.
    Mr. Lungren. Thank you very much.
    The Chairwoman. Thank you, Mr. Lungren.
    As I look back, because of other committees who have come 
before us talking about staff slots, you are correct. They have 
the largest staff of any other committee that I have been able 
to go back and check on. So it gives us even more, I guess, 
pause as to the critical need for this committee to have what 
it needs to do its work.
    Ms. Davis, I think your hand was up.
    Mrs. Davis of California. Thank you, Madam Chair.
    I just would say, as I said earlier in the discussion, I 
think that when you have--when you have a strong investigative 
arm, as this committee does, then members, for one, need to be 
up to speed in a way that may be different in some other 
committees. And also you need to be able to counteract those 
who are functioning in that regard all the time.
    So your committee is looking at so many different issues, 
and you may be up against folks who, their only issue is to 
basically, in some ways, work against what you are trying to 
just discover and work with. And so I think that it is 
critically important that you have the resources that you 
need--understanding, of course, that I don't think any of the 
committees are going to have the resources that they need. But 
this is a great need.
    We have also talked so much about interagency coordination, 
and in some ways, I think some of that does fall to the 
committee because you look across the jurisdictions. And I 
applaud you for the work that you have done.
    There are a lot of--a lot of words have described Mr. 
Waxman, I think--probably Mr. Davis, as well--and ``dogged'' is 
one that comes to mind. I think that is important, and we want 
people who can do that.
    Mr. Waxman. Other people mind.
    Mr. Lungren. I have, probably, other words.
    The Chairwoman. I think really the keywords are ``no 
nonsense,'' and this is a committee that is no nonsense because 
they are about the work of the government and the people.
    And so as we look at those committees that have the 
investigatory arm, really, we do need to look at that more 
seriously in terms of staffing, because you do a lot of 
discovery and have to go out and do those things that a lot of 
other committees aren't doing and do not have the role to do.
    So that is something that I have noted now and will talk 
with the Speaker about.
    But in the meantime, we thank you for the work that you do. 
I can't think of any other committee that has as many oversight 
hearings as this committee has begun and will continue to do. 
And kudos to you for that, Mr. Chairman, and the Ranking 
Member.
    Mr. Waxman. Thank you very much.
    The Chairwoman. Thank you so much.
    Well, that concludes the first half of this all-day funding 
hearing. We will again recess for the afternoon slots of time, 
and we will resume at 2 o'clock for the beginning of the second 
part of this funding committee.
    At this point, the Committee is in recess.
    [Whereupon, at 12:22 p.m., the Committee recessed, to 
reconvene at 2:00 p.m., the same day.]
    [2:30 p.m.]
    The Chairwoman. Good afternoon and thanks again for your 
patience as we resume this hearing today on committee funding 
for all of the committees. We are most appreciative to those 
chairpersons and ranking members who have come before us to 
give us the outline of their budget as well as their agenda. We 
are quite impressed by what we have before us by way of Ways 
and Means. Of course the votes delayed us from continuing. But 
at this time we would like to do just that.
    We have before us today the Chairman of the Ways and Means, 
Mr. Rangel, and the Ranking Member, Mr. McCrery, to present 
their budget and their agenda.
    Welcome to both of you.

 STATEMENT OF THE HON. CHARLES B. RANGEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Rangel. Thank you, Madam Chairlady, and as you know 
this is the first time I have had the honor to sit before you 
as our Chair, and I just can't begin to tell you how proud I am 
to see you sitting there and how pleased we are to come before 
you with what we think is a very modest budget in view of what 
the fiscal situation is in the House of Representatives.
    We have worked together in terms of trying to bring a 
bipartisan budget before you, and we have made the allocations 
that traditionally our committee has been able to do over the 
years.
    Previously the minority was given their one-third. We will 
continue to do that. In terms of real dollars, the amount that 
we are proposing is still less than that of 1994. For year one, 
2007, we have proposed a 7 percent increase from 2006, which 
totals 9,785,128. For year two we have proposed a 5 percent 
increase from 2007, for the total for both years of 12.5.
    In the 104th Congress, our committee was cut by 37 percent. 
Personnel was cut by more than half, and it was the only 
committee that survived that took a cut of that weight.
    We are asking for six additional staffers since both the 
minority and the majority agree that we can take on the problem 
of Social Security, taxes, to some extent. Health is certainly 
an issue, as is trade. We do intend, as the Speaker would want, 
for us to increase our oversight. We don't intend to be a 
traveling committee, but in view of the enlarged legislative 
agenda that we have assumed, we did put in some money for 
travel.
    I also would like to add, as most of the House knows, that 
the majority and the minority have started off this session in 
trying to see exactly what it is that we can accomplish, where 
we do have agreements and not the extent of the disagreements 
that the parties and members of the committees have had in the 
past. We are very pleased with the progress that we have made. 
So the budget, as in other areas of the jurisdiction of the 
committee, we have worked very closely with Mr. McCrery, and I 
would like to yield to him at this point in time.
    [The statement of Mr. Rangel follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
STATEMENT OF THE HON. JIM MCCRERY, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF LOUISIANA

    Mr. McCrery. Thank you, Mr. Chairman and Madam Chairwoman, 
Ranking Member Ehlers and members of the committee. I 
appreciate having the opportunity to appear this afternoon with 
Chairman Rangel in support of our budget proposal for the 110th 
Congress. I want to express my appreciation to Chairman Rangel 
for working with me and my staff as he developed the Ways and 
Means budget request.
    We were consulted in the preparation of the budget 
proposal, and under this budget the minority has full control 
of one-third of the budget and resources. Both the chairman's 
and my staff have worked hard to ensure a smooth and seamless 
transition. Whether it was the logistics of moving office 
space, transferring computer files and equipment or assigning 
parking permits, we were able to effectively coordinate so that 
the committee was prepared to begin working once Congress 
convened.
    I support the committee's budget proposal. An increase in 
our current budget will assist in providing the necessary 
resources needed to tackle the committee's historically 
aggressive agenda. It is consistent with the requested 
increases of the past several Congresses, and I should note was 
approved by our committee unanimously on January 17, 2007.
    Thanks again for the opportunity to testify, and I would be 
pleased to respond to any questions you might have.
    [The statement of Mr. McCrery follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you both so much for outlining your 
agenda and your budget. You both understand that we are in an 
environment that is not conducive to increases beyond the very 
modest 2.4 percent that the appropriators and the Budget 
Committee have given us because last year we did not have a 
budget passed. And because of that we have to operate from the 
baseline of last year's budget with just that mere increase, 
that would be 2.4 percent.
    While we do recognize and appreciate the extraordinary 
services that you provide, with the very talented personnel 
that you have, and as I look back on my notes and look at the 
subcommittee's oversight in terms of IRS operations, you are 
also looking at tax relief for individuals and families. Those 
are the things that the American people want us to look at and 
to do.
    And yet, in spite of all of that, we have such dismal 
budget constraints that at this time we are unable to provide 
anything other than that 2.4 percent.
    I am encouraged by your work with the Ranking Member, Mr. 
Chairman, and bringing about the two-thirds/one-third agreement 
and commitment that has been set forth in the rules, and we are 
happy that you are working in a bipartisan way to do that.
    We do not feel good about your personnel that was cut by 
more than half and your need for additional staff. Now there 
are many committee chairpersons who have come before me today 
and said that if we don't do something about the staffing and 
about the salaries, we are going to lose out on these very 
professional, very talented people who will go elsewhere to 
work where they will have a salary conducive to their talent. 
So I will take this back to the Speaker to talk with her. I 
can't guarantee you anything will happen that will perhaps 
increase at this juncture, but what I will do is report back on 
the extraordinary work that you are doing.
    We understand your large legislative agenda and all of the 
other hearings that you have outlined here in your 
presentation, but in light of all of that, we are still unable 
to do at this time anything outside of that modest increase.
    And so with that, I will go to the Speaker to talk about 
this critical need for additional staff and what will happen in 
the long run if we do not at least address that issue.
    I will now ask the Ranking Member for any comments that he 
might have.
    Mr. Ehlers. Thank you, Madam Chair. First of all, I am 
pleased to hear your reassurance you will honor the one-third/
two-thirds. We are getting that commitment out of every 
chairman and ranking member that come before us today, and we 
are doing it jointly because it was very hard to develop that. 
We have developed it over the past 12 years. We are bound and 
determined to make sure the committees stick to that.
    One other thing, Mr. McCrery, it sounds from your comments 
as if this entire project of developing the budget was a joint 
effort between you and the chairman and that you both worked 
closely together on it. Is that correct?
    Mr. McCrery. Yes, sir.
    Mr. Ehlers. That is a good model to follow. We have heard 
from a few committees, well a very few, but a few that do not 
follow that. I think that is a good approach and I commend 
Chairman Rangel for doing that as well.
    With that, I have nothing further to say.
    The Chairwoman. Thank you so much, Mr. Ranking Member. Any 
member wishes to speak or make any comments?
    Ms. Lofgren.
    Ms. Lofgren. Madam Chairman, I just very quickly got to 
know Jim when we served for an endless number of years on the 
Ethics Committee together and I know really the bonhomme you 
have and it is great to see you working with the chairman and I 
am so happy to sit here and be able to say, Mr. Chairman 
Rangel, it is a pleasure to follow our Chair's lead but really 
a pleasure to see you, Mr. Chairman, for the first time in this 
committee.
    Mr. McCrery. Thank you.
    Mr. Rangel. Thank you.
    The Chairwoman. Thank you both so much. Any other comments? 
If not, we will certainly do our due diligence in addressing 
and speaking to the Speaker on the issue of staffing.
    Mr. Rangel. Because you have said that, Madam Chairlady, I 
would like to add something, and Zoe probably knew Jim McCrery 
better than I did because it was a different atmosphere in that 
committee. I would like to say that I have come to know, 
respect, and look forward to working with him.
    In that respect, I would like to say, briefly since you 
will be talking with the Speaker, that you might as well know 
that Jim and I have been working very closely with the 
Administration to see what areas of the big ticket items that 
we could possibly tackle to bring credit upon the Congress and 
certainly our committee. We haven't taken anything off the 
table, whether it is Social Security, trade, simplification of 
taxes, and we even thought about touching some parts of health 
the best that we could.
    We also agreed that the issue that we can get a handle on, 
the one we can get a consensus on, is going to be our priority.
    You can tell the Speaker I don't think we are going to be 
hitting successes in each one of those areas. But I can tell 
you one thing, that if it does happen, we won't be able to do 
it. As good as the staff is, each one of these problems that I 
mentioned are just tremendous in terms of size and what we will 
have to do in terms of hearings. And so, we will be forward but 
somehow--and I don't know how it works since I am new at this--
but somehow I just can't believe that if we start moving on 
those issues that the whole country is waiting to see movement, 
and we have had none for a decade. We also agreed that we are 
convinced that even if we are not successful, that at the end 
of this term it is going to be much easier for those who follow 
us to know that these issues have to be dealt with no matter 
what the political pain is.
    So I appreciate that you are taking it back to the Speaker.
    The Chairwoman. And I appreciate your comments. I have duly 
noted your comments now. So I can mention and speak with her on 
that because those big ticket items that you mentioned, we have 
not even gotten into that fully, yet they are upon you in your 
committee.
    So thank you so much.
    What I would like to reiterate is what the Ranking member 
said, and it is very true. You have worked so well with one 
another, and that is the beginning step to success on any 
committee. So we thank you for sharing your budget, and for 
speaking about personnel traveling and hearings. You have 
worked in concert, and that is to be commended and thank you 
for coming before the Committee today.
    Mr. Rangel. I thank all of you.
    Mr. McCrery. Thank you.
    The Chairwoman. We would like to now call up Chairwoman 
Velazquez and the Ranking Member, Mr. Chabot, from Small 
Business. It is indeed a pleasure to have a woman at the helm 
of any committee, but certainly Small Business and we 
appreciate the work that you have done in your position as 
Ranking Member, and now you have been honored, and we are 
honored by your being here and we are also honored to have with 
us the Ranking Member, Mr. Chabot.
    So would you like to get started now, Madam Chairwoman?

 STATEMENT OF THE HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Velazquez. Thank you, Madam Chairman Millender McDonald 
and Ranking Member Ehlers. I appreciate the opportunity today 
to come before the House Administration Committee and discuss 
the budget submission for the House Small Business Committee in 
the 110th Congress. The committee requests these funds to 
address the critical issues facing small businesses in this 
Nation.
    With the help of Mr. Chabot, the committee has already 
adopted an aggressive oversight plan that will significantly 
increase its legislative and oversight role. This budget 
submission was developed in full consultation with Mr. Chabot's 
office. The committee seeks a 12 percent increase in funding 
from the last Congress. In terms of dollars, this increase 
request represents the third smallest of any of the committees.
    And I want to repeat that, because I don't want for you to 
be impressed with the 12 percent request, but since 1994 
basically the budget of the Small Business Committee was 
decimated, and we are still trying to recover from the impact 
that that cost to the Small Business Committee.
    I would like to note that our committee will change how the 
funds are allocated to the minority. Unlike previous 
Congresses, the minority will have control over the full third 
of the budget, including travel as opposed to just salary and 
personnel. I think it is important that Mr. Chabot and his 
staff have the flexibility to determine their spending 
priorities.
    The increase in funding is particularly necessary because 
of the committee's change in jurisdiction. When the House 
adopted its rules package this year the Rules Committee made it 
clear that the Small Business Committee shall have an increased 
jurisdiction beyond the SBA and its programs. That means that 
the committee will consider issues such as the technology, 
agriculture, and other legislation that have a significant 
impact on small businesses.
    To keep up with these issues, the committee has hired 
experts in the various areas to ensure the interests of 
entrepreneurs are protected. We are also seeking funds to 
provide dedicated staffing to assist the five subcommittees. 
They request six additional funding and three additional slots 
to have dedicated staff to assist the new subcommittee Chairs. 
This budget would make sure that that happens.
    The committee also plans on holding a number of field 
hearings so that we can speak with small businesses directly. 
Millions of small businesses do not have the ability or their 
budget, their money, resources to express their concerns or to 
hire high priced lobbyists to come before Members of Congress. 
By doing hearings across the country we will create the 
opportunity to have members listen to their concerns and 
identify ways to improve the business environment.
    The budget also incorporates the equipment needs of the 
committee. We requested a total of eight new computers for 
2007. Since this Congress started, we have already ordered five 
new computers to accommodate this staff. We will need at least 
three more new computers when we are fully staffed. The 
committee will also need a new copier. The main majority office 
is currently operating without one.
    I will also like to mention make mention of an item of 
importance that is not included in our committee's budget 
submission. The committee hearing room is in desperate need of 
major renovations. It badly needs upgrades to both the audio-
visual system and the overall setup. The current setup is such 
that we can only have about half of the committee members 
seated at one time. In terms of technology the audio system is 
virtually unworkable and the room does not have the capacity to 
take advantage of new technologies. I will seek your assistance 
in helping address this problem.
    In conclusion, the committee plans on using the requested 
resources to conduct rigorous oversight and work in passing 
legislation that will improve this Nation's economy. We have a 
number of important issues, which includes addressing the $12 
billion of small business contracts being awarded to large 
companies, making sure that the Federal marketplace is open for 
small businesses in America, improving oversight and making 
changes to the SBA disaster loan program which failed during 
Hurricane Katrina. We will also undertake a measure, 
reauthorization of the Small Business Administration and its 
problems that have not been changed in over a decade.
    I appreciate your time and will be willing to answer any 
question that members of the committee may have. Thank you.
    [The statement of Ms. Velazquez follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you so much. Mr. Chabot.

    STATEMENT OF THE HON. STEVE CHABOT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Chabot. Thank you, Chairwoman Millender McDonald and 
Ranking Member Ehlers and the other members of the committee. I 
am pleased to join my friend, the Chair of the Small Business 
Committee, Ms. Velazquez, in submitting our committee funding 
request for the 110th Congress. As my colleagues know, the 
Small Business Committee receives the smallest allocation of 
any full committee and has historically received the lowest 
funding increase of any committee since the 104th Congress, or 
back in 1995.
    The Chair of the House Administration Committee is of 
course a senior and respected member of the Small Business 
Committee and knows that our committee carries a full 
legislative load and will take on even more work this year as 
our jurisdiction expands. I believe the committee funding 
request is a fair one and hope you will give it every 
consideration.
    I look forward to working with Chairwoman Velazquez in 
support of our Nation's small businesses and with your 
distinguished committee as well as we move forward. I thank the 
Chair and ranking member and all the other members of this 
committee, and I yield back the balance of my time.
    The Chairwoman. Thank you both so much for your great 
outline and presentation on small business.
    Of course I sit on this Committee, so I know the clarion 
call of this chairwoman when she was ranking member on the 
disproportionate way the budget was set. It has always had the 
lowest infusion of funding.
    However, we all recognize that there was not a budget 
passed last year, therefore we have to operate from the 
baseline of last year's budget and bring in the increase of 
about 2.2, 2.3 percent.
    Now I will say this. The increase that we are giving all 
Chairs is across the board. So that in no way diminishes your 
numbers in terms of the increase. But we do not have the 
propensity at this moment to do anything else because of the 
lack of funding that the appropriators and budget folks have 
disallowed. You said your main office is without a computer, 
did I hear you correctly on that, and your hearing room does 
not have capacity to seat all members at one time? Those are 
issues that I have asterisked so that I can look into those. 
Although we know that space is a premium in this place, and 
that has been the cry from all chairpersons and ranking 
members; that they need additional slots. You need 3 additional 
slots, I have that outlined here.
    It has become quite problematic. We regret that we have to 
tell you this and wish that we could tell you something else 
that has a rosier outcome, but that is the way it is. That is 
the position we are in with the CRs that went through.
    Ms. Velazquez. Madam Chair, I would ask that when you 
discuss the budget submission with the Speaker that you take 
note to the fact that the Small Business Committee jurisdiction 
has been expanded. With that comes more responsibility and 
therefore in order for us to do our job, we should be given 
more consideration when it comes to the budget.
    The Chairwoman. I couldn't agree with you more, and of 
course I am only a lone voice of many who go to the Speaker to 
talk with her. But I will carry that with me knowing that you 
have always been as, one would say, short-changed in terms of 
your budget since 1994, as you so eloquently outlined, that 
that has impacted your budget.
    I was amazed and really quite pleased to know that you are 
bringing in agriculture because one does not readily think 
small business agriculture. But it is definitely a fit.
    I am also very appreciative to you, Madam Chairwoman, 
because it seems like there was somewhat of a tug that you had 
when you were ranking member for the two-third/one-third 
agreement. And you have done that in very open forum and you 
have done that with ease and so I applaud you on that because 
Mr. Chabot has worked very well with you and continues I am 
sure to work well with you, and also the travel and personnel 
that you are expanding along that line.
    Mr. Chabot. Madam Chairwoman.
    The Chairwoman. Yes, please.
    Mr. Chabot. I would just like to note that the Chair has 
been very fair and very cooperative and very gracious. The 
committee staffs are working together and the members as well, 
so we are very pleased with the working relationship that we 
have and we have every reason to believe that it will continue.
    The Chairwoman. Well, I tell you, those are refreshing 
words coming from a ranking member. But then those are the 
words that we have heard all day today from ranking members and 
so we have had at least the pleasantry of sitting here hearing 
that there is cooperation between the chairperson and the 
ranking member. And that is a good thing. So we thank you for 
that.
    And with that, I will turn it over to the Ranking Member.
    Mr. Ehlers. Thank you, Madam Chair.
    First of all, let me join in congratulating you for working 
together on the budget and presenting it jointly, and I 
appreciate that sort of cooperation. I especially appreciate 
the two-third and one-third ratio because this committee worked 
very hard for a dozen years to establish that principle. Both 
the ranking member and I are committed to maintaining the two-
thirds/one-third tradition.
    What is the definition of small business now?
    Ms. Velazquez. Well, you know, that is one of the issues 
that we still have pending with the Small Business 
Administration given the fact that in the last 6 years their 
budget has been cut by 40 percent. They don't have the manpower 
to be able to define what a small business is because it has to 
be based on the different industries. What is for the 
restaurant industry is not for manufacturing, and so on. So it 
is kind of confusing, but we are trying to do our best.
    Mr. Ehlers. Well, I appreciate that, and I was not trying 
to lay a trap. I am curious because I have heard so many things 
over the years.
    I think we all know and we all agree that small business is 
the greatest job creation that we have in this Nation. I think 
it is very important that we protect the small businesses. 
Perhaps maybe you can take on the issue of the estate tax as 
well because it affects small businesses more than anyone else. 
Farmers and small businessmen, I hear from them all the time. 
So perhaps in your spare time you can work with the Ways and 
Means Committee and come up with a solution to that.
    Ms. Velazquez. If I may, that issue is part of our 
oversight plan. But let me just say you know every place we go 
or every person that you hear, they talk about how small 
businesses are the drivers of our economy. They create 80 
percent of all new jobs. But when it comes to providing the 
resources for all to do the job of helping small businesses to 
do what they do best--and that is creating jobs--we need 
resources.
    With expanded jurisdiction, we want to go do field 
hearings. They don't have the resources that would allow for 
them to pay lobbyists to come and talk to us. So it is great if 
we can do field hearings across America, rural America and 
urban America. We go and we listen to them.
    Mr. Ehlers. Thank you, and I yield back.
    The Chairwoman. Well, I must say that America is waiting 
for small business to come across the country because they do 
want to hear from you and want to really have you hear from 
them. You are absolutely right, everyone talks about small 
businesses being the engine and yet they do nothing about it. 
So that is what we call doubletalk. I am sure you two are fed 
up with the double-talk and want something other than that and 
want something productive.
    Are there any other Members? Ms. Lofgren.
    Ms. Lofgren. Madam Chairwoman, I have never served on this 
committee but I have heard a lot about it from the now 
chairwoman. I do congratulate her and the ranking member. I 
served with her 13 years on the Judiciary Committee. I am 
confident that you will have a good Congress working together.
    I just--not having served on the committee, I am struck by 
the comments and I do remember that there was not necessarily 
as pleasing a relationship in the last hearing as we see here 
today. And I am glad that we have--you have established what we 
think is the right thing, which is the minority gets their 
third, and they get to control their third. And that is the way 
it should be. And I compliment you for living up to that, even 
though there were some issues about that when you were in the 
minority.
    On that, I mean, we understand that there is a limit, Madam 
Chairwoman, of 2 percent. But if a committee such as this one--
if a committee such as this one really was down unusually low, 
I would certainly support your efforts to make some kind of 
accommodation for that. Because doing it across the board when 
there was something weird, weirdly low to begin with, it 
doesn't seem exactly right. And more than just right, it 
defeats our mission, which is, you know--I just know from my 
own area and I am sure this is true across the country--there 
is some oversight that needs to be done on these SBA programs 
and small businesses aren't necessarily getting what we think 
they are getting. And I think that both the chairwoman and the 
ranking member would want to do that because it is--I mean this 
is not a partisan issue. This is about the small business 
people of America.
    So I just wanted to support whatever efforts you make to 
get a little bit of a bigger bump-up. The idea that you don't 
have enough room for every Member of the committee to sit, how 
can that be acceptable? So I think that some adjustment would 
need to be made, and I thank the gentlelady.
    The Chairwoman. I thank the gentlelady for her comments, 
duly noted. I think that is an issue that we should look into 
and address with the Speaker. When I go I will have a long 
laundry list of things that the Speaker at least will hear me 
out.
    Do any other Members wish to speak on this? Yes. First Mrs. 
Davis.
    Mrs. Davis of California. Very quickly, Madam Chair, the 
continuity we spoke about in other committees certainly would 
apply here as well. I would be interested in knowing whether it 
is tougher to keep some of your staff partly because you may 
not be accommodating them as well as some other committees. Has 
that been a problem?
    Ms. Velazquez. Basically, my staff and the staff that was 
serving with me before still remain, yes.
    Mrs. Davis of California. So they are loyal.
    Ms. Velazquez. Yes, they are.
    Mrs. Davis of California. They are loyal and----
    Ms. Velazquez. They are loyal but there is a point where, 
you know, the private market out there is seeking for people 
with a type of expertise and knowledge that they have.
    Mrs. Davis of California. And we all rely upon that as 
well, certainly on the Armed Services. The Department of 
Defense, we deal with contract bundling all the time and the 
importance of bringing in small business. So I appreciate the 
work that you all are doing. So thank you, Madam Chair.
    The Chairwoman. Thank you all so much, Ms. Davis. Mr. 
Gonzalez.
    Mr. Gonzalez. Thank you very much, Madam Chairman. I 
apologize for getting here late. I just wanted to add my own 
observation, having served on Small Business when I first got 
to Congress and having rejoined recently. It is an important 
committee whose work has been neglected, and I believe this--
and I don't mean to sound partisan because I believe you have 
members on both sides of the aisle agree with the observation 
that the bulk of the work has to do of course with the Small 
Business Administration and the many programs that are 
dedicated to the proposition that small businesses are very 
important and we should support them to the extent and the 
degree that we must in order to have a robust economy.
    However, the Small Business Administration has truly been 
the stepchild of the administration, in my opinion. If you look 
at the declining budgetary dollars, declining emphasis on the 
programs and so on, not to lay the blame at anybody, we need to 
fix the problem. And I know that the ranking member joins the 
chairwoman in that endeavor.
    So I would like to associate my comments with those made 
earlier by Congresswoman Lofgren. If at all possible--and I 
know we have had other Chairs and ranking members come before 
us--but if we look at small business and look at the present 
situation being experienced, if there is anything that we can 
do to assist them, again, just in the way of resources, and 
main facilities or to meet the tremendous burdens and 
challenges that they actually face, and with that I thank you 
and I thank the chairwoman and ranking member, Mr. Chabot.
    Ms. Velazquez. Thank you.
    The Chairwoman. Thank you so much and your words were duly 
noted. It does seem, as the Chairwoman said, and it has been 
reiterated, that if you have a hearing room without the 
capacity to seat the panel of the members, I think that in and 
of itself is something to be looked at.
    Mr. Ranking Member.
    Mr. Ehlers. Thank you, Madam Chair. Just very quickly, your 
introductory statement, Madam Chair, you made a comment that 
you took a big jolt some years ago and were trying to get back 
up. And I didn't realize the jolt was that big until I looked 
at the chart and saw it and the staff verified this. In the 
103rd Congress, you were at $5,775,000 and some change. And 
under this proposed new budget you will be at $5.965 million 
and change. This means that for next year it will be the first 
time that you are getting more money than you did in the 103rd 
Congress. So it took you only 14 years to recover from the cut.
    I think you can make a pretty strong case--we are limited 
this year because of the lack of appropriations--but you may be 
able to make a case to the Speaker that you should get plussed 
up a little bit. Thank you.
    The Chairwoman. If only a physicist would be able to look 
at that. Thank you folks so very much for being here today, and 
we look forward to working with you. Good luck.
    Ms. Velazquez. Thank you.
    Mr. Chabot. Thank you.
    The Chairwoman. The next panel chair and ranking member 
that we have here are Chairman Filner and Ranking Member Buyer 
from Veterans' Affairs.
    It is my understanding that they were next. Thank you both 
for being here, good afternoon to you. It is a pleasure to have 
you come before the Committee to speak on your budget as well 
as the great work that you do and are doing for our veterans. I 
can't think of a committee that is more worthy to be praised 
than that of Veterans' Affairs. And so we are very pleased with 
the work that you do. We welcome you. Mr. Chairman, if you want 
to get started.

STATEMENT OF THE HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Filner. Thank you, Madam Chair. It is nice to see you 
in the Chair's position.
    The Chairwoman. Thank you.
    Mr. Filner. And all my California colleagues here. And I am 
so glad you have had such unity.
    The Chairwoman. We let a few of the others come forward.
    Mr. Filner. I am so glad you had so much unity up to now 
because I think Mr. Buyer and I have not come to an agreement 
on our personnel budget. But we will get into that. My full 
statement is submitted to you. I am just going to say a few 
words.
    It is a fairly simple budget. I heard some of the other 
Chairs asking for more. What we are doing is to assume a flat 
line for 2007 and we have the exact same personnel and 
administrative budget distributed in the exact same way as 
occurred in the previous Congress.
    We were tasked, I think we were told we might get a 2 to 4 
percent increase for next year. I kept hearing 2 percent while 
I have been here. We assumed the 4 percent and just raised 
everything 4 percent.
    Over 90 percent of our budget is obviously in personnel and 
the rest in travel and IT, printing, those kinds of things. So 
clearly, we have to stay the same for 2007. We projected the 4 
percent. And it is that simple for you.
    I would like to reserve the right to just answer any 
questions that Mr. Buyer raises. But, again, our staff slots, 
our personnel, everything stays the same, and with the 
percentage increase for fiscal 2008.
    And that would conclude my remarks, Madam Chair.
    [The statement of Mr. Filner follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    

    The Chairwoman. Okay, fine, thank you. Mr. Buyer.

STATEMENT OF THE HON. STEVE BUYER, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Buyer. Thank you, Ma'am. Representing this Nation's 
veterans is a very important job. So first I must say you will 
make me feel very comfortable if you have the staff take the 
United States Flag and place it in its proper position in the 
righthand side behind you.
    The Chairwoman. You are absolutely right and that is the 
first order of business after all of this is over today. Thank 
you.
    Mr. Buyer. I wish I could sit here with envy as I listened 
to the testimony of the others come before you and talk about 
their warm and gracious working relationship that they had. I 
cannot testify that we have that at all. I cannot concur with 
proposed budget at all. I was not consulted. When I heard that 
Mr. Filner wanted to adopt the very same budget that Lane Evans 
and I had come up with before, I said--even though I was at 
home still on drugs recovering from surgery, I called Bob and 
tried to explain to him what the rationale was for that budget. 
I don't believe he was in a very good listening mode, and said 
that is our budget and that is the way it is going to be.
    The first time the two of us had an opportunity to sit down 
and discuss was about 2 hours ago, and it was not one of the 
more pleasant meetings I have ever had here in Congress. And so 
it is with a heavy heart that I have to testify and nonconcur. 
Because the Veterans' Affairs Committee is one of the greatest 
committees you can serve on in this Congress. And I have made a 
plea to Bob that, you know, if we can't even agree on the 
simplicity of a budget between us how are we going to work on 
the big issues?
    And this committee--let's throw it on the table here. There 
was--the Republican leadership put a squeeze on the Veterans' 
Affairs Committee when they had some challenges with Chris 
Smith. And then when I became the chairman I said I will accept 
this chairmanship but you need to make an investment in the 
infrastructure because it is lagging very far behind, 
Chairwoman, and this committee did that.
    And I didn't get it all in 2005, but they did it in 2006.
    And so when Jim Holly, who is the Staff Director for the 
minority and Lane Evans, what we decided to do was that we 
would sacrifice on the personnel side and make all the 
investment in our infrastructure, and we did that.
    So you gave us the money to do that. We made huge 
investments, you know all of it--you name it, from laptops to 
servers to printers, even had our offsite. It is where it needs 
to be.
    And so to say, well, the budget for which I am asking, the 
testimony--I wrote down the words--is the exact disbursement, 
the same as in the last Congress. That is not accurate at all. 
Because even there were some payments that I took out of my 
personnel side, now have slipped into the other services. It is 
accurate to say that the number that the minority is receiving 
is the exact same number that the minority received in January 
of 2006. That is correct. And that the Democrat majority is 
saying we are living under the exact same personnel number as 
the Republican number in 2006. That is correct.
    But what has been broken here is when Lane Evans and I 
agreed to make all this investment in infrastructure to then 
sacrifice on personnel--it is hard for me to say what are you 
going to do with now with all the extra money? And there is 
some pain involved at this committee at the moment. There is 
real pain in our committee. The pain is there because you, the 
Democratic Caucus, went through a fight with regard to who 
would be the chairman of the committee. And Lane Evans 
supported Mike Michaud. So anybody who was supported, was hired 
by Lane Evans who supported Mike Michaud, they are gone. So the 
senior experienced leadership out of the Veterans' Affairs 
Committee are gone. People I have known and worked with for the 
entire time I have been here are gone.
    So it is very easy for Mr. Filner to testify and say, well, 
I don't need any of that. Well, yeah, these people have been 
gone. You have been operating under a shoestring. But we, on 
the minority side, sure, we pared down, but we still have pain. 
And it is time to hold to that deal and move to the personnel 
side. If you actually do disburse extra dollars to the 
committee, how do I have any faith that the chairman is even 
going to turn it to personnel? And what is he going to hold it 
on to? When Lane and I said let's put money into travel, 
really, well, the travel thing never really got utilized 
because when we travel we travel on the VA's dollar like you do 
on the Armed Services Committee with the DOD paying for it.
    So we have 50,000 lying in that account, and Mr. Filner 
wants to go to the Philippines on that money.
    I am challenged and it is--I am very disturbed that I have 
to be here and nonconcur because this is supposed to now to be 
one of the most bipartisan committees. And if we cannot even 
agree on a committee budget--I am going to use your words. It 
is the starting point. And those are the words that I also 
share with Mr. Filner. They are the starting point. And if we 
can't even agree to this budget, how are we going to agree on 
the big issues? So it is a heavy heart that I have right now.
    Mr. Filner. Madam Chair, if I may respond.
    The Chairwoman. Mr. Chairman.
    Mr. Filner. Thank you.
    I, too, agree that we haven't come to agreement on this. I 
guess he blames it on me and I blame it on him.
    But the real issue, Madam Chair, is we were given a 
flatline budget. We consulted with the previous staff and all 
the paperwork, which we have submitted to you. And we just said 
we will divide it up the way it was before, which is exactly 
what we did, divide up the personnel budget and the services 
budget exactly as it was before. Apparently, because you know 
there was pain on the minority side, they had to cut their 
staff in half. His upper staff was paid at very high levels. So 
he could not fit his staff into the budget that was given to us 
the previous year and he had before. So he wanted more money. 
And I said, well, we have to live within our budget.
    And then he claimed that the minority really had $50,000 
more, which is what we want. And it turned out that at the end 
of the budget year the staffs agreed on a bonus procedure. The 
majority at the time got 100 grand. The minority got 50,000. 
And the staff distributed bonuses.
    I didn't have any say in that. I didn't know what was going 
on. But we don't know whether we will have that surplus in all 
our personnel budgets. If we have surplus, we would like to 
reward staff who have done better, or if we pay them low 
because of our budget. So that could be distributed as bonuses 
at the end of the year. But we don't know that at this point. 
So I don't know the problem except that he has overpaid his 
staff and he wants us to cover that. And I don't think that is 
our role, certainly at the beginning of a budget year, to say 
that we are going to exceed our budget. The fiscal conservative 
minority is not being too fiscal conservative at this point.
    The Chairwoman. Mr. Chairman, it seems to me like there has 
to be a starting point here.
    Mr. Buyer. Right. And it doesn't start by insulting my 
staff.
    The Chairwoman. Well, we are not going to point fingers 
back and forth. What we are trying to do here now is help 
resolve this issue. Both of you know that your committee is 
extremely important. As I look at some of the itinerary items 
for your committee, you are going to be investigating the 
status of veterans' benefits. You are going to be investigating 
the national cemeteries systems operation. You are going to be 
looking at the national veterans service organization 
conventions and investigate the veterans health administration 
network impact.
    There are very critical issues confronting the two of you 
leaders. Not to mention Walter Reed has now come upon us, and 
we must look at that.
    We cannot talk about what is in the past, whatever that may 
have been and whichever side was advantaged by that or not. 
What we have to do is move forward. Going forward, it is my 
suggestion as we try to wrap this up, present a resolution on 
the floor, because we are late in getting this committee budget 
into resolution form to present to the floor so that we can 
then be in regular order, if you will, at least begin to 
present the committees with their funding so that they can move 
on their issues and their initiatives.
    It would be my suggestion that the two of you talk. It 
seems like that is the one thing lacking here, that you have 
not sat and talked about what you do have.
    When I hear, ``well, I don't know, I am not sure what is 
going on,'' that is a clear indication that communication has 
broken down. I would suggest that you do communicate with each 
other. Good strong leaders can disagree on many things but 
agree on one thing, and that is your budget. So I would 
suggest, and if I might do that, that the two of you please get 
together on your budget so that we can then move forward in 
solidifying this resolution with the Veterans' Affairs budget 
in it signifying that the two of you have come together with an 
agreement, and I think you have the two-thirds/one-third. Am I 
correct on that, Mr. Chairman?
    Mr. Filner. Yes, Ma'am.
    The Chairwoman. But you have funding from travel that was 
never taken of 50 thousand. Am I correct on that?
    Mr. Buyer. Correct.
    Mr. Filner. Madam Chair, if I may, I was not a ranking 
member when this budget, previous budget was drawn up. I am now 
chairman. We looked at our needs. The VA told us that they 
would not be covering the travel as they apparently did in the 
past. I don't know what happened. So we had to build in our 
travel expenses.
    And I would not like you to take away from the testimony 
the characterization that we have not communicated. Mr. Buyer 
is just wrong about the number of times that we talked. We 
talked several times. But our staff has been in communication 
for hours and hours on this.
    We have a basic disagreement. He wants more money than the 
budget allows us to do. It is as simple as that. And he hasn't 
come up with any compromise. He hasn't come up with any 
suggestions. He just said, I want the 50,000 because that is 
what you had last time.
    The Chairwoman. Let me ask you, Mr. Chairman, have you come 
up with any type of conciliatory agreement here?
    Mr. Filner. Again we are starting with the exact same 
budget as Mr. Buyer has said. And when we come to all these 
other expenses, if we don't need the money for travel, if we 
don't need the money for copiers, if we don't need the money 
for computers, then we have some money to talk about. We don't 
know that at the beginning of the fiscal year.
    The Chairwoman. This is the very reason why you should be 
communicating because whether or not the Veterans' Affairs 
Department or the Secretary of Veterans' Affairs or whomever 
has cut off your travel, you might want to go to them and see 
why they have done that. There could be an explanation that 
clears all of that.
    All I am saying to you is that we certainly don't want you 
to go away from here with a misunderstanding of the issue. The 
issue is the two of you must come together in agreement for 
this budget to work. You must come together in order for us to 
move the resolution for final passage.
    Mr. Filner. Madam Chair, do I understand the rules of the 
House such that in the event that the minority does not meet 
the budget that is given in the resolution, does the chairman 
have the authority to take steps that will put that staff into 
budget compliance? We checked with the Parliamentarian. We 
checked with the rules of the House. And I think the Chair has 
that authority. I just want to make that clear.
    The Chairwoman. It could be that understanding, Mr. 
Chairman. The thing of it is, though, we are working outside of 
a budget for this committee. And this committee has--the 
functionality to have a budget and to work within that budget.
    I would say to you that in having not met with this type of 
issue before, but I clearly do understand in personnel 
management that I have had, that in order to resolve this the 
two of you must come to the table to resolve this. It cannot be 
resolved in this committee. It has to be resolved between the 
two of you. And the two of you, I think, would like to get this 
over and done with so that we can put you in this resolution 
and move forward in submitting this resolution.
    Mr. Buyer. Madam Chairwoman, I don't permit anything like 
this to defocus my job in serving the Nation's veterans. But 
you just got a flavor--you just got a flavor of what I am 
dealing with, an insult to my staff saying that they are 
overpaid. And then, when I turn and ask his staff a particular 
question he turns and says you don't have to respond to him.
    So when you are saying, Steve, get together, work these 
things out, I want you to know that I have made that effort. 
And you know I can't talk to a wall. I don't know what to do. 
If anybody can help me here, help me. I would be more than 
happy to. I want to get on with business.
    Ms. Lofgren. Madam Chair, could I ask----
    The Chairwoman. Yes, but I need to go to the Ranking Member 
if you don't mind, Mrs. Lofgren, and then I will get to you. 
Mr. Ehlers.
    Mr. Ehlers. Thank you, Madam Chair.
    Seems about every 4 years we have a dust-up like this from 
one committee or another.
    The Chairwoman. I have been here and I didn't see the dust, 
Mr. Ehlers.
    Mr. Ehlers. Obviously we can't get into a refereeing 
situation here on this committee, but it is our responsibility 
to try and make sure that you get this resolved because we have 
to put some numbers in. It seems to me the basic difference 
here is: you are meeting the two-thirds/one-third ratio, but 
that fact is not concluded in what I believe is the agreement 
that Mr. Buyer had with the previous chairman--or I am sorry, 
the previous ranking member--which resulted in replacing 
equipment and building of the infrastructure of the office. 
Given that, there should be very little need in the budget to 
do that this year. Perhaps there is some money there that could 
be used to ameliorate the situation.
    Mr. Filner. Mr. Ehlers, that is an assumption that Mr. 
Buyer made. We haven't made that decision yet, but we don't 
know----
    Mr. Ehlers. I am not saying you have made a decision.
    Mr. Filner. But you are telling me we don't have any 
equipment needs. We don't know that, and you don't know that.
    Mr. Ehlers. No, I don't. I am speculating. I am simply 
saying that the issue here is really what the result of that 
agreement with Mr. Evans was. I don't know. I am saying that 
has to be part of the discussion, but as I am saying, we can't 
referee this. We are going to have to end up putting something 
in the resolution that goes before the House.
    The other factor that I want to mention, it especially 
concerned me, is not getting agreement on such an important 
issue. By that I mean it's important to so many veterans in 
this country. It is something that you simply have to get an 
agreement on. If it is impossible for you or your staff to work 
out an agreement, then try to involve the good judgment of the 
minority leader and the Speaker. You could have some of their 
staff meet with you, ascertain the facts, and try to help you 
get an agreement. Or if there is someone else that you want to 
pull in from the outside who can help.
    It seems to me that you are not too likely to get agreement 
between the two of you in the short time we have before we have 
to present a resolution to the floor. So I think the two points 
I am making are simply, very simply, one is that the agreement 
with the previous Chair has to be factored into the discussion 
and, secondly, I hope you can resolve this between the two of 
you in some friendly fashion.
    With that, I will yield back.
    The Chairwoman. Thank you, Mr. Ranking Member. I was just 
getting counsel on the Committee to talk with me. Mr. Chairman, 
your question is whether or not you can present your full 
budget to the Committee for functionality without having the 
minority approve it? Am I kind of in the ballpark about that? 
When you said that the rules and the Parliamentarian have both 
ruled on this?
    Mr. Filner. No, I said if their salary, their monthly 
salary allocations come to me for my signature and they are 
above the budget that I have been given, then I have no choice 
but to reduce those salaries to the existing budget.
    Mr. Buyer. Extra 50,000 I gave to the Democrats in 
December, I used that in the calculation of the one-third/two-
thirds.
    The Chairwoman. But you see, now the Chairman would have 
the authority to reduce that to be within the construct of the 
budget and what he is talking about. The 50,000 that you are 
talking about, Mr. Buyer, I am not sure. Is that still money 
that is in this committee? That you say you gave, you gave 
50,000 back to the Democrats?
    Mr. Buyer. Yes, I did, in addition. So if you were to say, 
all right, Steve, what was the allocation majority and minority 
in 2007, I don't know what the final number was. He wants to 
use the number that was given in the January of 2006. So at the 
end of the year--I had Jim Lariviere back here, Marine colonel 
went to Afghanistan. So we had some extra dollars. And I moved 
those dollars, 50,000 over to the Democrats in December. And 
then other dollars were allocated to the majority. I don't even 
know how they broke out. So the question that you just asked is 
because, what I tried to share with Bob is that Bob--what Vern 
just hit on the head--when Lane and I said we are going to 
spend the money on infrastructure and sacrifice on personnel, 
it is now time to move it back on the personnel column, I said, 
I have gotten, I have got this extra 50,000 I already gave to 
the minority, I am going to use that in the calculation.
    That is why he is now asking the question, saying, well, I 
guess what I will do to Buyer now is I will really hammer him. 
I will go in there and fire somebody on his staff and I will 
get him to his number. That is really going to be pleasing to 
relations, isn't it? But that is the purpose of his question to 
you.
    The Chairwoman. I am not sure of that----
    Mr. Buyer. Oh, yeah.
    The Chairwoman. But I am sure that the Chairman does have 
control of that budget at all times. And the 50,000 that you 
gave back to him coupled with the travel funding of 50,000 that 
is still in there, there has to be some type of an agreement 
that you can work together to try to find common ground.
    Ms. Lofgren.
    Ms. Lofgren. May I ask, this isn't making sense to me I am 
afraid because we are in the 110th Congress. We start new in 
the 110th Congress.
    And unfortunately, apparently the chairman and ranking 
member are now not singing Kumbaya right now. Maybe that will 
change. We hope it will. But we have seen that before. I mean 
in the last Congress some of the chairmen and the ranking 
members did not hit it off either, and we hope that that 
doesn't happen but sometimes it does happen. And when that 
happens, the default position is the minority is entitled one-
third. And the position--this didn't always happen in the 109th 
Congress, but it was supposed to happen, that normally the 
minority is entitled to one-third and they are entitled to 
control one-third, not to have to go and beg the chairman for 
their one-third. They should have their one-third, and they get 
to control their one-third.
    So, the question is, is the minority being given one-third 
and control of one-third of the whole budget?
    Mr. Filner One-third of the personnel part of the budget.
    Mr. Buyer. Right.
    Mr. Filner. No. One-third of the personnel.
    Ms. Lofgren. One-third of the personnel budget.
    Mr. Filner. Which is exactly the way it was done for the 
last decade or more.
    Mr. Buyer Worked out.
    Ms. Lofgren. That may be but that is not the way this has 
worked out. I had to chastise some of the Democratic ranking 
members in the last set of hearings because I think that it 
really works better personally for the minority to control its 
own budget, but some of the ranking members made deals with the 
Chairman and did other things, and I guess if there is a deal 
that people want to make, you can disrupt it.
    Mr. Filner. It is not just the question of deals, Ms. 
Lofgren. For example, we have a couple of IT people. Those are 
shared expenses that don't come out of the personnel; they come 
out of the administrative part of the budget. So we are sharing 
that because the computers are all served by the IT 
contractors--so it is not a question of black and white of who 
has control. There are all kinds of expenses that the committee 
as a whole has.
    Ms. Lofgren. Right. The committee room and the furniture 
and the like.
    Mr. Filner. Exactly.
    Ms. Lofgren. But most of the things that I was concerned 
about in the last Congress were ranking members who really had 
made, I think, significant accommodations that I wouldn't have 
made, but I guess it was up to them to make.
    That is not the case here. I think personally that putting 
aside things that can't be divided, such as your IT 
professionals that is going to be, in the best possible Silicon 
Valley way, a geek and a nerd and hopefully not a member of any 
political party, but anything that is really substantive where 
you two might not agree, there really does need to be the one-
third/two-thirds, I think.
    Mr. Filner. If that was looked at, exactly. And one-third 
of the IT budget, I am not sure they could do their stuff 
because it is a whole.
    Ms. Lofgren. I guess part of what--if you could agree, and 
maybe we will have to agree for you, that there are some things 
that are so nerdish that you have to agree to share, like the 
IT guy.
    Mr. Filner. Ninety-two percent of the budget is personnel. 
So that is one-third/two-thirds, and they have full control of 
it.
    Ms. Lofgren. I had understood from the written material 
that it was one-third/two-thirds completely. So maybe we do 
need some more illumination on this, and I thank both the 
Chairman and Ranking Member for their----
    The Chairwoman. Thank you so much, Ms. Lofgren. One thing 
is for sure, if this is not resolved, we can then exclude this 
committee from the resolution, and you can go to the floor with 
your argument and see how that comes out. That is the one 
thing, if I am hearing correctly, at the end of the year that 
we are speaking of, the 2006 year, there was $150,000 that was 
not spent; $100,000 went to Mr. Buyer for staff bonuses; then 
$50,000 was given to Mr. Filner.
    Mr. Filner. No. It was given to the Democratic staff for 
bonuses. I was not the Ranking Member at the time. I had no 
knowledge of this, and I suspect Mr. Evans didn't either.
    Mr. Buyer. He did.
    The Chairwoman. If there is funding left over, who should 
then accept the one-third of that funding? 
    Mr. Filner. I am sorry? If there is money at the end of the 
budget year?
    The Chairwoman. Yes.
    Mr. Filner. Then we will get together and figure out how to 
use that. But obviously we are at the beginning of the year. A 
budget is a planning document. A budget is taking into account 
the best estimates you have at this time of personnel and 
travel and copy and IT and all that. And we made our budget as 
we did, because we are under a CR. We started with the same 
planning document that we did last year when we were in the 
minority. We have the exact same planning document to start 
with. We don't know how it will end yet. We are just in the 
first month.
    The Chairwoman. No funding is left over from that year, Mr. 
Filner?
    Mr. Filner. I don't know of any. I don't know if there was, 
if we can use any, but nobody told me there was any budget left 
over.
    Mr. Buyer. May I ask a question?
    The Chairwoman. So you are not sure whether there was 
funding left over from that year?
    Mr. Filner. Does committee funding move over from year to 
year? I don't know.
    The Chairwoman. No, it cannot.
    Mr. Filner. So there is no money. They used it for staff 
bonuses.
    The Chairwoman. So the $50,000 that was transferred over is 
not there because it has been resolved here.
    Mr. Filner. Exactly.
    The Chairwoman. Fine.
    Mr. Buyer. What would be the number of the available 
dollars that we said would be split among the committees to an 
allocation--what is the number to the Veterans Affairs 
Committee?
    The Chairwoman. You mean in dollars and cents?
    Mr. Buyer. In dollars and cents.
    The Chairwoman. I would have to calculate that out.
    Mr. Buyer. Somebody have that in a chart?
    The Chairwoman. I have a chart here with me, stating how 
much you will be getting for this year, given the 2.2, 2.3 
inflation, that is $3.5 million and some-odd dollars, and that 
is what you are getting for the 2007 year.
    Mr. Buyer. So if that allocation--let me just throw this 
out. It seems to be really helpful. If any allocation over and 
above on the budget from which Mr. Filner has presented to this 
committee is allocated to personnel, that goes a long way in 
helping to resolve this. If you are looking for areas, grounds 
of compromise, wherever you can move forward, I just throw that 
out on the table. I have no idea what Mr. Filner would feel 
about it or what his ideas would be.
    The Chairwoman. Mr. McCarthy wants to speak. Mr. McCarthy.
    Mr. McCarthy. Thank you, Madam Chair. I just have a couple 
of questions. I am a freshman but I used to be the Republican 
leader in the State Assembly and I would negotiate all the 
money for all of our committees. My only recommendation, one 
thing I would say, I had some very heated debates, but once we 
got the budget done, I found we agreed on a lot more things on 
the floor, that we came to a much better agreement. But my one 
question for Chairman Filner: Are you doing any evaluation 
currently on what your needs will be for computers?
    Mr. Filner. Of course.
    Mr. McCarthy. And how far along? And when will that be 
done?
    Mr. Filner. We made an initial assessment and things are 
not as I heard described to Mr. Buyer; that is, we don't have 
any more needs. But that process is ongoing and should be done 
soon.
    Mr. McCarthy. How soon?
    Mr. Filner. Let me just ask my staff director if I may.
    Mr. Buyer. Could I respond for a second?
    Mr. McCarthy. I will come to you in one second.
    The Chairwoman. To whom are we waiting for?
    Mr. McCarthy. He is getting his answer right there.
    Mr. Filner. In our statement that I had provided you--
    Mr. McCarthy. I have it right here.
    Mr. Filner. It says equipment. And we talk about our 2-year 
plan and the document manager system, replacement of one-third 
of the hardware, et cetera, et cetera, update the computer 
software. So that was included in the budget that we gave to 
you.
    Mr. McCarthy. So you have--you are done with your 
assessment then? Because I do see in here computers and stuff.
    Mr. Filner. Yeah. There are other decisions--for example, 
as it turns out, I didn't know that the committee is not on the 
same system as the rest of the House in terms of its software. 
They aren't on the Quorum system. We have to decide whether to 
make that change or not. I mean, those kinds of decisions have 
not been made.
    Mr. McCarthy. Maybe I am not asking properly, you tell me. 
I am just wondering--and part of the debate I heard, you said, 
as you referred back to the Ranking Member here, you weren't 
sure yet because you don't know what the needs are for 
computers. And here I read equipment needed. So I am just 
wondering is there an ongoing assessment? If there is, when 
will the date be there?
    Mr. Filner. We made our assessment. There are changes that 
occur. The whole point of a budget is you make an estimate, and 
then things change. Salary savings may occur, computer savings 
may occur, software savings. We don't know. So we did our best 
judgment of what our needs are, and then we evaluate those 
periodically.
    Mr. McCarthy. Maybe I am not asking properly. I am just 
responding to something I heard from you. I am wondering--are 
you doing an assessment currently? Because that is what I 
thought I heard. If I heard differently, just tell me. I am 
just wondering is that coming? Earlier you said yes, and it is 
going to be done soon. I am just wondering is there a date set? 
If it is not just say no.
    Mr. Filner. I don't know what you heard. The statement we 
have made, a preliminary assessment of our software and 
hardware needs. That is in the statement I gave you.
    Mr. McCarthy. Oh, so you are done with your assessment?
    Mr. Filner. Well, it is always ongoing. You know that. 
Things change. You make your best statement at the beginning of 
the budget year, and then you constantly reevaluate.
    Mr. McCarthy. Okay.
    Mr. Filner. I mean, what is the budget process when you 
first open an office? The same exact thing. We decide what we 
think we need, and it turns out we should have bought two 
computers, and we didn't, so we have to make some changes.
    The Chairwoman. We have them here. Mr. McCarthy, have you 
finished?
    Mr. McCarthy. I have some more questions, if I may.
    Mr. Buyer. Mr. McCarthy, may I respond to that, then?
    Mr. McCarthy. Yes, please.
    Mr. Buyer. I believe Lane Evans and I fulfilled our 
obligation to this committee when we testified for those 
dollars. We spent $206,754.04. We bought four printers, a lease 
on a backup server, purchased eight laptops, leased 12 laptops 
and leased a copier. That was $60,000 in 2005.
    In 2006 we did a lease buyout package and that terminated 
the lease on the backup server. Knowing that I am going to the 
minority, I bought out all the leases. I wanted to leave 
whoever the next Chairman was going to be in the best position. 
So we bought 20 desktops, 5 laptops for the alternate site, 16 
portable drives, 1 medium-duty copier, 15 BlackBerries, 9 label 
printers, CMS upgrades, an additional server, backup power 
station for service. The total buy: $206,000-plus dollars. That 
is a lot of money.
    Mr. McCarthy. You actually answered my question, how much 
did you spend.
    Mr. Buyer. He said, well, it is in our budget, here is what 
is happening. Come on.
    The Chairwoman. You have to wrap it up here, gentlemen.
    Mr. Buyer. There is a pad number. He pads it. So you pad it 
$13,000 on anticipated equipment for 2008. Then he pads another 
one over here by $10,000. That is a $23,000 pad. Now why would 
you do a $23,000 pad? Those are the numbers that Lane and I 
talked about.
    As we go into the next year, those dollars are there for 
the personnel because we would sacrifice on the personnel side. 
So, Madam Chairwoman, your words to me I embrace. The challenge 
which we face--we need that additional staff to do the job, to 
take care of these veterans and do the investigations.
    So I am really perplexed. We come to the committee, we ask 
for additional moneys to do all these upgrades in 
infrastructure, sacrifice on personnel, and now is time to do 
the personnel to take care of veterans, and I can't get access 
to the dollars. Mr. McCarthy, that is my challenge.
    Mr. McCarthy. So you spent $206,000 last time on equipment.
    Mr. Buyer. That would be 2005-2006.
    Mr. McCarthy. My only question, Madam Chair, does this 
committee have the jurisdiction and power to set their budget?
    The Chairwoman. We only set the aggregate dollar amount 
that you see here. We cannot decipher just what in terms of 
incrementally or itemization of what they need. That is the 
decision of the Chairperson, along with the Ranking Member.
    Mr. McCarthy, I think we have exhausted this to the level 
that, as we see it, money that is being requested is money that 
is in the new budget to bring back to do something that was 
done in 2006. I am not sure that can be done. The $50,000 that 
was given. Money does not go over. So we are talking about all 
new money going forward, and money going forward is outlined 
here and the money that I have just given you. So I am not sure 
whether or not any other funding that you are requesting for 
any other reason can come from one pot or the other, unless the 
two of you sit and talk about that.
    But that is new money. It is not old money. You have no old 
money. Lane Evans and no one else can bring back any money that 
was once here. We do not have any more money. Now, if you want 
to conclude, I will----
    Mr. McCarthy. If I could just conclude. I think the way I 
hear it is not that the minority is saying there is any money 
left over. I think what the word I heard was, the budget is 
being set with what--the January money, not with what was truly 
set between the minority and majority at the end of the day. 
And the only concern that I would have and I don't want to put 
any words in anyone's mouth, so I would just ask the Chairman: 
The question from Ms. Lofgren was, at the end of the day if 
money is left over, is that split one-third/two-thirds? Would 
that be the case? Or no?
    Mr. Filner. We haven't come to that situation. They decided 
to split the money personnel-wise. I mean, if we decide we have 
money that we can do extra stuff with, it could be personnel, 
it could be equipment, it could be either of those. Those 
decisions are way down the line. They made the decision 11 
months down the line for that. I don't know what is going to 
occur.
    Mr. McCarthy. But in your mind, if there is money left 
over, it is not one-third/two-thirds, it is negotiated. I am 
not putting words in your mouth; I am just asking.
    Mr. Filner. If we decide it goes to personnel, it is one-
third/two-thirds.
    Mr. McCarthy. If you decide. Okay. Thank you.
    The Chairwoman. First of all, there is no money left over. 
Let's make sure we define that. There is no money left over.
    Mr. Buyer. Nobody is claiming that.
    The Chairwoman. You start anew with new fresh money. There 
is no money that is left over from the year prior to this year. 
So you go forward.
    Mr. Buyer. We know that.
    The Chairwoman. With your new budget funding.
    Mr. Buyer. We know that.
    The Chairwoman. And it is predicated on what you and the 
Chair wish to have as your priorities in terms of personnel, 
travel, equipment, etc. There is nothing from 2006 that we are 
operating with in 2007.
    It seems to me like you are saying that, given that money 
was given back to the minority in 2006, that that money be 
represented in the new budget. That is not the way it goes. 
What does go, is that we cannot continue to dwell on this.
    I would like to ask if we can get financial experts to sit 
with the two of you to try and resolve this issue so that we 
can move forward with a budget that will be amenable to the two 
of you, with two different outsiders independently coming 
together to work with you.
    Mr. Buyer. I accept anybody.
    The Chairwoman. Mr. Chairman?
    Mr. Filner. I am perfectly willing to do that. As I said, 
we were perfectly willing to talk about this before. There was 
a mischaracterization of those prior meetings.
    The Chairwoman. Then I will take back my 
mischaracterization that you are not communicating. But from 
what I see today, maybe there is another definition for this. 
So I will say that simply you have not resolved the issue.
    Mr. Buyer. Right.
    The Chairwoman. And the issue has to be resolved. So I am 
asking, Mr. Chairman, are you willing?
    Mr. Filner. I am willing. You said the situation was not 
resolved. I presented the committee budget, as it is my 
responsibility to do. It is resolved as far as I am concerned. 
If somebody has a different suggestion for me, I will be glad 
to take it, but we were asked to come to you with a budget. We 
did. It was exactly the same as last year's. And there is a 
disagreement. Well, that doesn't mean there is no 
communication. Disagreement just means disagreement. And your 
committee has the ability to take my budget and pass it or not.
    I will be happy to talk further if that is what you would 
advise me as the Chair, although what I am telling you is that 
I gave you the budget that our committee decided upon.
    The Chairwoman. What I am saying to you, Mr. Chairman, is 
that typically the budgets that we put in the resolution are 
budgets that have been agreed upon by both the Chair and the 
Ranking Member. There is some disagreement here somewhere.
    Mr. Filner. But it is possible disagreements are never 
resolved, right?
    The Chairwoman. In this case we have to come to some 
resolution.
    Mr. Buyer. Your recommendation is very good.
    The Chairwoman. May I then ask the two of you to meet with 
me and the Ranking Member after we have seen all chairs today?
    Mr. Buyer. I accept.
    The Chairwoman. Mr. Chairman.
    Mr. Filner. Sure.
    The Chairwoman. I will be happy to do that. Thank you both, 
gentlemen. Mr. Gonzalez.
    Mr. Gonzalez. Just a second, because I am new to this 
committee. The first thing is, what are the options? What can 
we do? Maybe Mr. Filner is right. This is the budget. Maybe we 
live with it or we don't; we approve it or we don't approve it.
    I think I heard the Chairwoman indicate, though, that we 
can excise this from the resolution and go to the full floor 
and let the whole country see this, which I don't think you 
really want the whole country to see this. But I do think there 
is something fundamentally wrong here, and I am trying to see 
if I am getting this right.
    Again, I don't want to misinterpret or mischaracterize 
anything. But are you asking Bob to abide by an agreement and 
the terms of which he was not a party? He is the chairman now. 
As a matter of fact, he is not even coming as the new ranking 
member. He is coming in as the new chairman. There is a new 
majority. So I think we have to respect that.
    So I don't know if you had agreements with Lane or 
whatever, but I think the Chairwoman has indicated we are 
starting totally anew and whatever agreements may have been 
reached in the past with a different member of the Democratic 
Party, at that time the ranking member, I can understand Bob's 
position. But by the same token, this is not a divorce, and you 
guys are going to stay married at the end of this whole 
process. You are going to have to live with each other. It 
would be great if it was a divorce because then we would split 
up the goodies and you all can go your separate ways.
    But we do have to work and I respect both of you all. I 
know both of you. We have served on the same committee, Steve, 
for a number of years and Bob is a personal friend. I just 
again--embracing the spirit that is being demonstrated by all 
members here on both sides of the aisle, of the dais, is to 
come together on this thing. Surely you all can come to some 
agreement and--the thing is though, Steve, again, you 
understand that Bob probably would not be bound, no one wants 
to be bound by an agreement reached by someone else, a third 
party. And I think I understand that.
    Mr. Buyer. The real challenge when I first spoke with Bob 
was is that he said, Steve, I am taking the budget that you and 
Lane had last year. And that is when I said, wait a minute, you 
don't have--would you like to know how Lane and I came up and 
the rationale why we came up with that budget? Because that 
doesn't fit. It just does not fit. We will have so much in 
excess dollars because we made all this investment in 
infrastructure. So we will have that much left over. We would 
have a lot of leftover money at the end of the year.
    So the question that you asked, on what would the 
allocation be in December? I couldn't spend all that money. It 
is not even possible to be able to spend how much money we are 
going to be left behind, because we sacrificed on the personnel 
side. And that is the rationale that I tried to share with 
Lane. I understand that he is not a party to that. And I 
understand that they are not carryover funds. But I am trying 
to press the point to the chairman that the sacrifice that Lane 
and I had agreed to make, because we testified to this 
committee and asked you to upgrade the infrastructure.
    The Chairwoman. Will Mr. Gonzalez yield for a second?
    Mr. Gonzalez. I will yield to the Chairwoman.
    The Chairwoman. Mr. Buyer, the agreement you made with a 
former ranking member----
    Mr. Buyer. Yes?
    The Chairwoman [continuing]. Cannot be a party to what is 
going on in this particular----
    Mr. Buyer. Yeah. But we don't operate in a vacuum. All 
those computers and everything are sitting over there ma'am.
    The Chairwoman. We are not asking you to operate in a 
vacuum. But you keep saying, this is what Evans and I did, but 
Evans is no longer that party with you. So now you have to deal 
with the Chairman, who is Mr. Filner.
    Mr. Buyer. But that is my challenge. He said I am going to 
take the budget you and Lane gave. Well, then, let me tell you 
what Lane and I did.
    The Chairwoman. If no further questions by Mr. Gonzalez?
    Mr. Gonzalez. I yield back. Thank you ma'am.
    The Chairwoman. Thank you so much.
    May I please see the two of you after the committee 
hearings?
    Mr. Buyer. I will. Thank you. Thank you so much.
    Mr. Filner. And the principal's office is where?
    The Chairwoman. I am by no means trying to admonish you on 
this. I am just trying to see whether we can be accommodating. 
Thank you so much.
    Mr. Buyer. Do you have an estimate of time?
    The Chairwoman. Mr. Chair and Ranking Member, can you come 
back in an hour?
    Mr. Buyer. Yes.
    The Chairwoman. Now we have before us the Chairman of 
Energy and Commerce, Mr. Dingell, and the Ranking Member, Mr. 
Barton. We thank you so much for your tolerance and your 
patience. And you may proceed, Mr. Chairman. I know there is a 
time constraint that you have too.

  STATEMENT OF THE HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, Madam Chair. I would ask unanimous 
consent to place my full statement in the record, and I will 
try to summarize.
    The Chairwoman. So be it.
    Mr. Dingell. First of all, it is a privilege to be before 
you, and thank you for the opportunity to appear here today. I 
am delighted to be here with our Ranking Member Joe Barton, and 
the two of us join together in requesting the resources 
necessary to ensure effective consideration of the committee's 
business and operations of the committee over the next 2 years. 
I want to commend Chairman Barton for the superb job he 
performed in running the committee, given the limits placed on 
him by his leadership. He was an outstanding Chairman and is a 
great friend of mine.
    This budget, Madam Chairwoman, is a preview of the one 
which will be formally considered and adopted by the committee 
tomorrow. You are aware that we were forced to postpone a 
meeting of the Commerce Committee to approve our budget 
requests because of the death of our colleague from Georgia, 
Congressman Charlie Norwood. Our funding resolution will be 
introduced shortly after the committee acts, and I promise you 
that that will be done with all speed.
    This budget reflects both a significant increase in the 
workload of the Committee on Energy and Commerce and the need 
to retrain and attract skilled staff. The committee is off to a 
fast start and moving forward with an ambitious and broad 
agenda. We are developing a substantive, balanced and thorough 
record on climate change and global warming, including eight 
hearings this month, and we expect that we will produce 
significant legislation, moving forward on children's health, 
the SCHIP program, Medicare payments, prescription drug and 
medical device user fees, consumer protection and privacy, 
environmental programs, telecommunications, and a host of other 
legislative matters.
    We will be also carrying out important investigative and 
oversight activities, and already the committee has launched 
oversight hearings into nuclear safety issues, prescription 
drug safety, and we are continuing a number of investigations 
begun earlier under my friend and colleague, Chairman Barton.
    Since January the committee has held seven hearings and two 
meetings, in addition to its role in the first 100 hours, in 
the stem cell research, prescription drug negotiation 
legislation and the 9/11 Commission recommendations. The 
committee has planned an additional 28 hearings, 6 markups and 
meetings over the next 4 weeks, for a combined total of 42 
hearings and meetings before we reach the district work period. 
It is already clear that our resources are stretched very much 
without any increases in funding.
    I would like to cite three areas driving our budget 
numbers. First, personnel. In our efforts to recruit excellent 
top-notch committee staff who are experts in their areas, we 
compete not only against the more lucrative jobs downtown where 
beginning attorneys look forward to starting salaries of 
upwards of $150,000 or better, but also with the salary levels 
of many senior staff in the executive branch. Many of the staff 
we have recruited to work with the committee during this 
Congress have accepted significant pay cuts to serve the 
Congress and the public. We do need more staff, and in the 
first 2 months in the majority, the committee staff has worked 
an excessive number of hours to accomplish the work before us.
    We are currently under a staff cap of 108. We requested for 
this committee an increase of five slots for 2007 and an 
additional four slots for 2008, for a total of 118 in the 
second session. Three of these nine slots would be assigned to 
the minority. And I want to make it clear, Madam Chairwoman, 
that we will see to it that the rules of one-third/two-thirds 
are honored fully in this committee. I am committed to 
providing the same resources Mr. Barton made available to us in 
the last Congress, and we will give him his share of whatever 
additional staff members or funding is made available to the 
committee.
    Third, increases in cost. In every category we find the 
cost of services and products is going up. The committee's 
technology needs would include significant upgrade of our 
computer system, replacing aged copiers and fax machines. And I 
report with embarrassment that our copy machines have precluded 
us from having you the statements and supporting papers that we 
had hoped to have for you, and are required under the rules, 
because of the failures of our copying systems.
    We will also be purchasing licenses and other software uses 
to enable this technology to be in compliance with House and 
industry requirements. In the case of the committee's computer 
system, the House Information Resources no longer supports some 
of the critical applications we use. Therefore, the committee 
must now upgrade these programs unless we find ourselves 
without technical support from the House if problems arise.
    There have been increases, as you well know, in travel 
expenses which all the committees incur in needed field 
hearings and in the conduct of investigations, to bringing 
witnesses here to testify, and to attend policy conferences. 
And we have seen this push our budget numbers upward.
    While we try to anticipate spending in these areas, events 
occur in our country which require action by the committee and 
which oftentimes require unanticipated spending of committee 
funds, such as the case of Enron, the BP oil disaster and 
Hurricane Katrina. Committee actions in response to a crisis 
should not then translate into leaving a staff position vacant 
to make up the difference.
    Because of these things and because of the workload facing 
the committee, I ask the serious consideration and the 
sympathetic consideration and your support, Madam Chairwoman, 
and that of the committee for our request for funding for the 
110th Congress. I thank you very much for your cooperation.
    The Chairwoman. Thank you so much, Mr. Chairman.
    [The Statement of Mr. Dingell follows:] 
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Mr. Ranking Member.
    Mr. Barton. Well, Madam Chairwoman and Members of the 
committee, I will make this easy. Mr. Dingell and I are in 
agreement. We are supportive of the budget. It is a very modest 
increase over last year. It is fairly apportioned between the 
majority and the minority, and I will be happy to answer 
questions.
    The Chairwoman. Thank you so much. When you say fairly 
equal, does that mean the two-thirds/one-third agreement?
    Mr. Dingell. That is correct, Madam Chair. We will honor 
that precisely.
    The Chairwoman. Very well. And I am hearing your budget 
will be approved tomorrow.
    Mr. Barton. Praise the Lord.
    Mr. Dingell. Yes, we will, Madam Chairwoman.
    The Chairwoman. I would like to ask unanimous consent that 
we include their budget in the record and in the resolution 
once it has been approved. Hearing none, so be it.
    Mr. Dingell. Madam Chairwoman, you are most gracious. Thank 
you.
    The Chairwoman. Thank you. And we just know you are doing 
great things. You talk about seven hearings, and 42 before the 
district work period. My goodness, you need rollerskates to 
keep up with you two. But we thank you for what you are doing.
    Let me have comments from the Ranking Member, and you will 
be on your way.
    Mr. Ehlers. Just very briefly. First of all, I wanted to 
thank you for the firm commitment to the two-thirds/one-third. 
This committee worked in a bipartisan way over the past decade 
to achieve that level, and we want to make sure it continues. 
So we appreciate that. We appreciate the spirit with which you 
are working together. I personally apologize for the delay you 
had to endure because we were having a problem with two 
chairmen who didn't work together; and that is pretty rare, but 
it does happen.
    Mr. Barton. It is tough around Mr. Dingell. He has got a 
lot more people waiting to see him than I do. It was good we 
had him waiting back here.
    Mr. Dingell. Mr. Barton has been a good friend for a long 
time. He always treated us fairly when we were in the minority, 
and I will see to it that he is treated with all the fairness 
and all the decency that I can muster because----
    Mr. Ehlers. I still remember the very fine speech he gave 
on your behalf when we celebrated your 50th anniversary, and it 
is clear that there is a deep and abiding friendship here. 
Thank you very much.
    The Chairwoman. Thank you so much. And thank you, 
gentlemen, for the collegiality that you reflect in your 
working together. Good luck to you both.
    Now we have Mr. Spratt, the Chairman of the Budget 
Committee. And I am hearing, Mr. Spratt, that while we were 
trying to settle some issues here at the committee, your 
Ranking Member has left, is that correct? Is he here?
    Mr. Spratt. Mr. Ryan was here just a minute ago. He had to 
go to a meeting.
    The Chairwoman. He had to leave for another meeting?
    Mr. Spratt. Yeah.
    The Chairwoman. Then you will----
    Mr. Spratt. We concur, though, in everything. I think I can 
safely say that, and I will make our presentation quickly.
    The Chairwoman. Why don't you go on and do that, Mr. 
Chairman, and then I will ask unanimous consent that we receive 
your testimony, and devoid of your Ranking Member being with 
you.
    Mr. Spratt. Your staff has a copy of it, I assume?
    The Chairwoman. Yes, we do have it. Thank you.

STATEMENT OF THE HON. JOHN M. SPRATT, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Spratt. Madam Chairwoman, thank you for this 
opportunity. Mr. Ehlers, Ranking Member, thank you also for the 
chance to testify before this committee regarding the Budget 
Committee's funding request for the 110th Congress. For each 
session of the 110th Congress, the Budget Committee requests 
the funding level that is frozen at last year's total. That is, 
we were requesting the same funding for 2007 and 2008 as we had 
in 2006. In fact, this is the same amount that we had in 2004 
and 2005.
    As a result, our request for the 2-year period of the 110th 
Congress reflects no increase from the 2-year period of the 
109th Congress. Looking at the funding requests on an account-
by-account level, the largest account by far is the personnel 
account. I should explain that in the last Congress our 
personnel accounts turned out to be less than anticipated. 
There were vacancies because the chairman was term limited, 
expected not to be coming back, and there was an expectation 
that the new chairman would wish to make personnel decisions of 
his own.
    In the 110th Congress, considerable progress has been made 
in filling these vacancies with highly qualified staff, and our 
personnel costs will increase decidedly. Nevertheless, our 
request should provide sufficient resources for personnel costs 
in the 110th Congress.
    When we as Democrats were in the minority, we had a 
mutually agreeable arrangement with the Chairman of the 
committee, the previous majority, and we consulted with that 
minority and intend to continue this practice in the 110th 
Congress. That is, the minority controls a third of the total 
budget for personnel, meaning a third of the available staff 
slots and a third of the line-item money for personnel 
expenses.
    Additionally, we will continue the committee's past 
practice of upgrading the minority's equipment out of the 
overall committee budget. I think we have a good working 
relationship.
    We have a mutual agreement from this budget, and as an 
example of the rest of the Congress, we are simply saying we 
will get by with what we have got. And I am glad to make a 
request to that effect. But we do need what we were requesting, 
around $12 million. As I said, that is the same money we have 
enjoyed for the last 4 years.
    [The statement of Mr. Spratt follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    [The statement of Mr. Ryan follows:]


    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Mr. Chairman, one thing is for sure, you 
recognize the fact that we have budget constraints, and there 
is no one better than you to know that. Operating from last 
year's baseline and then increasing your budget by a mere 2.2 
percent is all that we are offering in terms of your increase 
this year.
    Given that your Ranking Member is not here, may I just ask, 
is there an agreement between the two of you for the two-
thirds/one-third? I may have been talking to staff when you 
mentioned that.
    Mr. Spratt. Yeah.
    The Chairwoman. There is an agreement?
    Mr. Spratt. Yes, ma'am, there is an agreement to that 
effect.
    The Chairwoman. Okay. Fine. Mr. Ranking Member, do you have 
comments?
    Mr. Ehlers. Just following up on that, I understand that 
both of you worked together on this budget and you both are 
approving of what you submitted; is that correct?
    Mr. Spratt. Yes, sir.
    Mr. Ehlers. All right.
    The last point I would like to make is that I appeared 
recently to testify before your Budget Committee on a very 
important issue and gave a superb heartfelt plea. Unfortunately 
you weren't there to hear it. I won't take your time here now, 
but I will have to talk to you later about that.
    Mr. Spratt. Okay.
    Mr. Ehlers. I am not trying to coerce you at all. It is 
only your budget that depends on it.
    Mr. Spratt. All right, sir. Could I say one thing?
    The Chairwoman. Yes, please.
    Mr. Ehlers. I am just jesting, but I appreciate the 
difficult task that you have to do.
    Mr. Spratt. It is indeed. I am the second ranking Democrat 
on the House Armed Services Committee. Ike, of course, is the 
Chairman of the committee and I am second in seniority to him. 
And I would like to make a pitch for that particular committee. 
They will be presiding over a budget this year, when you 
include the supplementals of $643 billion dollars for 2008--
that is the largest amount of money we have spent on defense in 
constant dollars at any time since the Second World War.
    The Chairwoman. Say that again.
    Mr. Spratt. $643 billion. That includes DOE and DOD. 
Defense and Energy, $643 billion. It is $501 billion for the 
base budget and $140-odd billion for the supplemental for 2008. 
They need additional staff. And part of the problem we have got 
with that committee is at a time when the staff and the 
Congress were growing abundantly in the late 1970s, mid-1980s, 
early to mid-1980s, our committee was chaired by people who 
were satisfied with what they had in the way of committee 
staff, and we were not aggressively building up our staff at a 
time when that was possible and when the funding was available. 
And we are now suffering the consequences. But we have an 
enormous responsibility for the stewardship of $643 billion, 
the conduct of the expeditionary deployments in the Persian 
Gulf and elsewhere.
    And of all the committees in the Congress, I don't know 
about the other needs, but I can tell you right now, they need 
additional staff, and anything you can do to help them I think 
would be very responsible and very much appreciated.
    Mr. Ehlers. Thank you.
    The Chairwoman. Well, we will take that under 
consideration, Mr. Chairman, and certainly there are many 
things that I will be taking back to the Speaker to consult 
with her on, and that is one that we will be taking back with 
us.
    Now, are there any comments from either one of the members 
who are presently here? Mr. Spratt, given the fact that your 
Ranking Member had to go to a meeting, I will have to ask 
unanimous consent that his testimony along with yours be 
submitted for the record and have them agree to that being 
sufficient testimony for your being here and the absence of the 
Ranking Member.
    Is there unanimous consent from the members? All votes 
present, aye. So thank you, Mr. Spratt.
    Mr. Spratt. Thank you very much indeed.
    The Chairwoman. Thank you so very much and thank you for 
your patience here today.
    Mr. Spratt. That is fine. Thank you.
    The Chairwoman. Mr. Goodlatte, I see you are here, and your 
Chairman is on his way in.
    Gentlemen, let me first thank you so much for your 
patience. You have been exceedingly patient throughout our 
attempt to come to some agreements with some of the issues that 
were presented before us. One thing is for sure, you have a big 
issue coming before you, and that is that farm bill, so we 
don't want to talk about it. We want you to present your budget 
and your statement.
    Mr. Chairman, welcome. Ranking Member, welcome. You may 
proceed Mr. Chairman.

 STATEMENT OF THE HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr. Peterson. Thank you Madam Chairwoman and Ranking 
Member. And I appreciate the chance to be with you today and 
also appreciate my ranking member, Mr. Goodlatte, for joining 
me here to outline our committee's proposed budget for the next 
2 years.
    The Committee on Agriculture has long had a history of 
bipartisan cooperation that was upheld with distinction during 
Mr. Goodlatte's chairmanship and I trust that that will 
continue in the 110th Congress.
    It has been noted that we have a very important year coming 
up in the Agriculture Committee as we are going to be writing a 
new farm bill which authorizes our Nation's farm conservation, 
nutrition, and rural development programs. The current farm 
bill was written in 2002 and many of its provisions are going 
to expire by the end of September. So we are going to be facing 
a major task over the next few months to get a bill ready 
before the current bill expires.
    In addition this year, our committee has added an 
additional subcommittee. So we now have a total of six 
subcommittees. The expanded subcommittee structure will help us 
and be useful in writing this new farm bill as we conduct what 
I hope to be a very active oversight program, which we have 
outlined in the attached oversight plan. We are focusing in a 
couple areas with these new subcommittees, one of them in the 
energy area, where we will be doing a considerable amount of 
work in the research and development of feedstocks for 
cellulosic ethanol. And we have also made a Horticulture and 
Organic Agriculture Subcommittee, and the focus on organics is 
going to be one of the things that we are going to be looking 
at that we haven't really--well, we have worked on it before, 
but we are going to put more focus, because I believe there is 
a real opportunity in organic agriculture for the folks that 
want to go into that. And we are going to focus on that.
    Our committee has had a strong tradition of offering 
outstanding service and research materials related to 
legislation not only for the committee and its members but for 
other Members of Congress. And, you know, we are excited about 
the opportunities that are in front of us. I have been in and 
around agriculture all my life, and I have never seen a time 
where there is so much optimism, so much excitement in 
agriculture as is going on right now because of the 
opportunities in renewable fuels and ethanol and biodiesel and 
these areas which are--in Minnesota, has been a huge success. 
And it has brought young people back to the farm, and we want 
to try to expand that experience all across the country.
    Given the increased workload that the committee will assume 
this year, we propose a modest but necessary increase in 
funding. Due to the expanded subcommittee structure and the 
additional workload expected for the committee, these 
resources, we believe, will be essential for the committee's 
success in the 110th Congress. Many of our responsibilities 
this year will require additional effort from our staff, and I 
expect--I have already told them that they can be expecting to 
work weekends starting here pretty quick, all the way through 
September. I told my committee members that they shouldn't plan 
too much for the August break because we may be doing 
conference committee during that period of time.
    So we are going to be putting in a lot of hours. But after 
careful consideration, I believe that our existing committee 
staff structure is sufficient, and I have not requested any 
additional positions at this time. And in our request we have 
carefully weighed and balanced, we think, the committee's 
growing needs with the important goal for myself and a lot of 
our members, and that is fiscal responsibility.
    The committee's responsibilities in the 110th Congress have 
implications for all Americans, and our proposed budget will 
allow us to craft a farm bill that meets the needs of our 
Nation's agriculture producers and the consumers that we 
produce for.
    We have basically kept the structure of the committee 
exactly like it was when Mr. Goodlatte was chairman. As I have 
said, we have a great working relationship. We just flip things 
around, it was staff 32/16 for the Republican way. Now it is 
32/16 for the Democrat way. So we kept things exactly the way 
it is.
    Once the farm bill is over with, we intend to spend some 
significant time on doing oversight. I have got some concerns 
about the organization of the Department and some of the levels 
of bureaucracy and so forth over there that I think haven't 
been examined as much as they should. So we will have a lot of 
work to get to once we get done with the farm bill. So we would 
appreciate your consideration, and appreciate the chance to be 
with you.
    The Chairwoman. And thank you. We appreciate your outlining 
this very active agenda that you are putting before us.
    [The statement of Mr. Peterson follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Mr. Goodlatte.

   STATEMENT OF THE HON. BOB GOODLATTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Goodlatte. Thank you Madam Chairwoman, Ranking Member 
Ehlers, and members of the committee. It is a pleasure to be 
here today to support the Agriculture Committee's 110th budget 
request alongside Chairman Peterson. As Collin said, our 
committee has enjoyed a long history of bipartisanship and I 
look forward to a continued environment of cooperation as we 
proceed with the work of the committee in the 110th Congress.
    The committee's primary focus in the last Congress was to 
gather information from America's farmers and ranchers in 
preparation for reauthorizing the 2002 farm bill which expires 
in September. Since this omnibus agricultural legislation is 
only reauthorized every 5 to 6 years, it was important that our 
review be as pervasive and inclusive as possible. Throughout a 
series of 19 full and subcommittee field hearings, we heard 
from 178 farmers and ranchers, in addition to the nearly 3,000 
comments we gathered via our Web site from producers and 
nonproducers alike. Our goal was to find out what in the 
current bill was working and what aspects could be improved. 
Today's producers are facing new challenges that weren't in 
play in the run-up to the 2002 farm bill. We asked our farmers 
and ranchers for their candid feedback and they answered loud 
and clear. Although the feedback varied by region and 
commodity, producers had one thing in common: they want to 
continue to produce, and they need our help. Now that we have 
gathered the information, our next step is to formulate the 
content of the bill and put it down on paper. The bill we will 
write later this year will encompass most of the areas under 
the committee's jurisdiction, including farm programs, 
forestry, food stamps, pesticides, and commodities trading 
regulation, rural development and the farm credit system. This 
will be a significant undertaking that will require all our 
staff resources and I am confident the committee staff is up to 
the challenge.
    In addition to its history of bipartisanship, the 
Agriculture Committee has a strong history of fiscal 
responsibility. The modest spending and cooperative nature of 
our committee spans back more than two decades under the 
control of both parties. It is my intention to work with 
Chairman Peterson and the members of the committee to ensure 
that this tradition is continued, and ask that you grant us the 
funds needed to reach our goals.
    And let me say that in the first 2 months, Chairman 
Peterson has lived up to his comments and we have worked in a 
bipartisan spirit. And in fact, given the fact that the 
majority moving to a minority status has to make certain 
adjustments, we have looked to those; and I think we have also 
helped the majority in a number of ways to help them in their 
new status. So we look forward to their cooperative efforts and 
to your support of those efforts. Thank you.
    [The statement of Mr. Goodlatte follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you so much. You have just said those 
things that are music to our ears, and that is the cooperative 
spirit between the two of you in a bipartisan effort to make 
sure that this works. Of course, you have the big farm bill 
that is ahead of you, the other one expiring in September.
    I am just really pleased to know that the youth are coming 
back to farmland. That is not only optimistic and exciting, but 
it is the future and it is the future of our farmers. Your 
opportunities are vast. And as you spoke, Mr. Chairman, on 
organic agriculture, that seems extremely exciting, something a 
young person in college would love to get their hands around.
    Mr. Goodlatte, when you talk about forestry and food 
stamps, you tend to not think that they are congruent. So it is 
just amazing how these things all come together for the good. 
It is indeed a privilege to have the two of you before us this 
afternoon, and again I don't have to ask but I will for the 
record, Mr. Chairman. The two-thirds/one-third plus your 
willingness to work within the borders of that and even outside 
of it is what you have committed to?
    Mr. Peterson. Yes. Excuse me. Yes, absolutely. We are 
committed to that, and that is how it will work.
    The Chairwoman. Thank you very much. Mr. Ranking Member.
    Mr. Ehlers. Thank you Madam Chair. I want to thank you also 
for the commitment. In most committees I talk to, I say we had 
to work very hard to reach the two-thirds/one-third ratio, and 
you are one of the few committees that met that requirement 
before.
    Mr. Peterson. We didn't have to work very hard.
    Mr. Ehlers. Yeah. Before the Republicans took over in 1995, 
you already met that. You will be interested to know that the 
staffing back then was not 32/16, it was 66/44. So your staff 
has been slimmed down quite a bit since 1993. But I appreciate 
the spirit with which you work together.
    One quick question. If the farmers are doing so well, does 
that mean there is going to be less expenditure under the farm 
bill?
    Mr. Peterson. Less spending?
    Mr. Ehlers. Less expenditures?
    Mr. Peterson. Yes. Well, the commodity title is down $60 
billion from 2002.
    Mr. Ehlers. Really?
    Mr. Peterson. Over the 10-year baseline, we had $140 
billion in 2002 projected. The projection for the next 10 years 
under the the baseline is $80 billion.
    Mr. Ehlers. That is good.
    Mr. Peterson. So we will be able to maintain the safety net 
that we put in place for less money because prices are better.
    Mr. Ehlers. Yes.
    Mr. Peterson. And the farm bill worked the way it was 
supposed to. We saved $17 billion so far over the life of the 
bill below what was projected, and they are projecting out a 
$60 billion savings.
    Now, in other areas, the budget is up. In the food stamp 
and school nutrition, it is up 54 percent because we are 
getting more people to understand about the availability and 
get more use of it; and this is a very good use of our 
government resources to make sure that kids are getting meals, 
and we are looking at some new ideas about trying to get more 
nutritious food into the schools and making sure that people 
that need food have food.
    So I think it is somewhere in the neighborhood of now 67 
percent of our budget will go to food stamps and nutrition. And 
the commodities are way down. So we are saving money in the 
area that most people think of when they think of the farm 
bill. That is, the commodity area. But we are spending more 
money on conservation, more money on food stamps, and we hope 
to be able to spend more money on research for renewable fuels, 
because I think that is something everybody in the country 
wants us to do.
    Mr. Ehlers. Quite right, and I am not convinced at all that 
corn is the answer.
    Mr. Peterson. No.
    Mr. Ehlers. I think there are a number of better 
alternatives out there and that is where the research----
    Mr. Peterson. We will be working on those.
    Mr. Goodlatte. Mr. Ehlers, if I might add to that, you are 
exactly right. We have to rush the research and rush the 
development as best we possibly can with agricultural policy, 
and the free market will determine that more than we will. But, 
too, other forms of other sources for renewable fuels, because 
corn is badly needed in other sectors of our economy for 
livestock feed and human consumption and so on.
    Mr. Goodlatte. Let me get back to the issue before the 
House Administration Committee. The numbers you cited are, 
quite frankly, stunning because, as of right now, we have fewer 
staff between the two of us than minority had; 44 that you 
cited in that number.
    I hope you keep that in mind when you talk to other 
committees about what they are asking for and about what this 
committee is because it is a problem for us, being the fiscal 
conservatives that we both are and our committee has 
historically been. And we come in, and we identify a real need 
that we have from time to time, and you are listening to some 
of the requests that you get from some of the other committees 
on a more constant basis, I have got to say that it makes it 
harder for us, to do what we do in the fiscally responsible way 
that we do it when other committees are making what I think are 
unnecessary requests.
    Mr. Ehlers. We are well aware of that.
    With that, I yield back.
    The Chairwoman. Well, one thing is for sure, they can make 
the requests, but as we know, the budget has come in on last 
year's baseline. And the increase is very modest at about 2.2, 
2.3 percent. So every chairperson and ranking member has left 
with the notion that that is the way it goes.
    Mr. Goodlatte. But I think, Madam Chairwoman, my point is, 
if you go back to looking at the numbers he cited, where we are 
operating with far less than half the staff, they are not 
operating from the same baseline and that, you know, in terms 
of the historic--not just 1 year to the next but historically--
it would be helpful to make them reassess their overall needs. 
We do that every 2 years.
    The Chairwoman. Duly noted, because many have come 
requesting more staff. So your point is well taken. Are there 
any other Members who wish to--yes, Mr. McCarthy.
    Mr. McCarthy. I just want to congratulate these two. I 
happen to serve on this committee, and the professionalism 
between the two has trickled down to the subcommittees and 
everywhere else. The only thing I will say, and I do point out 
that the work that they have to do this year and by the number 
of people that they have and the timeline that the chairman has 
set out for us is very aggressive that we should take this 
request very seriously.
    The Chairwoman. Thank you so much for your comments.
    Mr. Gonzalez, any comments?
    Mr. Gonzalez. No comments.
    The Chairwoman. Thank you, gentlemen, so much for 
continuing to share your leadership in this area.
    Mr. Peterson. Thank you very much, Madam Chair.
    Mr. Goodlatte. Thank you.
    The Chairwoman. And, again, thank you so much for your 
patience. Patience is golden.
    Thank you so much. We have before us now the Chairman and 
Ranking Member of Science and Technology, Chairman Gordon and 
Ranking Member Hall.
    Thank you so much and again, we thank you for the patience 
that you have shown throughout this afternoon. And you are 
ready to go, Mr. Gordon?

STATEMENT OF THE HON. BART GORDON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF TENNESSEE

    Mr. Gordon. Yes. Madam Chairman, and Mr. Ehlers and other 
committee members, I think you probably are the ones that 
should be congratulated for patience. Just being around here 
this short time, hearing the groveling and complaining, I know 
it would wear on you. So I appreciate your attention today.
    I also expect that there is a direct or inverse 
relationship between the shorter we are, the more money we may 
get. So I am going to hope that is the case and try to be very 
brief here with you.
    I was surprised to see the Rollcall the other day that had 
all the various requests. Apparently folks didn't get the memo. 
I thought we were supposed to stick to 4 percent; 4 percent, we 
may not even get that 4 percent. So we really tried to do that 
with our budget. And that is all that we ask for.
    And we are not unlike any other committees in terms of 
inflation with our travel, with our resources and things of 
this nature. But we are a little different in this regard, as 
Mr. Ehlers can very well tell you. Most committees if you have, 
you know, if you are very bright and you have good world 
experiences, then there is probably a place for you.
    On the Science and Technology Committee, that is really 
just not the case. We not only have to have those, that 
element, but staff really has to have a good academic 
understanding of some very complex issues that makes it very 
difficult for us to be able to find these folks. In the 
majority right now, we have seven Ph.D.s, three J.D.s and nine 
staffers that have graduate degrees.
    And that is really what it, you know, what it takes.
    Another, I think, difference for us is that a lot of 
committees probably are slow in getting staffed up. We have one 
more hire because--pardon me, Mr. Ehlers--but last September, 
we started running ads saying that if we get the majority, that 
we want to go ahead and start taking applications then. So we 
tried to get a running start on that.
    The other thing that is a little bit different is that in 
1995, the Oversight and Investigation Subcommittee was done 
away with. We do not think that is the way we should operate. 
We think that oversight is the responsibility of the committee 
and that having a subcommittee to do that is important. And so 
we have added that additional subcommittee.
    So I think we are somewhat different in those categories. 
And I ask you to keep that in mind if there is going to be some 
massaging later on.
    I think another question that I should respond to that you 
haven't asked me but you should ask me is, I see that the 
Science Committee gave some money back the last two Congresses, 
so why do you need any additional money? And let me explain 
that. Again, I think Mr. Ehlers and I probably share a 
frustration that in the last two Congresses, that the majority 
leadership at that time was saying, do less. Our majority now 
is saying, do more.
    And so they did not have their full staff allotment. There 
is really some deferred maintenance.
    Already this year, we had the first open rule. We had the 
first bill on the Floor that dealt with renewable energy. We 
had the first bill on the Floor that dealt with climate change. 
We, as Mr. Ehlers can tell you, we marked up four bills today. 
We are kicking it out because we have got up, and we are 
running, and we have got a, you know, a good professional 
staff. And we need to be able to keep them and add to them. And 
I would hope you would keep that in mind. And if it is 
appropriate, yield to my friend, Mr. Hall.
    [The statement of Mr. Gordon follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Yes, thank you.
    Mr. Hall.

STATEMENT OF THE HON. RALPH HALL, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Hall. Thank you, Madam Chairman and members, I thank 
you. And you know the numerical division in this committee is 
two thirds and one-third, and I think that carries over to 
presentations. He has made two-thirds of the presentation, and 
I will take only a half of what he took.
    I can simply read the last paragraph of what they wrote for 
me and say, Chairman Gordon has put forth to this committee a 
reasonable, well documented request that will allow the Science 
and Technology Committee to continue to engage in important 
policy work. I look forward to working with him over the next 
few years.
    But that is not all I really want to say. I want to say, 
the committee has a long history of bipartisan cooperation. And 
we have already passed several good bills and worked together 
on them. I am confident that the chairman and I are going to 
continue that condition for years.
    I fully support the operating budget that he submitted, 
including the 4 percent increase over last year's funding 
level. And the modest increase, I think, will keep pace with 
inflation and cost of living increases alone.
    So and whether we are dealing with energy research and 
development, American competitiveness or NASA oversight, our 
committee is at the center of these discussions. We have a very 
talented staff of individuals on both sides. Bart is a good 
native Tennessean, a good guy to work with. I have said a lot 
of times that Texas owes Tennessee our very existence. And he 
also always remains and says every time, a guy leaves 
Tennessee, it raises the dignity of both States. And I guess 
that is probably true.
    But I leave with this, thanking you for your time and your 
cooperation with us, working us in at this time. And I leave, 
asking Bart for a copy of that ad that they ran that helped him 
get control of the Floor.
    [The statement of Mr. Hall follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Gordon. You see why Mr. Hall is good to work with. If I 
could add one more thing, former chairman, Chairman Boehlert 
did a lot of good things. One thing that he did do also was he 
had a study done on making the Science Committee a model 
committee for energy efficiency within Congress.
    We have not acted on that in terms of, we have the study. 
We know what to do. We are meeting with the Architect of the 
Capitol today--not the Architect of the Capitol. What is the 
proper term? Okay, Architect of the Capitol, to review those 
and to hopefully set our committee up as a model committee. The 
Senate has already started doing something like that.
    I think what we will find is that, once our committee is 
set up and we see the efficiencies that will come forth, it 
will more than pay for itself. But there is going to be some 
additional expense in doing that also. But I think it is a good 
investment because you will be getting that back as other 
offices start to do the same and we get those energy efficiency 
savings.
    The Chairwoman. Excellent. Absolutely excellent.
    You have moved right into the 21st century and beyond, 
quite frankly. We appreciate both of your testimony today. I 
know it has been a long day for you, as it has been for us. I 
would just turn it quickly over. Four markups today; that is a 
whole lot, Mr. Chairman and Ranking Member. So I applaud you 
both on that.
    Mr. Ranking Member, any comments?
    Mr. Ehlers. Thank you, Madam Chair.
    First of all, I picked up on the fact that you were both 
committed to the two-third/one-third ratio. We are making a big 
point in that because it took 12 years to establish that, and 
we want to make sure we don't lose it. We appreciate that both 
of you are committed to maintaining that.
    Mr. Gordon. The Science Committee has good precedent in 
that. And we are happy to follow it. And I will mention, gosh, 
I am sorry. But one more thing since you mentioned that. One 
other reason that we are a little different than the other 
committees is that we told all the Republican staff members 
that if they weren't hired by Mr. Hall because he only has so 
many spots, if they didn't find any other place to go, that we 
would keep them on salary. And so that is another reason we, 
you know, we don't have a lot of flex early on. And what is 
more than that, we also told them all that they could all 
interview for jobs. We hired 7 of our 20 slots as the former 
members of the Republican staff.
    And so, again, it is important to keep that institutional 
knowledge, that high level of staffers. We tried to do that, 
and we, again, spent some money that other committees didn't by 
keeping on the Republican folks that didn't have a place to go.
    Mr. Hall. And that is not only generous of you, it is kind 
of you. And I admire and respect the Speaker for her 
recommendation early in the session to keep those youngsters on 
for 2 months or 3 months. And I think that failed. I haven't 
really gone back to see who really defeated it. But I think 
that was a good idea, to encourage our young to stay and 
support and take interest in their government because it 
belongs to them. And you know, old people don't fight wars and 
old people don't pay budgets. And I think we have to keep the 
youth increasingly interested in science and math.
    The Chairwoman. I couldn't agree with you more on that. 
Absolutely. Absolutely, Mr. Ehlers.
    Mr. Ehlers. Yes, I certainly agree with those comments and 
appreciate what you have said.
    Just one quick question, Mr. Gordon. At one time, you 
talked to me and said you thought you could live within the 
dollar budgets that you are putting in, but you really needed a 
few extra slots. Did you request those?
    Mr. Gordon. Well, again, recognizing that this is a modest 
budget and difficult time, we made a request for one. And, so, 
you know, we will, as we staff up, we may be back, but we think 
that if we have one additional one, that that will help us get 
over this hump.
    Mr. Ehlers. All right. I was very ready to fight for two, 
but if you will settle for one. I was ready to fight for two.
    Mr. Gordon. We would like to have two. We were just trying 
to be in the spirit of things this time.
    We could sure find a place for them.
    Mr. Ehlers. Fine.
    With that, I yield back.
    The Chairwoman. Thank you so much, Mr. Ranking Member.
    Thank you both for your great testimony and the great 
things that you are doing. When you have all those J.D.s, 
Ph.D.s and graduate degree personnel, you can't go wrong in a 
Science Committee. Thank you so much, and we look forward to 
continuously working with you.
    Now we have with us the Chairman and Ranking Member of 
Intelligence. Chairman Reyes and Ranking Member Hoekstra.
    Good afternoon. Mr. Chairman, thank you so much for your 
patience as we move into this afternoon. I look forward to your 
testimony, and you may begin, Mr. Chairman.

  STATEMENT OF THE HON. SILVESTRE REYES, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Reyes. Well thank you, very much, Madam Chairman, and 
ranking member. We appreciate your patience as well because we 
know it has been a long afternoon.
    The ranking member and I are here to present a completely 
bipartisan budget request for the 110th Congress. This budget 
process was actually started back in November by committee 
staff under the guidance of Mr. Hoekstra and was actually 
finished in the last couple of weeks with guidance from me. We 
are requesting a very modest 1 percent increase in the budget 
allocation from 2006 to 2007.
    In 2008, the committee will be moving down to its new 
location in the Capitol Visitors Center and will require a 6 
percent increase to cover equipment purchases and payroll. 
There is absolutely no padding in this budget that we are 
requesting. And the requested funds are necessary to keep the 
committee operating in its normal capacity in conducting 
oversight of the Intelligence Community.
    Due to the committee's spaces being colocated in the 
Capitol Building, the committee is very concerned with its 
Continuity of Operations plan. Should anything ever happen to 
the Capitol Building, it is almost certain that the committee 
would not have access to the building for several months or 
perhaps even years. Thus we have begun to research, plan and 
budget for an offsite backup. The equipment needed for 
redundant secure communications will allow the committee to be 
stood up in the case of an emergency and is provided for in 
this budget request.
    For the previous 30 years, the House Permanent Select 
Committee on Intelligence has been able to receive information, 
communications, budget documents and briefings, from the 
Intelligence Community through one secure fax machine and 
cleared couriers. We are probably the only committee left in 
the House that receives the majority of its information and 
oversight materials on paper.
    This, Madam Chairman, will change during the 110th 
Congress. The HPSCI members and staff will have complete access 
to Secret Internet Protocol Router Network otherwise known as 
SIPRNET and the Joint Worldwide Intelligence Communications 
System or JWICS. This will allow the committee to receive 
classified material electronically and will save thousands of 
courier hours a year. In order to implement this new capability 
in the 110th Congress, the committee will require a large 
investment in equipment.
    Although the HPSCI operates on a bipartisan basis, the 
budget request also reflects an allocation of the one-third--of 
one-third of the committee's personnel compensation to staff 
members who principally serve the interest of the minority. The 
minority has controlled a third of the payroll budget since the 
106th Congress, and this practice will continue in the 110th 
Congress.
    In order to carry out its work, the HPSCI must recruit and 
retain highly qualified and cleared staff. Many staff members 
have been active in the Intelligence Community for decades and 
are vigorously sought after by the private sector.
    The HPSCI has been given 44 staff slots since the 108th 
Congress. Due to office space constraints in the Capitol where 
we reside, the HPSCI did not have more than 40 staff at any one 
time. The minority is allowed 13 staff; the majority, 26 staff. 
And there are five shared staff. If additional space is 
provided or once the committee moves to the Capitol Visitors 
Center, we intend to ramp up the 44 staff slots that have been 
authorized.
    So, in conclusion, Madam Chairman, we believe these 
increases are justified by the committee's oversight plan which 
seeks to ensure that the Intelligence Community is observing 
its legal obligations and has the resources and capabilities to 
carry out its critical and increasingly risky mission.
    I want to thank you this afternoon for the opportunity to 
present this budget request, and I look forward to any 
questions you might have.
    [The statements of Mr. Reyes and Mr. Hoekstra follow:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you so much.
    Mr. Ranking Member.

   STATEMENT OF THE HON. PETER HOEKSTRA, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Hoekstra. Ditto.
    And the only thing I would add is, you know, I very much 
appreciate the process that Silvestre has gone through as we 
have gone through the difficulty of, you know, staff reductions 
with the transfer, but the chairman has been very, very 
gracious in making sure that we accommodate the needs of the 
staff as we have gone through that process. I think we have now 
completed that. And I think it has worked very, very well for 
the committee. And it has worked very, very well for the staff 
that were affected. So, as Silvestre said, this is a totally 
bipartisan budget. And I endorse it 100 percent.
    The Chairwoman. Thank you so much.
    Ranking member.
    Mr. McCarthy. I just want to verify you have the two-
thirds/one-third rule going; everybody is in agreement there?
    Mr. Hoekstra. Yes, actually, we do, and the way the 
committee is set up, we also have shared positions. And that 
is, you know, Jane and I were in total agreement on the last 
Congress in how we structured that, and that agreement has 
carried forward.
    Mr. McCarthy. Thank you so much.
    The Chairwoman. Thank you so much, and it is great to see 
such a committee of interest--you are just so needed in the 
work that you do, covert, overt, whatever, but it is still very 
much needed. To see the two of you are coming together in a 
bipartisan effort, and that is a great deal of leadership on 
the part of the Chairman as well as the Ranking Member, who was 
the Chairman early on.
    We thank you so much for being here.
    I do not see any further questions that are needed in this 
late hour. We do know that there is a modest increase of 2.4 
percent because we are operating from the budget base of last 
year. And this year, that is a very modest increase, but 
nevertheless, this is what we have. This is what has been given 
to us by the appropriators and Budget Committee.
    But we appreciate the work that you do. If there is 
something else that should come down the pike, we will 
certainly let you know, and you will be aware of that and you 
will hear from us.
    Mr. Reyes. Thank you, Madam Chair.
    Mr. Hoekstra. If I may say one thing, we thought we were 
going to be in the CVC already. And the budgeting and planning 
for that was very, very difficult. And I am not sure we would 
have had the money if we would have actually moved in. So I 
hope that we actually do move into the Visitors Center during 
Silvestre's service as chairman recognizing that if we do move 
in there, I hope we don't have any unanticipated costs, but you 
know, I wouldn't be surprised if there were some.
    The Chairwoman. Well, you know, it is amazing you talk 
about that because we will soon have a hearing on the CVC, and 
we will let you know perhaps in short order as to what will be 
developing there. Thank you both so very, very much.
    Welcome, Standards. I would like to first congratulate the 
new Chairwoman. It is good to see a chairwoman in the position 
of authority. We thank you so much for coming before the 
Committee today to outline your budget and to speak with us 
about the great things that you guys will be doing.
    Of course, Ethics is on the front line, and a priority for 
not only this Congress but for the American people. They are 
looking for you to do great things, so congratulations 
Chairwoman Tubbs Jones. It is also good to see you, Mr. Former 
Chair and Ranking Member Hastings.
    Because of the brevity of time, we will ask you to go right 
into your presentations.
    And you might start, Madam Chairwoman.

 STATEMENT OF THE HON. STEPHANIE TUBBS JONES, A REPRESENTATIVE 
               IN CONGRESS FROM THE STATE OF OHIO

    Mrs. Jones. Thank you, Madam Chairwoman, I am glad to be 
with you as well. I want to congratulate you on your 
chairwomanship, and, Mr. McCarthy, good afternoon to you as 
well.
    Congress is a venerable institution, one in which we have a 
responsibility to ensure higher standards, the highest 
standards of government. My colleague, Ranking Member Doc 
Hastings and I have been entrusted with the responsibility of 
guiding the House and following new ethics rules adopted in 
January 22, 2007, under the leadership of Speaker Nancy Pelosi.
    And the wonderful thing about Doc Hastings and I, we have 
been working together for the past 4, 5, 6 years. And so we are 
not new to one another. And I believe that we will have an 
opportunity to do a great job as chair and ranking member on 
this committee.
    The meetings that we hosted to organize and welcome our new 
members demonstrated that ethics is neither a Democrat or 
Republican issue. Rather it is an issue that concerns Members 
from both sides of the aisle and the professional nonpartisan 
staff members that serve.
    As the committee name implies, the American people have 
entrusted us to uphold the standards of this House. First, the 
committee works to educate and advise Members and staff, and 
secondly, the committee investigates possible violations of the 
rules. And when the rules are broken, the committee must 
enforce them.
    Despite the small staff of 13, the committee annually 
produces thousands of written advisories and formal opinions, 
provides Member and staff briefings and conducts investigations 
of possible rule violations. In 2007, the committee has been 
charged with two additional roles, to conduct mandatory annual 
ethics training for every officer and employee of the House of 
Representatives--which counts for about 10,000 employees--and 
to undertake the mandatory review of traveling requests to 
ensure that congressional travel offered to Members and staff 
meets the House ethics rules.
    We have requested a budget request increase of 28 percent 
from $4.7 million in the 109th to $6.1 in the 110th; in other 
words, $1.35 million in additional funding. With respect to 
ethics, the committee has requested increased staff positions 
from 19 authorized positions funded in the 109th to 24 
positions in the 110th. The committee was provided with funds 
for six additional staff members in the 109th beyond the 13 
that had previously been authorized. However, due to issues 
that have been all in the news--and I am not going to go 
through them at any point--it is time for us to move forward 
and do the job of the committee. And I believe that Doc 
Hastings and I are prepared to do that.
    The committee was able to, in 2006, to fill three existing 
vacancies to meet the staff level, 13, in the 108th. Following 
the passage of the 110th, the committee has anticipated need 
for additional--five additional positions. I am skipping 
through this real quickly, the $1.15 million----
    The Chairwoman. And I appreciate that.
    Mrs. Jones. The primary increase in the budget, $1.15 
million of the 1.35 million, is for increase in personnel 
expenses resulting from the increased responsibilities.
    Under committee rules, two of the staff members are members 
of personal staff of the chair and the ranking member, while 
the remaining 11 staff are retained by the committee.
    The committee staff provide advice and education to House 
Members and staff in several ways, and I won't go through, but 
you are familiar with that. But the committee now needs to have 
additional staff to provide additional responsibility that has 
been given to us, which are to provide mandatory training to 
staff of 10,000 and in addition to which, to increase the 
function, for the first time, to preapprove all officially 
connected privately sponsored travel. Members and staff seeking 
to apply for travel are required under the guidelines to 
provide substantial detail.
    With that, I want to say to you, the Chair and to the 
ranking member, I am excited about the opportunities that the 
committee has to provide the services necessary to the Members 
of the House and the staff. And with that, I am going to--I 
don't know if I am supposed to yield, but I do yield to my 
colleague.
    [The statement of Mrs. Jones follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Well, you may yield, but I am going to 
yield to him any way.
    Mrs. Jones. With that, I complete my testimony and ask you 
to refer to the full testimony. I kind of zipped through it.
    The Chairwoman. Yes. And that is fine. We are asking 
everyone to submit their full testimony for the record. And you 
have done just as we had wanted you to do. So thanks so very 
much.
    Mr. Ranking Member.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Madam Chairwoman.
    I appreciate the opportunity to appear before you with the 
Ethics Committee's request for the 110th Congress.
    Chairwoman Tubbs Jones and I, as well other colleagues, 
have been called on to serve at a very serious and challenging 
time for the Ethics Committee.
    As you know, several events through much of the 109th 
Congress shined a bright spotlight on the committee's very 
difficult work. While the challenges remain, I believe the 
committee's performance during the last 8 months of 2006--
particularly the oversight of the page program investigation--
demonstrated that, given a sincere commitment on both sides of 
the aisle, the committee can effectively carry out its 
obligations to this House. And Mrs. Tubbs Jones and I spent a 
great deal of time here as a member of that subcommittee in 
October, and I believe that we demonstrated that we can work.
    As you know, as the chairwoman pointed out the committee 
has two primary tasks, to educate, inform and advise Members 
and staff about their ethical responsibilities pursuant to the 
Rules of the House and to enforce those rules firmly and fairly 
without with regard to friendship, favor or political party.
    Progress on these two fronts is vital to our overarching 
goal to secure and raise the American people's confidence in 
the integrity of the House as an institution. The American 
people deserve and expect their elected representatives to 
abide by the highest ethical standards. And that is what we 
must strive to achieve.
    I believe the recent increased interest in ethics provides 
us with the unique opportunity to work together and provide for 
successful results.
    At this hearing 2 years ago, I outlined an aggressive plan 
to substantially upgrade and enhance the ethics education and 
training publications and communications with the goal of 
enhancing our ability to help Members and staff to understand 
the rules and to follow them.
    At that time, I requested a substantial increase in funding 
for salaries, equipment and travel to fund six new positions 
and to provide our committee with tools to better serve Members 
and staff in the House. And I appreciate very much the House 
Administration Committee's willingness to fund that vision.
    But, as you know, certain problems during the last Congress 
blocked our efforts to pursue these objectives that we would 
have liked. But I am more committed than ever to be moving 
forward with them. And I am pleased that the chairwoman and I 
share this commitment that I just outlined, that we outlined 2 
years ago. I join her today and request you once again provide 
these resources necessary to enhance our efforts in these 
areas.
    In addition, in light of several significant changes to 
House Rules adopted in January by the 110th Congress, the 
chairwoman and I are preparing for the Ethics Committee to take 
on new responsibilities that the committee has not had in the 
past in the areas of gift, public travel and public disclosure. 
And I hope this committee will provide the resources necessary 
to do that, because I believe that the Members of this House 
need, as quickly as possible, responses from us when they ask 
questions. They are, in fact, customers of this committee.
    So, specifically, we would ask additional funding for 
salaries, equipment and travel for five new positions as was 
outlined by the chairwoman.
    So while recognizing the tight budget times that we face, 
we believe that this budget request is realistic and 
responsible. It will at least follow the full implementation of 
the vision that I put forth at the beginning of the last 
Congress that will help us meet our new responsibilities with 
the Rules recently passed by the 110th Congress. And most 
importantly, it will strengthen the trust and the integrity of 
this revered institution. And I think that is important to all 
of us.
    So, with that, I stand fully behind the statement of the 
distinguished chairwoman of this committee. And I am looking 
forward to working with her this year. And we both stand ready 
to answer questions if you have any.
    [The statement of Mr. Hastings follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you so much for your testimony.
    I like that statement that you made, Mr. Ranking Member, 
you two were called on to serve. That is indeed true.
    Because of the high integrity that you bring to the 
Committee, coupled with your desire to make sure that the 
integrity is above board and that everything that you do is 
above board, I think your testimony is a testament to you two 
being put into this assignment. So we thank you so much for 
your being here.
    Now, I am trying to move this along because Rules has to go 
back to a markup, so I am trying to shorten some things. I 
don't think I have to ask any questions because you have said 
it all. I will refer to the Ranking Member for any statement 
that he might have.
    Mr. McCarthy. I will just be very brief. I want to thank 
you two for working so well together. And as a new Member, I 
know you have a lot of work ahead of you, those rules and 
regulations, because all of those new Members are starting to 
ask, what are the rules? And everyone says, wait until Rules 
gets it--or Ethics comes out with it. So we look forward to 
your work.
    Mr. Hastings. Thank you.
    The Chairwoman. Mr. Lungren.
    Mr. Lungren. I know we are at a tough time here. We have 
time constraints. But I have a real concern. As I understand 
it, we are unable to give them more than 2 percent or 2.4 
percent increase, and their increase request is 40-something 
percent for all the new work they are going to do. And as one 
who had to already submit a request for a relatively simple 
thing, the amount of work they are going to be required to do 
this year under these new rules is extraordinary. And I wonder 
if I could ask, if you just get a 2 percent increase, how are 
we going to be able to have our requests answered by you in a 
timely fashion?
    Mrs. Jones. I just want to correct for the record, we 
really, our increase is only 28 percent. I know it was 
reflected in one of the newspapers that it was 40-something 
percent. But they were comparing apples and oranges. Our 
request is 28 percent. And in order to do the kind of job that 
you want us to do, that is what we need.
    Now, if you don't give it to us, we are going to do as much 
as we can with what we receive. But I would say to you, and I 
don't know who else I have to go to, to say that in order for 
us to preapprove all the private requests and advisory opinions 
and to educate 10,000--we are not just educating Members. We 
are required to educate every officer of the House as well as 
every employee. And we are talking 10,000 people.
    To do a good job at it, we need to have the money that we 
are requesting. I will yield to Doc because he was chair 
before. Maybe he can add to that.
    Mr. Hastings. I think one way to measure this is to start 
with the number of employees we have, which is only 13. And so 
if you add that, what we are asking I think is very realistic. 
And I think that we can do that job. The staff has been doing 
an extraordinary job with essentially a static staff and the 
workload that we had because of all of the awareness of ethical 
issues in the last Congress. So they have done a remarkable 
job. But, frankly, I think that we can do a better job in a 
more timely area.
    You talked about a request coming in. I view this--and the 
chairwoman views this--as you being our customers. You ask us 
for information. I think we should get that information back to 
you as quickly as we possibly can. And sometimes that just 
takes some manpower. And, frankly, with the new 
responsibilities we have--and I might say, I think with the 
concurrence of my chairwoman--they are very difficult to wade 
through. And I don't think that we have gotten to the end of 
the process yet, to be very honest with you. And I think we 
have to have the staff to support us in that regard.
    Mr. Lungren. My concern is we have adopted new rules. I 
always viewed this as an institution--this is part of the 
nonpartisan nature of the institution, the ethical conduct of 
the Members. And if we set ourselves up for failure such that 
we put restrictions on ourselves and because we don't give you 
enough money so you can't do the responsiveness, we are going 
to put Members in the situation where they are either not going 
to be able to do something they should be able to do, or they 
will do it and then be found to be violative of our laws on a 
technical nature. And I don't wish that on any Democrat or any 
Republican or any Independent in this House. And I am concerned 
about this Institution as an Institution. And when you have put 
a request in for $6,119,000 and the proposed mark is a little 
less than $5 million, that means you are about $1.1 million 
under what you think you need.
    Now everybody asks for what they think they need, but in 
this particular case where we have given this tremendous 
increase in responsibility and a need for timeliness for each 
Member's own integrity, plus the--what this House is going to 
look like, I am really concerned about that. And I know we have 
a tough situation, but this is one where we may be setting a 
trap for ourselves.
    Mrs. Jones. That is why we are hoping, because the 
additional responsibility has been put upon us by the House, or 
relayed upon us by the House, that the House may lay an 
additional responsibility upon themselves to give us the 
additional money that we need to do our job.
    The Chairwoman. Frankly, had we passed a budget last year, 
we would have been able then to give you more increase in your 
funding source.
    It is because of a lack thereof we have had to start from 
the baseline of last year's budget and do the modest increase.
    We appreciate what you are doing. We have duly noted what 
you are requesting as opposed to what we can provide at this 
juncture. But I will be going back to the Speaker talking about 
certain things.
    And, Mr. Lungren, those are some of the things I will be 
proposing to her.
    I cannot say anything will come from that. But at least I 
will let it be known that you have raised the bar, so now you 
must have the funding and resources to go along with it.
    Thank you so very much, the two of you, for coming before 
us today.
    Mr. Hastings. Thank you.
    Mrs. Jones. Thank you, Madam Chair.
    Thank you, Mr. McCarthy, and Mr. Lungren.
    The Chairwoman. We know that Members are trying to get 
back. Rules Committee, please come forward, and while we ask 
for the Rules Committee, we know that the Natural Resources 
Chairperson and Ranking Member have some commitments, I have 
been told. Are they still here with us, or have they had to 
leave? They will come back in 10 minutes.
    Okay, then we will wrap it up in 10 minutes.
    May I please congratulate you, Madam Chairwoman, for being 
in the position that you are in. I am absolutely ecstatic. I am 
pleased to see you in that position. And we thank you for 
representing us quite well as the woman who chairs the Rules 
Committee. And I might add, for my California friend, we thank 
you for the leadership and your chairship when you were there 
in the last Congress. And we appreciate you coming on as the 
Ranking Member. So thanks to both of you, and you may proceed 
with your statement.
    Now I would like to ask if you can just summarize and then 
let your complete statement be a part of the record for us.

STATEMENT OF THE HON. LOUISE M. SLAUGHTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. You will be so happy with us. We are only 
asking for 2 percent. So we will get right to it. I am happy to 
see you and Mr. McCarthy, Mr. Lungren. I am proud to come 
before you today as the chair of the Rules Committee for what I 
hope is the first of many appearances to discuss funding for 
Rules. Since we are under time constraints, I will get right to 
the heart of the matter.
    Our committee is responsible for setting the parameters of 
debate for specific pieces of legislation, has the unique role 
of considering the vast majority of complex legislative 
initiatives before they come to the Floor and maintains 
jurisdiction over many other issues of critical importance to 
the ongoing operation of the House, everything from the opening 
day rules package to ensuring the House's ability to function 
in times of crisis.
    In short, Madam Chair, the Rules Committee is the only body 
to have such a wide-ranging jurisdictional reach concerning 
House procedures while also impacting nearly every major piece 
of legislation that comes before it on the way to the House 
Floor.
    Out of respect for the House Administration Committee, the 
budget I submit today, along with the committee's ranking 
member, Mr. Dreier, asks for a budget increase of no more than 
2 percent of the prior year's budget level. It is a budget 
which will allow us to fund the daily operations of the 
committee while still investing to a degree in the ongoing 
efforts to serve the House Membership and the public.
    At the same time, however, it is important to note that 
this committee has historically received much smaller increases 
in funding than almost all others. A budget increase of only 2 
percent will simply continue that trend.
    As such, I must express my belief that keeping the 
committee funding at this level may hinder us from providing 
the level of services to the House Membership and the public 
that we aspire to. Accepting the proposed guidelines for the 
Rules Committee budget has led us to reprogram funds to meet 
growing demands and emerging priorities and essential needs.
    For example, the committee's funding of travel and 
equipment have been cut 40 to 46 percent, respectively, to 
allow for money to be redirected into accounts like 
communication and supplies as well as to recover increased 
spending levels resulting from natural growth.
    Such shifts will result in a budget that will more 
accurately reflect the actual spending of the committee based 
on past year-end budget numbers.
    Funds have also been shifted to the category of other 
services to address modernization needs and software 
development. Both are critical to the committee's ability to 
increase performance and work output and to meet demand and 
increased access to Rules Committee information.
    Mr. Dreier started the development of the Rules Amendment 
Tracking System software that has already yielded great 
benefits to the committee. He has done excellent work in moving 
the committee down the necessary road toward modernization and 
increased efficiency by investing in the RATS program. This 
investment must be continued in order to further increase its 
accessibility and usefulness. That effort will not only 
continue to return dividends internally within the committee 
but also with our daily partners, such as the House leadership 
and the House Parliamentarians.
    Furthermore, Rules strongly desires to shift to a more 
dedicated paperless format as well as to modernize our 
technology and public outreach efforts. We will need 
professional help and guidance to be able to do so.
    I remain confident we can continue to move forward and make 
progress although with the limited funds in our budget 
proposal, project deadlines must be extended to spread out the 
funding over multiple years. This will obviously delay the 
benefits with these investments as we continue to improve the 
services provided by the Committee on Rules.
    And, Madam Chair, any budget that doesn't keep up with both 
inflation and growing costs impacts those who work under it. We 
do believe we can fully staff the committee with a slight 
increase in the personnel funding that is called for while 
still maintaining our work output.
    At the same time, this budget will not provide for the 
desired growth in committee staff, for new positions or for 
common cost-of-living adjustments.
    The Rules Committee has in the past always provided for 
one-third allocation of salary funding to the minority and that 
will be continued. Similarly, the minority will still receive 
one-third of the committee staff slots. But as we strive to 
offer more services to the Members of the House and their 
staff, we will need the increases in this account to provide 
them.
    Madam Chair, the budget cosponsored by Ranking Member 
Dreier and myself carefully and responsibly funds priority 
accounts while reallocating money to more properly reflect the 
demands on our committee's budget in recent years.
    Although we will welcome a greater investment in the Rules 
Committee to help us accomplish our mission, we have chosen to 
come before you today and present a budget that honors your 
request by adhering to the recommended budget constraints. Our 
growing need has not made us unaware of the fact that public 
funds are precious and must be spent wisely. That is a reality 
acknowledged by the modest budget we present to you today.
    And at the same time, it is my hope that the House 
Administration Committee will keep in mind our future goals and 
needs when making final allocation decisions. Any further 
funding assistance would be a great help to both the majority 
and the minority on our committee as we seek to provide the 
best possible services to the House and to the public. Thank 
you, Madam Chair.
    [The statement of Ms. Slaughter follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. Thank you so much.
    Mr. Dreier.

    STATEMENT OF THE HON. DAVID DREIER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Well, thank you, very much, Madam Chairman. 
Until the arrival of Mr. Ehlers, the ranking member of the 
committee, I was looking forward to saying that this was 
history making for me for the first time ever testifying before 
an all California panel. And so if you want to leave now, Mr. 
Ranking Member, I can, in fact, have my dream come true to 
testify before a new distinguished chair of the House 
Administration Committee and my two California colleagues. But 
I don't mind if you stay, actually.
    Let me just say that the testimony that the distinguished 
chair of the Rules Committee, Ms. Slaughter, has provided has 
once again shown that she and I agree on absolutely everything. 
We have never disagreed on any public policy question. We have 
never disagreed on the structure around which issues are 
considered on the House Floor. And so we have done this again.
    The Chairwoman. Let's not go too far now.
    Mr. Dreier. And I will tell you that it was interesting 
that the one thing that she praised me on was, in fact, the 
RATS program, the Rules Amendment Tracking System.
    Ms. Slaughter. It could have been called STAR.
    Mr. Dreier. She wanted it to be called STAR. But Hugh 
Halpern, our staff director, came up with the brilliant acronym 
RATS to describe our amendment tracking system.
    I will say that I believe this is a very appropriate 
request. The one thing that I hope we will be able to make 
clear, they will be continuing the pattern that we had in the 
past of the one-third recognition for staffing.
    I hope that, for travel and equipment and services and all 
that, we will be able to see the one-third allocation for the 
minority, which is something that I do think is very important. 
But as Mrs. Slaughter outlined very appropriately, the Rules 
Committee is basically the traffic cop for the institution. We 
need to be prepared at any time to consider not only the daily 
legislative items that we address, but as she said in her 
testimony, in a time of crisis, the Rules Committee is 
regularly called on. And so we do have very important work.
    So I strongly support the effort that she has here. And 
since Mr. Young has told me that I am to say just that I agree 
and then shut up, I will now agree and then shut up.
    [The statement of Mr. Dreier follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. When have you paid attention to anyone, Mr. 
Dreier? But we do appreciate that. And we appreciate you 
noticing that there are all Californians here, and the Ranking 
Member who has returned.
    Mr. Dreier. It was hard to see.
    The Chairwoman. You are a very astute person. Thanks to the 
two of you for coming before us. You are very sensitive. You 
have said that you have come and you honor our request for just 
the 2.2 percent for inflation.
    But we do recognize and appreciate your being very 
sensitive to that. Because there was not a budget passed last 
year, we had to go from the baseline and then bring in this 
modest 2.2 percent.
    So we thank you so much. We thank you for what you do on 
the Rules Committee. Because, after all, you are the 
determining factor as to what gets to the Floor and what 
doesn't.
    You have outlined a very ambitious, a very challenging 
agenda but one that you can meet with the two of you working 
together.
    Now, there is the agreement of the two-thirds/one-third in 
this committee?
    Ms. Slaughter. Yes.
    The Chairwoman. Okay, fine, very good.
    Mr. Ehlers, you have a comment.
    Mr. Ehlers. Thank you.
    First of all, I appreciate the two-third/one-third ratio 
commitment. We are asking that of every committee because, as 
you know, it was not that way for some time. We have worked 
hard over the past dozen years to make sure that every 
committee meets it, and we want to maintain that.
    Ms. Slaughter. We are happy to do it.
    Mr. Dreier. I hope we can do that not only for staffing 
allocation but, as I was saying, for equipment and travel and 
services as well.
    Mr. Ehlers. Yes. It turns out that almost every committee 
negotiates something different between the chair and the 
ranking member. The spirit of it is indeed that we will share 
two-thirds/one-third, and committees negotiate different ways 
they handle that.
    Absolutely, we just simply want the commitment here.
    Secondly, Mr. Dreier, I apologize I missed the first part. 
I was having a little meeting in the anteroom with some other 
folks who needed my attention. But I have to tell you, it is 
worse than you thought. We have a majority of Californians on 
this Committee.
    Mr. Dreier. My condolences to you, Mr. Ehlers.
    You will survive.
    Mr. Ehlers. It is not so much a problem that they are from 
California. It is just that, as you know, Californians never 
agree with each other. So----
    Mr. Dreier. I have not seen evidence of that. I have never 
seen evidence of that.
    Mr. Ehlers. So my role here is to referee between them. Be 
that as it may, we appreciate your testimony. You run a good 
committee, and I hope that I get as many amendments under the--
--
    Mr. Dreier. I will be trying, I promise.
    Mr. Ehlers. Under the new chairman as I did from you. 
Certainly, I thank you for your service. You probably work the 
oddest hours of any committee of the House.
    Ms. Slaughter. Not anymore.
    Mr. Dreier. Not anymore. I ended that, actually, 3 years 
ago.
    Mr. Ehlers. I appreciate that. At any rate, I have no 
further questions. I would yield back.
    The Chairwoman. Yes, thank you so much, Mr. Ranking Member.
    Mr. Lungren.
    Mr. Lungren. Thank you very much. Again, I appreciate the 
fact that there is a one-third/two-thirds. When I served here 
before, I loved to serve on the Judiciary Committee, upon which 
I still serve, and I recall at that time we had something like 
11 percent of the total budget which made it rather difficult 
for the minority to do its work.
    And I am glad to see that, over the intervening years, 
there has been an understanding of a one-third/two-thirds and 
that this is prevailing now as we come back.
    Some of my colleagues from California have kidded me about 
the fact that I was in the minority for 10 years. I left, and I 
came back, and 2 years after I got here, we went from majority 
to minority again. I don't think there is a cause and effect. 
But I also thinking that there are things to be learned from 
that.
    And I think fairer treatment of the minority is important 
and providing a one-third/two-thirds expenditure, understanding 
it, seems to me is important. And it is helpful to the entire 
constituency.
    Mr. Dreier. As you know, there was a change we made in 1994 
when we became the majority status, and we felt very strongly. 
You said that 11 percent number that you had is--
    Mr. Lungren. Rules was better. It was 17 percent for Rules.
    Mr. Dreier. Right, 17 percent for Rules, but I mean, the 11 
percent on Judiciary Committee, I think it is very important to 
note that. And we felt passionately about that in 1994 when we 
came. And I am very happy that we are continuing with 
recognition of that because, as the gentleman said, it would be 
very unfair to treat the minority as the minority before 1994 
had been treated then.
    Mr. Lungren. Well, the other thing is, everybody has a more 
recent memory of being in the minority.
    Mr. Dreier. That is exactly right.
    The Chairwoman. Thank you so much. Thanks to both of you 
for being here.
    Mr. Dreier. Thank you very much. Again, congratulations to 
you.
    The Chairwoman. Thank you so much. Look forward to working 
with the two of you.
    Ms. Slaughter. Thank you very much.
    The Chairwoman. Step right on up. Thank you so much for 
your patience as we round up this full day of funding hearings 
that started at 9:30 this morning.
    We appreciate the two of you coming in today, Chairman 
Rahall and Ranking Member Young on Natural Resources. If you 
don't mind just submitting your full testimony for the record 
and just summarizing what you would like for the Committee to 
have, we would appreciate that.
    And, Mr. Chairman, thank you and good afternoon.

STATEMENT OF THE HON. NICK RAHALL, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Madam Chair. I appreciate it, and I 
am glad to see my ranking member take his rightful seat to my 
right. And, Ranking Member Mr. Ehlers and Mr. Lungren, I do 
appreciate this opportunity both for myself and my long time 
colleague on both of the committees. I have had the privilege 
of serving in this body for 30 years, both on Transportation 
and Infrastructure and Resources. Ranking member now on 
Resources, Don Young and I now have an opportunity to present 
to this committee our budget for the 110th Congress. We know it 
has been a long day for you. And I am going to be very brief in 
my comments.
    In total, the amount we are requesting represents only a 4 
percent increase in 2007 over the committee's budget for the 
second session of the 109th Congress with an additional 4 
percent increase--only 4 percent I might add--for 2008.
    We believe that this small increase is justifiable in light 
of the aggressive schedule of oversight hearings the committee 
intends to conduct, including in the field.
    In this regard, our committee does have jurisdiction over 
issues affecting Native Americans and the U.S. territorial 
possessions. Many Indian tribes remain impoverished, and 
territorial issues have been largely ignored over the past few 
years. It is our intention to bring the committee out to Indian 
country, to our territories, so we can see and hear firsthand 
the problems they face.
    A brief review of the committee's oversight plan that was 
submitted with our budget proposal will also give you an idea 
of the other pressing issues the committee intends to address 
both through oversight and legislation. The increase we are 
proposing is also aimed at allowing the committee to retain 
talented professional staff. On the Democratic side, I am proud 
to say that we have staff that started on the committee during 
the chairmanships of Moe Udall and subsequently George Miller. 
They have chosen to stay with the committee through thick and 
thin, I might add, and have resisted the temptations of K 
Street for these many years due to their dedication to public 
service. I do respect their loyalty, and I feel obligated to 
provide them with appropriate compensation.
    The committee is allowed 69 staffers in total. Of that 
number, 40 serve on the majority staff; 20 serve on the 
minority staff; and 9 are shared employees, staffers such as 
the systems administrator, the chief clerk and the chief 
financial officer. In this regard, one-third of the salary 
budget is controlled by the minority.
    The remainder of the budget, Madam Chair, items such as 
travel and supplies, is treated openly. By this, I mean, there 
is no distinction or prejudice between the majority and 
minority. Computers, copiers and other equipment are repaired 
or replaced as needed without regard to whether it is a 
Democrat or Republican staffer using them. The same applies to 
travel. That concludes my testimony, and again, I thank you for 
this opportunity.
    [The statement of Mr. Rahall follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. I thank you so much.
    Mr. Young.

 STATEMENT OF THE HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF ALASKA

    Mr. Young. Thank you, Madam Chairwoman. I agree with the 
Chairman 100 percent. I am fortunate to have a Chairman on the 
Committee who served with me for 30 years.
    This is a fair budget request. It is very small. I have to 
say, in defense of the Chairman, you know, that the Democrats 
are supposed to be the big spenders. He is not a big spender. I 
would have been a bigger spender. But he has done what is 
correct, and I do support this budget. I think it is the right 
thing to do. And as he said, we have a great responsibility for 
the land and the water, the wildlife and the territories of the 
American Natives of this Nation. And I support the efforts as 
put forth by this proposal by the Chairman.
    [The statement of Mr. Young follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairwoman. You know what, it was not until I looked at 
the testimonies that you both submitted that I thought, wow, 
what a vast, broad array of things that you do under this 
committee. And I think I counted about 14 hearings in 
California alone or close to that.
    And so we are very pleased that you are seeing California 
as one of those States that you need to continuously come to, 
but then, of course, with its natural resources and other types 
of habitat, you would want to go there.
    I am very pleased with what you are doing. Regretfully to 
say, the committees that have come before us, all of the chairs 
have been met with the notion that we only have a 2.2 percent 
increase for inflation from the baseline of last year's budget 
because we did not have a budget passed last year. So we had to 
operate from last year's budget and then do this 2.2 percent 
increase.
    There could be something else that comes down the pike. I 
have duly noted what both of you have said in terms of the vast 
array of initiatives and the agenda that you have before us. 
And I will certainly go back to the Speaker about this.
    But I must tell you in all candor, at this point, that is 
what we have for the budget. And we just appreciate your 
working within those constraints.
    Mr. Ranking Member.
    Mr. Ehlers. Thank you, Madam Chair.
    It is a pleasure to hear your testimony and to have 
harmonious arrangement between the two of you.
    We have not had that in all our committees, but I know both 
of you well, and particularly, I have worked for years with--
under the direction of the gentleman from Alaska. He has always 
done a good job.
    I am sure both of you will at this point. It is a subject 
that is very dear to me. I could never serve on the committee. 
I have too many committees the way it is now, but the 
environment and resources, conservation are extremely important 
to me. I appreciate the work that your committee does.
    Just one comment with respect to your jurisdiction which is 
basically the entire planet. It is exceeded only by the Science 
Committee in which I serve, we have jurisdiction over the 
entire universe. However, it is a little more difficult to plan 
committee trips to examine--I am hoping that I might be able to 
take a trip to the moon as part of the committee's 
responsibility, but I don't expect that is going to happen in 
my short remaining life.
    On the two-thirds/one-third, which is mentioned, I just 
want to thank you for affirming that--and we are checking that 
with all the committees--because this is very important to this 
committee.
    We struggled for 12 years to establish that ratio, 
including a few recalcitrant committees, because of the history 
where the Republicans were denied resources and some chairmen 
didn't want to yield back.
    But we did establish it. We are determined to keep it. I am 
very much appreciative that you both pledged to continue that 
practice. I appreciate it.
    With that, I have no further questions. And you seem to 
have submitted a very fair budget given the terrible 
constraints we are working under this year. We hope that, if we 
have a good appropriations bill this year, that things might 
look a little better next year. We have no idea if they will. 
So thank you for your efforts. Thank you for your good work and 
make sure that committee keeps running smoothly.
    The Chairwoman. Mr. Lungren.
    Mr. Lungren. Thank you, Madam Chairwoman, and thank both of 
you for coming. I have always enjoyed working with both of you. 
And Madam Chair, it is appropriate that, in today's hearings, 
we started with a Foreign Affairs Committee with Mr. Lantos, 
who is not a native Californian but became a Californian, and 
we end with Mr. Young, who is a native Californian but who 
sought fame and fortune in the largest State in the Union, 
Alaska, but he does return to California from time to time and 
somehow, his alma mater, Chico State, decided that they would 
recognize him as the outstanding graduate.
    And as long as we keep quiet about some of the things he 
has done here, I think they will not remove that title from 
him. So we appreciate him being here.
    Thank you very much.
    Mr. Young. Thanks for the compliment.
    The Chairwoman. Well, I thank you both so much, and again, 
thanks for your patience and thanks for your sensitivity to the 
constraints that we find ourselves in, in terms of this budget. 
Certainly, if anything else should come, you will be the first 
to know that. Thank you so much.
    Mr. Young. Thank you, Madam Chairwoman.
    The Chairwoman. Well, committee chairs, ranking members, 
and members, you have been incredibly outstanding today. We 
have heard from them all today. We knew that it was going to be 
ambitious, and indeed, it was, but you stuck right with us on 
that.
    I would like to thank you both for being right here until 
the end, and I would like to thank those who did come and had 
to leave because of other committee commitments.
    Mr. Ehlers, would you like to make a statement before we 
close?
    Mr. Ehlers. Yes. Thank you for your patience and your 
service on this important day. I believe this is the first time 
we have, in my experience, that we have done it in one day and 
the first time that the chairman and the ranking member 
remained in the meeting the entire day, with a few excursions 
now and then. So I am very pleased that we were able to finish 
this up and hope we get to mark it up and get it through the 
Congress.
    The Chairwoman. Well, we knew, Mr. Ranking Member, that we 
were going to be historic in our team work, and indeed, we are. 
We thank you so much for being around with us.
    We will convene tomorrow for a markup, at around 4 o'clock 
p.m. We ask your indulgence for one more day so that we can get 
this through and get it done. There is one committee whose 
budget has not been cleared by the Committee. I would simply 
say that I will call those two, the Chair and the Ranking 
Member, and ask if they want the choice of perhaps going to the 
Floor to speak on their budget or wait until March 31st when 
the CR is up again for reauthorization, and they will again 
come before this committee.
    With unanimous consent, I will go forward with that 
proposal.
    Mr. Ehlers. I appreciate the opportunity to discuss that. I 
don't have any problem in principle, but I am sure there will 
be a report before tomorrow.
    The Chairwoman. Sure, absolutely, and we will indeed do 
that.
    If nothing else is to come before this committee, thank you 
all, Committee adjourned.
    [Whereupon, at 5:30 p.m., the committee was adjourned.]

</pre></body></html>
